<html>
<title> - ASSESSING THE NATION'S STATE OF PREPAREDNESS: A FEDERAL, STATE, AND LOCAL PERSPECTIVE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            ASSESSING THE NATION'S STATE OF PREPAREDNESS: 
              A FEDERAL, STATE, AND LOCAL PERSPECTIVE

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-35

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Susan W. Brooks, Indiana, Chairwoman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Steven M. Palazzo, Mississippi,      Yvette D. Clarke, New York
    Vice Chair                       Brian Higgins, New York
Scott Perry, Pennsylvania            Bennie G. Thompson, Mississippi 
Mark Sanford, South Carolina             (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
            Eric B. Heighberger, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     8

                               Witnesses

Mr. Timothy Manning, Deputy Administrator, Protection and 
  National Preparedness, Federal Emergency Management Agency:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Mark Ghilarducci, Director, California Governor's Office of 
  Emergency Services, Testifying on Behalf of the National 
  Governors Association and the Governors Homeland Security 
  Advisors:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18
Mr. Jeffrey W. Walker, Senior Emergency Manager, Licking County, 
  Ohio, Testifying on Behalf of the International Association of 
  Emergency Managers:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25
Mr. James Schwartz, Fire Chief, Arlington County Fire Department, 
  Testifying on Behalf of the International Association of Fire 
  Chiefs:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Ms. Kathy Spangler, Vice President, U.S. Programs, Save The 
  Children:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37

                             For the Record

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Statement of Troy Riggs, Director, Indianapolis Department of 
    Public Safety................................................     1
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Letter From Kathy Spangler.....................................    41

                                Appendix

  Questions From Hon. Susan W. Brooks for Timothy Manning........    59
  Questions From Hon. Susan W. Brooks for Mark Ghilarducci.......    61
  Questions From Hon. Susan W. Brooks for Jeffrey W. Walker......    64
  Questions From Hon. Susan W. Brooks for James Schwartz.........    66


  ASSESSING THE NATION'S STATE OF PREPAREDNESS: A FEDERAL, STATE, AND 
                           LOCAL PERSPECTIVE

                              ----------                              


                      Thursday, September 19, 2013

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Susan W. Brooks 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Brooks, Palazzo, Payne, and 
Clarke.
    Mrs. Brooks. Good morning, the Homeland Security 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order. I would like to welcome our 
witnesses, everyone in the audience and those who are watching 
this webcast today, to our hearing today on our Nation's state 
of preparedness.
    Before I recognize myself for an opening statement, I ask 
unanimous consent that the testimony of Director Troy Riggs, 
the director of public safety in Indianapolis be submitted for 
the record. Director Riggs is unable to testify today in person 
due to a scheduling conflict.
    Without objection, so ordered.
    [The information follows:]
 Statement of Troy Riggs, Director, Indianapolis Department of Public 
                                 Safety
                           September 19, 2013
    Chairman Brooks, Ranking Member Payne, and Members of the 
Subcommittee on Emergency Preparedness, Response, and Communications: 
On behalf of the city of Indianapolis, thank you for inviting me to 
testify today on the state of our Nation's preparedness. My name is 
Troy Riggs and I serve as director of the City of Indianapolis 
Department of Public Safety. Indianapolis is ranked as the 13th largest 
city in the United States and the Indianapolis Department of Public 
Safety is comprised of the Indianapolis Metropolitan Police Department 
(IMPD), the Indianapolis Fire Department (IFD), Indianapolis EMS 
(IEMS), the Division of Homeland Security (DHS), Animal Care and 
Control (ACC), Public Safety Communications (PSC), the Citizen's Police 
Complaint Office (CPCO), and the City of Indianapolis, Mayor's Office 
of Re-Entry.
    On January 22, 2013, Indianapolis Mayor Greg Ballard and I 
introduced a series of initiatives designed to make the operation of 
the Department of Public Safety and its divisions more effective, more 
efficient, and more transparent to the public. Internal reviews were 
conducted where each Division was asked to provide information such as 
mission statements, structure, funding, staffing, goals and measures, 
and special projects. These internal reviews were important for 
continual assessment of strengths, in order to address concerns and to 
search for improvements. What was very collaborative and creative was 
that concerns began to be addressed through a process or an efficiency 
team. These efficiency teams have addressed some of the biggest 
concerns in Indianapolis but also concerns that are trending throughout 
our Nation. The efficiency teams take a whole-community approach and 
they are made up of not only first responders, but also of volunteers, 
city county agencies, private partners, churches, and general members 
of the community.
    Some of the issues that have been addressed by efficiency teams 
relate to preparedness. One of the largest disaster responses that 
occurred in Indianapolis recently was reviewed by an efficiency team. 
On Saturday, November 10, 2012 the Richmond Hill subdivision 
experienced an explosion that impacted 125 homes and resulted in two 
fatalities and multiple injuries. The focus of the efficiency team was 
to look at what we did well and what we need to improve. In the first 
minutes of the explosion hundreds of calls were received. Pinpointing 
the hue ``ground zero'' took collaboration with first responders and 
dispatch. This was mitigated within 4 minutes of the first call. The 
deployment of the first responders met current standard operating 
procedures and response time goals. Established priorities of life 
safety and fire suppression were achieved following the National 
Incident Management System (NIMS) protocols. Collaboration with outside 
agencies was a big success. Some of the improvements needed were 
identified such as ensuring the command post location was easier to 
identify by outside agencies, an improved patient tracking system, 
improvement on identifying searched homes, and securing a funding 
source for immediate resource needs. With such a large number of 
agencies coordinating and sharing information these efficiency teams 
serve as a true reflection of our community and are a conduit for 
improvement in all areas.
    To prepare for such a disaster our Indianapolis Division of 
Homeland Security (DHS) takes the lead. The Indianapolis Division of 
Homeland Security is responsible for protecting the citizens of Marion 
County through a comprehensive program of mitigation, preparedness, 
response, and recovery. DHS members work hard in the office and in the 
field to ensure that as a city, Indianapolis is ready for anything. Our 
emergency plans are continuously reviewed and tested to be sure that 
they are operationally sound and up-to-date so that when disasters do 
arise these plans are effectively executed. DHS collaborates with other 
agencies of the Department of Public Safety to conduct well-rounded 
investigations into the criminal activities that happen in our 
community.
    Another notable event that also turned out to be a huge success was 
Super Bowl XLVI. During the first week of February 2012, hundreds of 
thousands of visitors came to Indianapolis and shared in the excitement 
of Super Bowl XLVI. Years of planning and preparation by our dedicated 
personnel finally paid off as we successfully kept spectators, 
visitors, and residents safe before, during, and after the event. Super 
Bowl XLVI turned out to be a huge success and put the city of 
Indianapolis on the map as a community with a distinguished Department 
of Public Safety and Division of Homeland Security. Planning and 
preparation were in the form of training such as the Indianapolis Joint 
Counterterrorism Awareness Workshop that brought together local, State, 
and Federal officials together. As the lead planning agency for this 
special event, our Division set a new standard for the Nation in 
protecting residents and Super Bowl spectators by promoting an 
environment of collaboration and cooperation between local, State, and 
Federal public safety officials.
    Presidential Policy Directive 8: National Preparedness (PPD-8) 
requires all FEMA Regions and all States and UASI's (Urban Area 
Security Initiatives) receiving homeland security grants to prepare a 
Threat and Hazard Identification and Risk Assessment (THIRA). The City 
of Indianapolis participated in the THIRA process to look at threats 
and hazards closely and help prepare for disasters. During the 
Indianapolis THIRA process the Richmond Hill Incident occurred. The 
THIRA discussion on HAZMAT/Explosion was therefore quite prescient as 
over 81 homes were damaged by the explosion, 32 to the point of needing 
to be torn down. Further, all the accompanying issues such as 
sheltering, debris removal, forensics, etc. were immediately needed to 
be successfully maneuvered heading directly into the cold weather and 
Thanksgiving holiday seasons. Responders, stakeholders, and appropriate 
resources came from across the UASI to assist in the massive 
undertaking--a process made easier due to the planning started through 
this THIRA and accompanying steps.
    Among Indianapolis DHS' biggest tasks is educating citizens about 
preparing for emergencies. This large undertaking is conducted through 
the Marion County Community Emergency Response Team program. The CERT 
is made up of approximately 1,900 volunteers who dedicate their time 
and talents to preparing the community for a disaster by providing 
emergency response for the community following a major disaster. The 
goal of the Marion County CERT team is to provide the skills that are 
needed to sustain residents until emergency professionals arrive. First 
responders may not be able to meet the service demand, so civilians 
should be prepared to fill this need until help arrives. CERT trains 
citizens in basic disaster response skills including fire safety, light 
search and rescue, team organization, and disaster medical operations.
    Serving the community has become a very important part of the 
Marion County CERT team. The CERT team participates in many community 
events from cleaning up neighborhoods to distributing weather radios to 
mobile home parks to public speaking and conducting preparedness 
presentations.
    In the future the CERT team will be looking for ways to continue to 
service the community by incorporating additional training such as 
search and rescue of lost children, providing CPR/AED training, and 
reaching out to our most vulnerable populations, including the elderly, 
persons with disabilities, and the non-English speaking populations.
    The CERT program is making a difference in Indianapolis.
    In the area of prevention and protection the Division of Homeland 
Security has recently established a Cyber Defense Force whose mission 
is to improve the overall cybersecurity preparedness of the 
Indianapolis metropolitan area. The Indianapolis Division of Homeland 
Security Cyber Defense Force was created in 2013 and currently consists 
of 4 members, all reservists. It may be expanded in the future as 
warranted. The reservists have many years of experience in the 
internet/cybersecurity field. Being a newly-formed group, the section 
has just started to provide services to the community at large.
    During normal operations, one of the force's main tasks is to 
inform, train, and disseminate cybersecurity information to utilities, 
industry, businesses, schools, and the community at large via lectures, 
newsletters, press releases, web pages, and social media. They will 
recruit and train speakers on cybersecurity for the Indianapolis DHS 
Speaker's Bureau to act as a force multiplier for disseminating 
information.
    In addition, they will work with representatives from industry, 
utilities, Government, and the EOC to develop a methodology to 
communicate with each other as appropriate about potential and 
immediate cyber threats. They will conduct table-top exercises and 
other drills with these groups to test the procedures developed.
    During a cyber attack, the force will be tasked with gathering 
reliable and timely information on the on-going attack. If appropriate 
they would inform other organizations to be alert for similar attacks 
in the event there is a coordinated attack against our city. Then, 
using state-of-the-art forensic techniques, the force will help to 
gather information on who the attackers were and how the attack was 
performed. They will also provide the conduit for reporting this 
information to the appropriate government agencies. Lastly, they will 
work with the utility/agency/business/organization to suggest the 
``best practices'' approach to prevent the attack from occurring the 
same way again.
    The Cyber Defense Force has started joining up with other groups to 
help stay informed about existing regional and National cybersecurity 
initiatives and to take advantage of available resources. Some of these 
groups include:
  <bullet> The Multi-State Information Sharing & Analysis Center;
  <bullet> Stop. Think. Connect. (www.stopthinkconnect.org and 
        www.dhs.gov/stopthinkconnect);
  <bullet> The National Cyber Security Alliance (NCSA) 
        (www.staysafeonline.org);
  <bullet> State of Michigan Fusion Center;
  <bullet> Infragard.
    Finally, the Cyber Defense Force is participating in multiple 
training opportunities at the State, regional, and National levels to 
ensure they have the latest information to accomplish the objectives 
outlined above.
    Schools are a major component in the fabric of every community. 
They are more than the epicenter of education, but are also a space 
where sporting events, after-school activities, and community events 
are held. For this reason the Division of Homeland Security created the 
Safe Schools program. This school-based program develops a solid 
relationship between the safety and security initiatives of DHS, the 
city government, and the local school system.
    One way that we are working with the schools is through the use of 
technology. The technology currently being utilized is known as Digital 
Sandbox. Digital Sandbox software enables school districts and States 
to catalog their facilities and school security plans, create and 
update safety assessments, report incidents and monitor threats in and 
around their schools. This secure web-based platform and mobile 
reporting apps are accessible to all stakeholders from school 
administrators to public safety agencies, providing a common, 
continuously-updated picture of the school security environment, as 
well as seamless information coordination during a crisis. An integral 
part of this safety approach is this technology solution designed 
specifically for schools that allows school and district officials and 
the public safety community to better prepare for, monitor, and respond 
to safety- and security-related events. There are already many school 
districts in Indianapolis that have been working with the school safety 
solution, provided by Digital Sandbox, capturing critical data elements 
associated with their schools that will assist first responders in an 
emergency. This solution also provides a primary communication vehicle 
between the public safety community and schools for ``missing person'' 
and high-value informational alerts.
    We have highlighted several different ways that the City of 
Indianapolis addresses prepares for disasters and one of our major 
concerns is the sustainability of these programs. Collaboration and 
strong partnerships have been a great part of our success but funding 
for these initiatives is crucial and funding is an alarming issue we 
now face.
    As the 13th largest city in the United States Indianapolis was 
receiving funds under the Urban Area Security Initiative (UASI) that 
sustained these programs. The Department of Public Safety and the 
Division of Homeland Security have expressed and continue to express 
our disagreement with the fiscal year 2013 Department of Homeland 
Security appropriations, which limits the funds provided under section 
2003 of the Homeland Security Act of 2002 (6 U.S.C. 604) to 31 cities 
or urban areas. We strongly urge that this provision be reconsidered to 
support the PPD-8 effort to build and sustain preparedness on-going and 
supports to build on a range of existing activities.
    Even though Indianapolis is the 13th largest metropolitan city and 
host to several National and international companies, National sports 
venues, professional sports teams, auto racing, NCAA Hall of Fame/
Headquarters, host to several National and/or international large-scale 
events, and a large convention business; our funding was cut in 2011 
and then we received a significantly reduced amount in 2012; in 2013 
our funding was cut yet again. In prior years the funding was around 
$4.5 million with the State withholding 20% for their use. In 2012 it 
was significantly reduced to $1.2 million with the State keeping 20% 
and City of Indianapolis and Hamilton County splitting $900,000.00.
    Prominent companies in our major metropolitan area include: Eli 
Lilly, Roche Diagnostics, Military Finance Center, Allison 
Transmission, Rolls Royce, Federal Express Hub, CSX Central Rail Hub, 
Raytheon, MISO (located in Carmel: MISO is an essential link in the 
safe, cost-effective delivery of electric power across much of North 
America), and many others.
    Large-scale events hosted in our city include: The Indianapolis 500 
(largest one-day sporting event, which also includes a month long of 
events), largest half-marathon in the country, 3rd-largest parade in 
the country, Men's and Women's NCAA Final Four (every 5 years), 
multiple National and collegiate events, Indiana Black Expo Summer 
Celebration, Circle City Classic, professional teams (Indianapolis 
Colts, Indiana Pacers, Indiana Fever, Indianapolis Indians, Indy 
Eleven, and Indiana Ice), NASCAR Racing, MotoGP Racing, and many other 
multicultural events.
    Setting an arbitrary cut-off on the number of jurisdictions is 
contrary to the intent of UASI as authorized in the Homeland Security 
Act of 2002, especially in light of the evolution of the threat to our 
Nation which now may include home-grown violent extremism. Homeland 
Security is a Federal, State, and local responsibility. The material 
recently referenced from Osama bin Laden's journals apparently shows 
that terrorists were focusing their interests on mid-sized cities, many 
of which are now not receiving Federal funding.
    The UASI program addresses the unique planning, operational, 
equipment, training, and exercise needs of high-threat urban areas and 
assists us in building capacity to prevent, protect against, respond 
to, and recover from threats and acts of terrorism. A great deal of 
work goes into managing the UASI program at the local level and 
consistency of funding is a key component to enable us to continue to 
protect our citizens. Inconsistent funding, with no clear direction, 
makes it very hard to plan and utilize funds. Eligibility for funding 
is determined by the Congressionally-mandated terrorism risk-based 
formula which looks at threats, the vulnerabilities of a jurisdiction 
and the consequences of an attack. To arbitrarily drop cities like 
Indianapolis from the list is to make us ripe for terrorist interest 
along with the loss of sustainment of multi-year and multi-million-
dollar projects that provide some of the highest levels of situational 
awareness and proactive protective measures.
    Thank you for the opportunity to testify. I am happy to answer any 
questions the committee may have.

    Mrs. Brooks. This month is the 12th anniversary of the 
tragic events of 9/11. Earlier this week, we were once again 
reminded that tragedy can strike at anytime, and so our hearts 
do go out to all of those who were affected by the shootings at 
the Navy Yard. Our thoughts also go out to the people of 
Colorado as they are weathering historic flooding.
    So we would like to thank the law enforcement, the first 
responders, members of the military, and medical personnel who 
have, once again, responded to these tragic events.
    Since 9/11 and to this day, preparing for and protecting 
against terrorist attacks as well as other emergencies, has 
been a focus of our country, and I know that many of us here 
today have dedicated our professional lives to making this 
Nation more secure. Make no mistake, over the past 12 years, we 
have made significant progress in improving the Nation's 
ability to prevent, protect against, mitigate, respond to, and 
recover from disasters.
    One needs only to look at what happened very recently at 
the Boston Marathon bombings where we saw an extremely 
coordinated and effective response from first responders, law 
enforcement, and medical personnel.
    Since 9/11, the city of Boston has used Federal grant 
dollars to improve their prevention and their response efforts. 
They have held training and exercises to test their plans. They 
have promoted the use of interoperable communications across 
multiple jurisdictions and sectors, and we know that the 
actions of those Boston first responders that day, no doubt, 
saved many lives and mitigated damage.
    However, we also know, as always, there is more work to be 
done. So this country still needs to develop a process that 
continues to define and effectively measure our effectiveness 
capabilities.
    FEMA has been assigned with this difficult task, and we 
know has been working toward this goal. In order to help 
measure our Nation's preparedness, the administration in April 
2011 publicly released the Presidential Policy Directive 8--
National Preparedness. PPD-8 required that the Secretary of 
Homeland Security submit to the President a National 
preparedness goal and a new National preparedness system that 
will help achieve the goal.
    It has been over 2 years since PPD-8 was released, and we 
are still waiting to see the implementation of some of these 
critical components of the National preparedness system. 
Additionally, as required by the Post-Katrina Emergency 
Management Reform Act and PPD-8, FEMA released the second 
annual National preparedness report or the NPR in March of this 
year.
    This report does outline the progress being made in 
building and sustaining our Nation's 31 core capabilities as 
defined in the National preparedness goal. It highlights 
several areas of National strength including planning, 
operational coordination, and intelligence and information 
sharing. But it also draws, as it should, attention to areas in 
need of improvement including specifically cybersecurity, 
recovery-focused core capabilities, and public-private 
partnerships.
    FEMA has released four of the five National planning 
frameworks including prevention, response, recovery, and 
mitigation. These frameworks provide processes and strategies 
to assist in achieving the National preparedness goal.
    In this hearing today, I am interested in learning about 
the level of the involvement of the State and local 
organizations, what you have had in the development of these 
frameworks, and how you are planning, if at all, to incorporate 
all of these frameworks into your daily operations.
    Additionally, I am interested in learning when the final 
framework, the protection framework and the Federal inter-
agency operations plan might be released.
    Preparedness is not just a responsibility, as we know, of 
Federal, State, and local entities, but individuals, also, must 
take a role in preparing for disasters. September is National 
Preparedness Month, of which I am a Congressional co-chair, and 
it is important we promote preparedness to our constituents, 
our communities, and our stakeholders.
    This month, I have encouraged Members of Congress to 
promote preparedness activities in their districts, but we know 
more must be done. According to a 2012 survey by FEMA, 46 
percent of respondents reported being familiar with their local 
hazards, but only 39 percent said they have an emergency plan 
in their own household.
    This is actually quite discouraging if you think about it, 
if only 39 percent surveyed say they actually have a plan, and 
I am hoping that with the preparedness goal and system, we can 
continue to educate individuals about the need to be prepared.
    After all, we know, and FEMA Administrator Fugate certainly 
said, ``Winging it is not an emergency plan.'' We must be 
prepared.
    With the unpredictable nature of disasters and emergencies, 
it is vital that we as a Nation continue to hone our 
preparedness capabilities. As the Boston Police Commissioner, 
Ed Davis, stated at a House Homeland Security Committee hearing 
recently, ``The truth of the matter is nobody bats a 
thousand.''
    We can't be fully prepared for every single scenario, but 
we have to strive to bat a thousand because lives count on it. 
Through this hearing, I hope to learn more about the strengths 
and weaknesses of our Nation's state of preparedness, and also 
gain a greater understanding of how our Nation is working 
together to build resilience.
    I look forward to hearing the perspectives of our witnesses 
on this important issue. I now recognize the gentleman from New 
Jersey, Mr. Payne, for any opening statement he may have.
    Mr. Payne. Good morning. I would like to thank Chairwoman 
Brooks for holding this hearing and giving the subcommittee the 
opportunity to learn more about the National state of 
preparedness. Before we begin this hearing, I want to express 
my condolences to those who lost loved ones, the friends and 
co-workers as a result of the tragic events at the Navy Yard 
earlier this week.
    I also want to thank the first responders for their heroic 
efforts in that time of need. Last week, we commemorated the 
anniversary of September 11. In 12 years, we have made 
significant improvements in our preparedness capabilities from 
planning to communications to operational coordination.
    However, every day, we are reminded of the work that still 
needs to be done. In the last year alone, we have witnessed 
incredible tragedies. Last year, Hurricane Sandy wreaked havoc 
along the East Coast and in my home State of New Jersey. It 
displaced families, destroyed schools and businesses, and 
disrupted the school year.
    In December, a shooter killed 20 children and 6 adults at 
Sandy Hook Elementary School. In April, terrorists detonated 
explosives at the Boston Marathon killing 3 people and injuring 
many more. In May, tornadoes devastated Oklahoma. Two 
elementary schools were in the path of the tornado and, 
tragically 7 children died at one elementary school.
    After each of these incidents, the National collective 
asked, ``What could we have done differently?'' We wonder how 
we could have prevented them. If prevention is not possible, we 
wonder how we could have mitigated the devastation. If you are 
a parent, these tragedies cause you wonder about how best to 
protect your children.
    Earlier this month, Save the Children released its annual 
report card on protecting children in disasters. It found that 
28 States including the District of Columbia, do not require 
schools and child care facilities to include the four standards 
that the National Commission on Children and Disasters deemed 
essential.
    I am proud to say that New Jersey is one of the few States 
that includes these four criteria. I encourage each member of 
the panel to review this report, to determine whether your 
States meet each of the four criteria. If your State does not 
meet the standard, I would urge the members to call their State 
officials and ask why.
    Along with this individual advocacy, I believe that as a 
legislative body, this Congress can do and should do more. I am 
introducing the Safe Schools Act legislation that will require 
States applying for a State homeland security grant funds, to 
certify that their schools have an emergency plan that meets 
the standard recommended by the 2010 commission on childrens 
disasters report.
    I want to thank Save the Children, and I apologize for not 
wearing one of my four Save the Children ties today for their 
support of my legislation and for all their hard work in making 
sure that our children remain a priority, the No. 1 priority, 
in our disaster planning and preparedness efforts.
    I want to thank the witnesses for being here, and I look 
forward to their testimony, and I yield back my time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                           September 19, 2013
    Good morning. I would like to thank Chairwoman Brooks for holding 
this hearing, and giving the subcommittee the opportunity to learn more 
about the National state of preparedness.
    Before we begin this hearing, I want to express my condolences to 
those who lost loved ones, friends, and coworkers as a result of the 
tragic events at the Navy Yard earlier this week.
    I also want to thank the first responders for their heroic efforts.
    Last week, we commemorated the anniversary of the September, 11, 
2001 attacks.
    In 12 years, we have made significant improvements in our 
preparedness capabilities--from planning to communications to 
operational coordination.
    However, every day we are reminded of the work still that needs to 
be done. In the last year alone, we have witnessed incredible 
tragedies.
    Last year, Hurricane Sandy wreaked havoc along the East Coast and 
in my home State of New Jersey. It displaced families, destroyed 
schools and business, and disrupted the school year.
    In December, a shooter killed 20 children and 6 adults at Sandy 
Hook elementary school.
    In April, terrorists detonated explosives at the Boston Marathon, 
killing 3 people and injuring many more.
    In May, tornados devastated Oklahoma. Two elementary schools were 
in the path of the tornado, and tragically, 7 children died at one 
elementary school.
    After each of these incidents, the Nation collectively asks what 
could we have done differently? We wonder how we could have prevented 
them. If prevention is not possible, we wonder how we could have 
mitigated the devastation.
    And if you are a parent, these tragedies cause you to wonder about 
how best to protect your children.
    Earlier this month, Save the Children released its annual Report 
Card on Protecting Children in Disasters.
    It found that 28 States, including the District of Columbia, do not 
require schools and child care facilities to include the four standards 
that the National Commission on Children and Disasters deemed 
essential.
    I am proud to say that New Jersey is one of the few States that 
includes these four criteria.
    I encourage each member of the panel to review this report to 
determine whether your State meets each of the four criteria.
    And if your State does not meet the standard, I would urge the 
members to call their State officials and ask why.
    And along with this individual advocacy, I believe that as a 
National legislative body, this Congress can and should do more.
    I am introducing the S.A.F.E. Schools Act, legislation that will 
require States applying for State Homeland Security Grant funds to 
certify that their schools have emergency plans that meet the standards 
recommended by the 2010 Commission on Children and Disasters Report.
    I want to thank Save the Children for their support of my 
legislation, and for all of their hard work in making sure that our 
children remain a priority in our disaster planning and preparedness 
efforts.
    I thank the witnesses for being here, and I look forward to their 
testimony.
    I yield back the balance of my time.

    Mrs. Brooks. Thank you. Other Members are reminded that 
opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 19, 2013
    Good morning. I would like to thank the witnesses for being here 
today to discuss National preparedness.
    I would particularly like to thank Ranking Member Payne, Jr., for 
inviting Save the Children to testify.
    For almost a decade, I have worked to improve disaster preparedness 
and planning for children and those with special needs and language 
barriers.
    I am pleased to work with Ranking Member Payne, Jr., to advance 
these efforts.
    The 2013 National Preparedness Report indicates that we have made 
progress in building cybersecurity capabilities. I am encouraged that 
we are moving forward but I am not convinced that anyone believes we 
have done all we can to ensure that this Nation's cyber networks are 
protected and resilient.
    I look forward to continuing the progress on the cyber front.
    I also urge the leadership of this House to become actively engaged 
in putting legislation on the House floor that will help us protect the 
known vulnerabilities in the cyber network that runs every aspect of 
this Nation's critical infrastructure.
    As we look at the many things that need to be done, we need to 
mention the continuing need to provide interim and long-term housing 
solutions following catastrophic disasters.
    We learned after Hurricane Katrina that we were ill-prepared and 
ill-equipped to provide interim and long-term housing to large numbers 
of disaster survivors.
    I was troubled to learn that 500 people remained in shelters a 
month after Hurricane Sandy.
    Eight years after Hurricane Katrina, we should have at least 
learned how to address housing needs.
    Finally, this Congress needs to consider the effect of uncertain 
funding has on the development of preparedness and response 
capabilities on the local level.
    During our full committee hearing on the Boston Marathon Bombing, 
the Boston Chief of Police made it clear that the effectiveness of 
their response effort was made possible by the Federal homeland 
security grants they had received.
    As this Congress continues attempts to reduce funding for 
preparedness programs, we need to understand that these reductions have 
a direct effect on the ability of first responders to save lives during 
times of disaster and tragedy.
    To call this approach short-sighted is to give it too much credit. 
It is not sighted at all. And as it says in Proverbs--where there is no 
vision, the people perish.
    Madame Chairwoman, I raise these three issues--grant funding, 
housing, and cybersecurity--because I know that we can solve each of 
them with great benefit to this Nation. I urge you to join us in our 
efforts to resolve these problems.
    I thank the witnesses for being here today, and I look forward to 
their testimony.
    I yield back.

    Mrs. Brooks. We are very pleased to have this very 
distinguished panel before us today on this important topic.
    I would like to begin by introducing our first witness, Mr. 
Tim Manning. He is the deputy administrator for protection and 
National preparedness of the Federal Emergency Management 
Agency. This is not your first time testifying before this 
committee, so welcome back.
    In this capacity, he oversees the National preparedness 
directorate, the grants program directorate, the normal 
continuity programs directorate, and the Office of National 
Capital Region Coordination. Mr. Manning brings to FEMA nearly 
2 decades of emergency management experience including service 
as a fire fighter, an emergency medical technician, and a 
rescue mountaineer.
    Next, we have Mr. Ghilarducci. Mr. Mark Ghilarducci is the 
director of the California Governor's office of emergency 
services. As a member of the cabinet, Director Ghilarducci 
serves as the Governor's homeland security advisor and oversees 
State-wide public safety emergency management, emergency 
communications, counterterrorism efforts, and a State threat 
assessment system, STAS.
    Prior to his appointment, Mr. Ghilarducci has been involved 
in disaster emergency response and recovery activities 
resulting from hundreds of major incidents within California--
he served both Nationally and internationally. He is testifying 
today on behalf of the National Governors Association and the 
Governor's homeland security advisor's council.
    Next we have Mr. Jeff Walker, who is the senior emergency 
manager for Licking County, Ohio. Prior to this position, Mr. 
Walker was the director of the Licking County Office of 
Homeland Security and Emergency Management for 13\1/2\ years. 
He has served on countless committees including Ohio's 
Emergency Management Training Council, Ohio's severe weather 
awareness committee, and was appointed to FEMA's National 
advisory committee.
    Mr. Walker currently serves as the president of the 
International Association of Emergency Managers and is 
testifying on behalf of that organization. As I understand you 
will be heading to Vienna soon to also appear at a conference. 
Thank you, Mr. Walker.
    Next we have Chief James Schwartz, who has been the fire 
chief for the Arlington County Fire Department since 2004. 
Prior to this appointment, he served in a variety of fire 
department positions including assistant chief for operations, 
responsible for all response-related activities including fire, 
EMS, hazardous materials and technical rescue, response 
incident management, and operational training.
    He led the unified command effort for the Pentagon incident 
after September 11. He currently serves as the chair for the 
International Association of Fire Chiefs committee on 
terrorism, homeland security, and he is testifying on behalf of 
IAFC. I must say, Chief, that we made the reacquaintance 
because we visited as a U.S. attorney appointed 1 month after 
9/11.
    You were part of a presentation to a number of new U.S. 
attorneys at the Pentagon in November 2001, and I remember to 
this day, we went to the Pentagon and listened to you and the 
chief at that time, present to us what that scene was like, how 
you secured that scene, and that horrible tragedy at the 
Pentagon.
    It was a very powerful presentation to all of us in law 
enforcement to learn about what the fire service's role is in a 
terrorist incident, and so good to see you again.
    I would now like to defer to Ranking Member Congressman 
Payne to introduce our next witness.
    Mr. Payne. Thank you, Madame Chairwoman. It is my honor and 
privilege to introduce Ms. Kathy Spangler, and she is the vice 
president of the U.S. programs for Save the Children, where she 
focuses on improving educational outcomes for children living 
in poverty, through early childhood development, literacy, 
physical activity, and nutrition.
    Additional, Ms. Spangler oversees Save the Children 
programs that are dedicated to protecting children during 
emergencies and disasters and focuses on preparedness and 
response efforts. Prior to joining Save the Children, Ms. 
Spangler served as the founding director of the National 
Partnerships for the National Recreation and Park Association.
    It is really an honor to have her here to testify on these 
issues, so welcome. I yield back.
    Mrs. Brooks. Thank you. The witnesses' full written 
statements will appear in the record and just to let you know, 
you have 5 minutes for opening remarks, and we will start with 
you, Mr. Manning.

STATEMENT OF TIMOTHY MANNING, DEPUTY ADMINISTRATOR, PROTECTION 
 AND NATIONAL PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Manning. Thank you. Good morning, Chairman Brooks, 
Ranking Member Payne, Members of the subcommittee. Good morning 
and thank you for having me here today.
    The administration remains committed to strengthening the 
security and resilience of the United States through a 
systematic preparation for the threats and hazards that pose 
the greatest risk to the security of the Nation. Much progress 
has been made fueled by FEMA's grant programs but with 
leadership at the State and local levels.
    Monday's tragedy at the Washington Navy Yard underscores 
the role State and local emergency responders maintain in 
keeping this Nation safe. In March 2011, President Obama signed 
Presidential Policy Directive 8 on National preparedness.
    The body of work established pursuant PPD-8 creates a 
system that allows us to both build preparedness and to 
understand how well-prepared we are by setting a goal, 
establishing a baseline, sending common and comparable 
terminology, measuring the capability gaps, and assessing our 
progress towards filling them.
    The National Preparedness Goal released in September 2011 
is the cornerstone of PPD-8 and defined a set of 31 distinct 
core capabilities across the mission areas needed to achieve 
the National preparedness.
    The National preparedness system is the instrument that the 
Nation uses to build, sustain, and deliver the core 
capabilities to achieve the goal. Implementation of the NPS is 
a whole-community approach to homeland security and emergency 
management that supports building, sustaining, and delivering 
the core capabilities through identifying and assessing risks, 
estimating capability requirements to meet those risks, 
planning to deliver those capabilities and validating those 
capabilities through exercises and real-world incidents and 
reviewing and updating each.
    The foundation of the National Preparedness System is 
identifying and assessing risks. To be truly prepared and to 
understand our progress towards the goal, we need to know what 
we are preparing for. Communities should understand the risks 
with which they are faced.
    The Threat and Hazard Identification and Risk Assessment or 
THIRA process, helps communities identify those threats and 
hazards and determine capability targets and resource 
requirements necessary to address anticipated and unanticipated 
risks.
    The THIRA process gives communities their end-state, 
capability targets based on their threats and hazards and 
resources required to meet those targets. The State 
preparedness report measures the rate or change between current 
baselines and the end-state identified in the THIRA.
    This SPR is an annual self-assessment and review of State 
preparedness based on the targets set in the THIRA. The 
National planning frameworks describe how the whole community 
works together to deliver the core capabilities needed to 
achieve the preparedness goal, as part of a unified and 
coordinated effort.
    There is one framework for each of the five mission areas: 
Prevention, protection, mitigation, response, and recovery.
    The protection framework is very close to nearing 
completion. We are working closely with our partners across the 
Department of Homeland Security and across the homeland 
security and emergency management community to ensure that the 
draft protection framework aligns with and expands, clarifies, 
and advances the National strategic approach protecting 
critical infrastructure and the strategic guidance of the 
administration and Secretary of Homeland Security.
    At the Federal level, each framework has been supported by 
a mission-area-specific Federal Interagency Operation Plans, or 
FIOPs for short. These FIOPs describe how the Federal 
Government will deliver the core capabilities in each mission 
area in support of a response and State and local governments.
    The protection, prevention, mitigation, response, and 
recovery FIOPs are under the final development and review, and 
we are confident in their completion and publicaton in the very 
near future.
    The National Preparedness Report then examines the 
preparedness across the Nation. The first NPR released in 2012 
included specific accomplishments in the context of the core 
capabilities identified in the goal.
    The 2013 NPR identified 65 key findings. Several of these 
findings focusing on overarching National trends and 
highlighting areas of National strength. The 2013 NPR found the 
Nation continues to make progress building preparedness in key 
areas including planning, operational coordination, 
intelligence and information sharing, and operational 
communication.
    Each of these was identified as also an area of strength in 
the 2012 NPR. The Nation also made progress in suggesting areas 
identified for improvement in 2012, including cybersecurity, 
recovery focus, core capabilities like economic recovery, and 
the protection of natural and cultural resources.
    The 2013 NPR also found the Nation has made some progress 
in planning to address long-term challenges posed by climate 
change and extreme weather, but this remains an area of focus 
for preparedness initiatives Nationally.
    This past year has given FEMA more opportunities than we 
would like to assess the preparedness through real-world 
incidents. Hurricane Sandy, the Boston Marathon bombings, the 
tornado in Moore, Oklahoma, and many others demonstrated how 
the Nation's preparedness activities have had a positive effect 
on our response capabilities.
    Our efforts to train, equip, and exercise public safety 
personnel, as well as the planning assistance we provided to 
our partners, all helped save lives.
    In conclusion, the National Preparedness System as 
envisioned by PPD-8, has contributed to our ability to focus on 
those areas where gaps exist in order to strengthen the public 
safety and the Nation's security and resilience. Our ability to 
measure progress has also improved, and we look forward to 
working with Congress and all of the stakeholders to continue 
to reduce vulnerabilities the Nation faces.
    Thank you for the opportunity to testify. I am happy to 
answer any questions the subcommittee may have.
    [The prepared statement of Mr. Manning follows:]
                 Prepared Statement of Timothy Manning
                           September 19, 2013
                              introduction
    Chairman Brooks, Ranking Member Payne, and Members of the 
subcommittee: Good morning. I am Timothy Manning, deputy administrator 
for protection and National preparedness at the Department of Homeland 
Security's (DHS) Federal Emergency Management Agency (FEMA). On behalf 
of Administrator Fugate, it is my pleasure to appear before you today 
to discuss the Nation's state of preparedness.
    The administration remains committed to strengthening the security 
and resilience of the United States through systematic preparation for 
the threats that pose the greatest risk to the security of the Nation, 
and we are more secure and better prepared to prevent, protect against, 
mitigate, respond to, and recover from the full range of threats and 
hazards the Nation faces than we have been at any time in our history. 
We plan better, organize better, equip better, train better, and 
exercise better, resulting in an improved National preparedness and 
resilience.
    Much of this progress has come from leadership at the State and 
local levels, fueled by FEMA's grant programs. Over the past 10 years, 
Congress, through the Department of Homeland Security, has provided 
State, territorial, local, and Tribal governments with more than $36 
billion. We have built and enhanced capabilities by acquiring needed 
equipment, funding training opportunities, developing preparedness and 
response plans, exercising and building relationships across city, 
county, and State lines. Although Federal funds represent just a 
fraction of what has been spent on homeland security across the Nation 
overall, these funds have made us more prepared.
    In March 2011, President Obama signed Presidential Policy Directive 
8 on National Preparedness (PPD-8), which describes the Nation's 
approach to National preparedness. PPD-8 aims to strengthen the 
security and resilience of the United States through the systematic 
preparation for the threats that pose the greatest risk to the security 
of the Nation, including acts of terrorism, cyber incidents, pandemics, 
and catastrophic natural disasters. PPD-8 defines five mission areas--
prevention, protection, mitigation, response, and recovery--and 
requires the development of a series of policy and planning documents 
to explain and guide the Nation's efforts in helping to ensure and 
enhance National preparedness.
    The body of work established pursuant to PPD-8 creates a system 
that allows us to understand how well-prepared we are by setting a 
goal, establishing a baseline, setting common and comparable 
terminology, measuring capability gaps, and assessing our progress 
toward filling them. PPD-8 creates the National Preparedness System 
(NPS), a cohesive approach that allows us to use the tools at our 
disposal in the most effective manner and in a way that allows us to 
monitor and report on our progress.
    National preparedness is the responsibility of the whole community 
to include all levels of government, the private and nonprofit sectors, 
and individual citizens. Each year, the Nation makes additional 
advances toward achieving the National Preparedness Goal (NPG) and 
implementing the NPS.
                     the national preparedness goal
    The NPG, released in September 2011, is the cornerstone of PPD-8 
and defines a set of 31 distinct core capabilities across the mission 
areas needed to achieve National preparedness. The NPG, developed 
through a collaborative process including all levels of government, the 
private sector, and the general public, envisions a secure and 
resilient Nation with the capabilities required across the whole 
community to prevent, protect against, mitigate, respond to, and 
recover from the threats and hazards that pose the greatest risk.
                    the national preparedness system
    The NPS is the instrument the Nation uses to build, sustain, and 
deliver the core capabilities to achieve the NPG. Implementation of the 
NPS uses a whole-community approach to homeland security and emergency 
management that supports building, sustaining, and delivering the core 
capabilities through identifying and assessing of the risks we face; 
estimating capability requirements to meet those risks; building and 
sustaining capabilities; planning to deliver capabilities; validating 
those capabilities through exercises and real-world incidents; and then 
reviewing and updating our capabilities and plans.
Threat and Hazard Identification and Risk Assessment
    The foundation of the NPS is identifying and assessing risks. To be 
truly prepared and to understand our progress toward our goal, we need 
to know what we are preparing to address and to what level of service. 
Every community should understand the risks it faces. By understanding 
its risks, a community can make smart decisions about how to manage 
risk, including developing needed capabilities. Risk is the potential 
for an unwanted outcome resulting from an incident, event, or 
occurrence, as determined by its likelihood and the associated 
consequences. By considering changes to these elements, a community can 
understand how to best manage and plan for its greatest risks across 
the full range of the threats and hazards it faces. The Threat and 
Hazard Identification and Risk Assessment (THIRA) process helps 
communities identify threats and hazards and determine capability 
targets and resource requirements necessary to address anticipated and 
unanticipated risks.
    The First Edition of the Comprehensive Preparedness Guide (CPG 101) 
presented the basic steps of the THIRA process. Specifically, the First 
Edition described a standard process for identifying community-specific 
threats and hazards and setting capability targets for each core 
capability identified in the NPG. In August 2013, FEMA refined the 
THIRA methodology through the release of CPG 201, Second Edition. The 
Second Edition expands the THIRA process to include an estimation of 
resources needed to meet the capability targets. The THIRA process now 
assists communities to answer questions such as, ``What are my current 
and future risks?'' and, ``What level of service do I need to address 
my risks?'', and addresses what specific capabilities are needed, such 
as teams of specialized resources.
    The results of the THIRA process will continue to mature. Over the 
coming years, as FEMA and our partners refine our application of the 
THIRA through repetitive efforts, the results--capability targets and 
required resources--will be improved. And today, the THIRA process is 
providing communities all across the country with a clearer picture of 
what resources are needed to address their risks and providing a 
realistic and empirical basis for strategic and operational planning 
than has ever been possible before.
State Preparedness Report
    The THIRA process gives communities their end-state--capability 
targets based on their own threats and hazards and the resources 
required to meet those targets. The State Preparedness Report (SPR) 
measures the rate of change between current baselines and the end-state 
identified in the THIRA. Once each jurisdiction has determined 
capability targets through the THIRA process, the jurisdiction 
estimates its current capability levels against those targets in its 
SPR. The SPR is an annual self-assessment of State preparedness based 
on the targets set in the THIRAs. The SPR is submitted by the 56 States 
and territories to FEMA. The Post-Katrina Emergency Management Reform 
Act of 2006 (PKEMRA) requires an SPR from any State or territory 
receiving Federal preparedness assistance administered by DHS. 
Developing an effective SPR also requires active involvement from the 
whole community, and FEMA encourages jurisdictions to seek input from 
multiple stakeholders when assessing their capabilities.
    The THIRA and SPR processes are scalable to encourage sub-
jurisdictions and sub-grantees to provide input to the State or 
territory. The summary results are published in the annual NPR.
    The next component of the NPS is to build and sustain capabilities. 
This step ties grant investments directly to needs and shortfalls. In 
State grant application Investment Justifications, grantees must 
address the capability gaps and requirements documented in their SPR 
that the investment intends to address. In addition, the grantee must 
identify the specific outcomes the investment will yield.
National Planning Frameworks
    The National Planning Frameworks describe how the whole community 
works together to deliver the core capabilities needed to achieve the 
NPG as part of a unified and coordinated effort. There is one Framework 
for each of the five mission areas (prevention, protection, mitigation, 
response, and recovery). These mission areas represent a continuum of 
interrelated activities and reflect the relationships and partnerships 
across the whole community.
    The Frameworks document the roles and responsibilities of the whole 
community in National preparedness, recognizing the value of 
partnerships and working together.
    Each Framework:
  <bullet> Summarizes the roles and responsibilities across the whole 
        community;
  <bullet> Defines each mission area's core capabilities, along with 
        key examples of critical tasks;
  <bullet> Defines coordinating structures--either new or existing--
        that enable the whole community to work together to deliver the 
        core capabilities;
  <bullet> Describes the relationships to the other mission areas;
  <bullet> Identifies relevant information to help with operational 
        planning;
  <bullet> Provides information that State, local, Tribal, and 
        territorial governments can use to revise their operational 
        plans; and
  <bullet> Uses concepts from existing preparedness efforts and 
        doctrine, such as the National Incident Management System.
    The Frameworks also affect whole-community preparedness reporting 
and assessments. For example, the Frameworks can assist whole-community 
partners as they complete the THIRA process. The critical tasks 
described in the Frameworks will help whole-community partners 
understand the activities, which help to deliver capabilities to the 
established targets, as well as the resources needed conduct the 
activities and achieve the targets.
    The environment in which we operate grows ever more complex and 
unpredictable. The Frameworks are living documents, and will be 
regularly reviewed to evaluate consistency with existing and new 
doctrine, policies, evolving conditions, emerging risks, and the 
experience gained from their use.
    As of today, four of the five frameworks have been published. The 
National Disaster Recovery Framework (NDRF), which was released in 
September 2011 and rolled out across the country during the next 6 
months, focuses on how to restore, redevelop, and revitalize the 
health, social, economic, natural, and environmental fabric of the 
community and build a more resilient Nation. The updated National 
Response Framework (NRF), as well as the new National Prevention and 
National Mitigation Frameworks, were rolled out on May 6, 2013. Each of 
these frameworks addresses the unique expectations and challenges for 
each mission area.
    The NRF aligns roles and responsibilities across Government and the 
private sector in a unified approach in responding to any threat or 
hazard.
    The National Prevention Framework focuses on addressing the 
challenges stemming from an imminent terrorist threat.
    Fostering a culture of preparedness--centered on risk (present and 
future) and resilience to natural, technological, and terrorist 
events--is the focus of the first edition of the National Mitigation 
Framework. The document provides context for how the whole community 
works together and how mitigation efforts relate to all other parts of 
National preparedness.
    The Protection Framework is nearing completion. We are working 
closely with our partners in DHS and across the homeland security and 
emergency management communities to ensure that the draft Protection 
Framework aligns with the implementation of Presidential Policy 
Directive 21 (PPD-21) and Executive Order (EO) 13636. PPD-21, which 
replaced HSPD-7, expands, clarifies, and advances the National approach 
to protecting critical infrastructure pursuant to the strategic 
guidance of the Secretary of Homeland Security. And EO 13636 directs 
Federal agencies to use their existing authorities and increase 
cooperation with the private sector to provide better protection for 
the computer systems that are critical to our National and economic 
security. This alignment will ensure that the efforts undertaken under 
PPD-21 and EO 13636 complement other efforts under way in the 
prevention, protection, mitigation, response, and recovery mission 
space.
Federal Interagency Operational Plans (FIOPs)
    At the Federal level, each framework is supported by a mission 
area-specific Federal Interagency Operational Plan. The individual 
FIOPs describe how the Federal Government delivers core capabilities 
for each mission area. Each FIOP describes the concept of operations 
for integrating and synchronizing existing Federal capabilities to 
support State, local, Tribal, territorial, insular area, and Federal 
plans, and is supported by Federal department-level operational plans, 
where appropriate. The Prevention, Protection, Mitigation, Response and 
Recovery FIOPs are under development. The Protection FIOP will follow 
the release of the Protection Framework.
                      national preparedness report
    The National Preparedness Report (NPR) examines preparedness across 
the Nation. The first NPR, released last year, included specific 
accomplishments in the context of the core capabilities identified in 
the National Preparedness Goal. While the inaugural 2012 NPR 
highlighted preparedness accomplishments in the decade following the 
September 11, 2001 attacks, the 2013 NPR focuses primarily on 
accomplishments either achieved or reported on during 2012.
    In total, the 2013 NPR identifies 65 key findings. Several of these 
findings focus on overarching National trends and highlight areas of 
National strength, areas for improvement, and issues that cut across 
multiple capabilities and mission areas.
    The 2013 NPR found that the Nation continues to make progress 
building preparedness in key areas, including planning, operational 
coordination, intelligence and information sharing, and operational 
communications--each of these was identified as an area of strength in 
the 2012 NPR. Hurricane Sandy highlighted strengths in the Nation's 
ability to respond to and recover from disasters. Federal partners 
supplemented State and local resources through established response and 
recovery support functions, and whole-community partners provided 
valuable support to survivors.
    The Nation also made progress in addressing the areas for 
improvement identified in last year's NPR, including: Cybersecurity; 
recovery-focused core capabilities like economic recovery; protection 
of natural and cultural resources; housing; and integration of 
individuals with disabilities and access and functional needs. The 2013 
NPR also found that the Nation has made some progress in planning to 
address the long-term challenges posed by climate change and extreme 
weather, but that this remains an area of focus for preparedness 
activities Nationally.
    This year, FEMA established criteria to identify areas for National 
improvement using State preparedness data, exercise information, and 
linkages to long-term drivers of emergency management. The 2013 NPR 
identifies two new areas for improvement using this repeatable 
methodology: Infrastructure systems and public and private 
partnerships. Over time, it is expected that the NPR will also identify 
additional new areas for improvement and remove areas that are 
effectively addressed.
    The strengths and areas for improvement in the NPR will be used to 
inform planning efforts, focus priorities for Federal grants, and 
enable informed collaboration among stakeholders working together to 
improve the Nation's preparedness.
                         preparedness in action
    The past year has given FEMA more opportunities than we would like 
to assess preparedness. Whether it was Hurricane Sandy or the Boston 
Marathon bombing, real-world incidents and National-Level Exercises 
have tested our preparedness efforts.
    Hurricane Sandy demonstrated that integrating and coordinating with 
the whole community is a critical part of FEMA's role in disaster 
response and recovery efforts, making the Operational Coordination core 
capability one of the most valuable core capabilities during any 
incident. These real-world experiences also confirmed that enhancing 
infrastructure systems is a National area in need of improvement. 
Stressed infrastructure systems--including water and wastewater 
treatment, surface transportation, airports, inland waterways, marine 
ports, electricity infrastructure, and communications and fuel 
systems--can present obstacles to effective response and recovery 
operations. Climate change and extreme weather events also expose 
vulnerabilities in key infrastructure sectors--including transportation 
and commercial facilities.
    The response to the Boston Marathon bombings was another example of 
how the Nation's preparedness activities had a positive effect on 
response. FEMA has supported 12 exercises directly involving the city 
of Boston. These have included topics as diverse as chemical or 
biological attacks, hurricane preparedness, hazardous materials events, 
cyber incidents, and improvised explosive devices (IEDs). In 2011, 
DHS--in conjunction with the Federal Bureau of Investigation and the 
National Counterterrorism Center--hosted a Joint Counterterrorism 
Awareness Workshop that focused on integrating response operations to a 
complex attack in the Boston metropolitan area. Many participants from 
the local, State, and Federal community, who participated in these 
exercises, responded to the bombings.
    Oklahoma's response to the May 20, 2013 tornado that devastated the 
city of Moore is also indicative of the meaningful impact of FEMA's 
homeland security grant funding. Oklahoma's Regional Response System, 
developed with the support of FEMA's grant funds, deployed Technical 
Rescue Teams to assist with rescue efforts. Ambulance Strike Teams and 
Mass Emergency Medical Surge Teams also responded, providing care to 
thousands of survivors.
    The responses to Hurricane Sandy, the Oklahoma tornadoes, and the 
Boston Marathon bombings demonstrated the security and resilience of 
the Nation. Our preparedness programs, posture, and investments were 
critical in each one of those responses, but there is still more--there 
is always more to do--to improve preparedness. We will continue to work 
with communities across the country to prepare. All disasters are 
local, but we're proud to be there to support communities across 
America as they prepare for whatever hazard they may face.
                               conclusion
    The NPS, as envisioned by PPD-8, has contributed to our ability to 
focus on those areas where gaps exist in order to strengthen public 
safety and the Nation's security and resilience. Our ability to measure 
our progress has also improved, and clarity and focus will be brought 
with the continued implementation of the Threat and Hazard 
Identification and Risk Assessment process. We look forward to working 
with the Congress and stakeholders as we continue to reduce 
vulnerabilities the Nation faces. Thank you for the opportunity to 
testify. I am happy to answer any questions the subcommittee may have.

    Mrs. Brooks. Thank you, Mr. Manning.
    The Chairwoman now recognizes Mr. Ghilarducci for 5 
minutes.

STATEMENT OF MARK GHILARDUCCI, DIRECTOR, CALIFORNIA GOVERNOR'S 
   OFFICE OF EMERGENCY SERVICES, TESTIFYING ON BEHALF OF THE 
   NATIONAL GOVERNORS ASSOCIATION AND THE GOVERNORS HOMELAND 
                       SECURITY ADVISORS

    Mr. Ghilarducci. Thank you. Good morning, Chairman Brooks, 
Ranking Member Payne, and the Members of the subcommittee for 
allowing me the opportunity to appear before you today to 
provide a State's perspective on National preparedness 
intergovernmental engagement.
    First let me say that we have made significant progress 
since September 11, 2001, in our combined efforts to build and 
enhance the capabilities necessary to meet our Nation's 
preparedness. It really is indisputable that Federal 
investments have played a crucial role in this all-hands-on-
deck effort.
    However, there are on-going and ever-changing threats and 
challenges which we must remain vigilant to and nimble enough 
to collectively understand and effectively address. Without 
this effort, the forward progress in our Nation's level of 
preparedness will be in jeopardy due the challenges that exist 
or have emerged during the last several years, such as, on-
going and new homeland security threats or hazards such as 
cyber-terrorism and espionage, transnational criminal 
organizations, home-grown extremists, and an increase and the 
frequency of complexity of natural disasters.
    As well are the inconsistent capability at State and local 
levels for multi-agency coordination and the necessity to 
establish and/or expand mutual aid capabilities. A suite of 
Federal preparedness grant programs that are somewhat 
cumbersome and untimely and whose structure no longer aligns 
with the current economic or hazard- and security-based 
environments.
    A newly-established doctrine on National preparedness, 
which has shown really early promise, but it needs time and on-
going fine-tuning to be truly effective in the long term.
    Last, a lack of emphasis, really, on pre-event disaster 
mitigation as part of the whole community effort to increase 
community resiliency and help reduce the physical and economic 
impacts of a disaster.
    So we need to continue to work together at all levels of 
government and the private sector to address these and the many 
other challenges that we face, to ensure that important gains 
our Nation has made in overall preparedness are not reversed.
    Neither the Federal Government nor States can address any 
of these issues independently. In an era of constrained 
budgets, all levels of Government must do more with less and 
must identify opportunities to leverage and optimize resources 
to meet the needs of our communities. To achieve our shared 
goal of a more resilient and secure Nation.
    I believe that one of the most significant avenues to help 
us get there, is through an effective multi-agency coordination 
and adequate and trained workforce and a robust mutual aid 
system. California, as you may know, has a long history of 
using its mutual aid system for responding to man-made natural 
disasters and other emergencies.
    We understand that no one agency, be it State or local, has 
enough resources to cope with large-scale emergencies or 
complex disasters. For example, our strong mutual aid system 
recently was leveraged in fighting the rim fire near Yosemite 
National Park, which I am sure you all saw, it made National 
news, through effective multi-agency coordination and 
situational intelligence sharing.
    Over 142 fire agencies, 24 law enforcement agencies, 36 
county governments, and 13 State agencies were coordinated 
through my department with the Federal Government and deployed 
to the rim fire for over 5 weeks. A fire that is actually still 
burning and has consumed more than 255,000 acres making it the 
third-largest in California's history.
    In addition, California's dedicated emergency management 
professionals and first responders are often called upon by 
FEMA and other States to respond to disasters throughout the 
country including catastrophic disasters, such as, Superstorm 
Sandy and Hurricane Katrina.
    My team coordinates these out-of-state resource requests 
through the Emergency Management Assistance Compact or EMAC 
agreements. California receives EMAC's agreements regularly and 
most recently, members of my team returned from providing on-
site assistance to Alaska in response to their flooding 
disaster, and we sent multiple resources to New York and New 
Jersey and Connecticut following Superstorm Sandy.
    So I believe that our mutual aid system really is one of 
the best in the world and, although, all 50 States are 
signatory to EMAC, the recent 2013 National Preparedness Report 
showed that many States are not accounting for critical 
resources in neighboring States as a part of their capability 
assessment.
    A shared awareness is critical for States to ensure what 
assistance can be leveraged via inter-State mutual aid during 
times of crisis. The fiscal support is important in ensuring 
and promoting a shared awareness of regional assets and 
capabilities to ensure that this is done in a coordinated and 
effective way.
    So the Governors and the members of GHSAC stand ready to 
serve as equal partners with both the Federal Government and 
with local communities to improve the Nation's preparedness 
system, to make Federal investments more efficient by 
recommending changes and improvements in performance metrics, 
and hoping to reform preparedness grant programs to build State 
capabilities to achieve that goal of a more secure and 
resilient Nation for our future.
    I thank you for the opportunity to testify before the 
committee today on behalf of California National Governors 
Association, and I look forward to working with you to create a 
prepared and resilient country. Thank you very much.
    [The prepared statement of Mr. Ghilarducci follows:]
                 Prepared Statement of Mark Ghilarducci
                           September 19, 2013
    Thank you Chairman Brooks, Ranking Member Payne, and Members of the 
subcommittee for holding this hearing. My name is Mark Ghilarducci. I 
am director of the California Governor's Office of Emergency Services 
and the homeland security advisor to Governor Edmond G. Brown Jr.
    It is my privilege to appear on behalf of both the National 
Governors Association (NGA) and the Governors Homeland Security 
Advisors Council (GHSAC), which represents Governors' homeland security 
advisors of the 55 States, territories, and commonwealths as well as 
the District of Columbia. Governors and their homeland security 
advisors appreciate the opportunity to appear before you to provide the 
State perspective in this important dialogue about National 
preparedness and intergovernmental engagement.
      a ``whole-community'' approach has been key to preparedness
    Governors are committed to leading State-wide efforts to build and 
sustain the capabilities required to meet local needs and address 
National homeland security priorities. The National Preparedness 
Reports (NPR) of the last 2 years have made it clear that our Nation's 
level of preparedness has vastly improved since September 11, 2001. 
This is the result of not only an increased focus on community 
preparedness since 9/11 and Hurricane Katrina, but also a decade's 
worth of Federal investment and engagement at the State and local 
level.
    Intergovernmental and public-private collaboration, effective 
coordination, and enhanced communication are key elements in achieving 
a ``whole-community'' approach to National preparedness. These concepts 
have been recently demonstrated in a number of ways, including: The 
improved preparation and response to Hurricane Sandy; the support 
provided by State and local fusion centers on numerous successful 
criminal and terrorism investigations, such as the Boston Marathon 
bombing; the on-going implementation of a Nation-wide public safety 
broadband network; the use of National Guard dual-status commanders to 
coordinate State and Federal military forces during an emergency; and 
the development and implementation of the National Preparedness System 
(NPS).
    Unfortunately, our progress could be put at risk by a number of 
significant, emerging challenges, including:
  <bullet> a growing number of homeland security threats and hazards 
        facing States and communities such as those related to 
        cybersecurity;
  <bullet> a suite of Federal preparedness grant programs whose 
        structure no longer aligns with the current economic or 
        security environment; and
  <bullet> a newly-established doctrine on National preparedness, which 
        has shown early promise, but needs time and fine-tuning to be 
        truly effective in the long term.
    Active Federal-State engagement will be critical to addressing 
these challenges and ensuring that positive trends in our Nation's 
level of preparedness are not reversed. Neither the Federal Government 
nor States can address any of these issues independently. In an era of 
constrained budgets, all levels of government must do more with less. 
Unity of effort is no longer an aspiration, but an imperative to meet 
both the needs of our communities and the National Preparedness Goal of 
``a more secure and resilient Nation.''
       engagement is key in addressing state cybersecurity needs
    States and the Nation face an expanding range of homeland security 
threats that have moved beyond the traditional physical domain and now 
includes cyberspace. In fact, while this year's updated NPR highlighted 
forward movement on Federal efforts to strengthen its cybersecurity 
posture in the last year, a majority of State Preparedness Reports 
(SPR) ranked cybersecurity as one of the weakest core capabilities at 
the State level.\1\
---------------------------------------------------------------------------
    \1\ Federal Emergency Management Agency, 2013 National Preparedness 
Report, March 30, 2013, p. ii.
---------------------------------------------------------------------------
    Governors and their homeland security advisors are aware of the 
rising cybersecurity risk facing public and private-sector entities 
within their States. Many are actively engaged in efforts to develop 
threat prevention, remediation, response, and recovery strategies to 
enhance security and improve resiliency against attacks. Because of the 
speed and evolving nature of this threat, however, States must take 
full advantage of Federal resources and expertise they can leverage to 
protect State systems and address current gaps in capabilities. Active 
Federal-State engagement will identify additional opportunities to 
collaborate on strategic planning, coordinate on incident response, and 
share information on potential threats.
    To support this need, NGA established the Resource Center for State 
Cybersecurity (Resource Center), co-chaired by Maryland Governor Martin 
O'Malley and Michigan Governor Rick Snyder. The Resource Center brings 
together representatives and experts from key State and Federal 
agencies and the private sector to provide strategic and actionable 
policy recommendations that Governors can adopt to craft and implement 
effective State cybersecurity policies and practices. Next week here on 
Capitol Hill, the Resource Center will release A Governors' Call to 
Action on State Cybersecurity that will provide five key 
recommendations Governors can implement in the near term to address 
cybersecurity within their State.
    For its part, the Federal Government can expand its level of 
engagement with States by improving information sharing; better 
leveraging State and local fusion centers to share intelligence 
information and mitigate cyber threats; assisting with cyber incident 
response planning; and working through the Council of Governors to 
build and enhance the role of the National Guard to support State 
cybersecurity needs. As States seek to make investments to build 
cybersecurity capabilities, they also need the flexibility to 
prioritize Federal grant funding for such uses--an option not fully 
available today.
       federal grants can better align with preparedness planning
    In the last decade, Federal, State, and local governments have 
invested billions to strengthen homeland security and emergency 
preparedness. States continue using homeland security grant funds to 
develop and sustain core capabilities such as intelligence fusion 
centers, State-wide interoperable communications, specialized response 
teams, and citizen preparedness programs.
    While the number of threats and hazards facing States and the 
Nation has increased, Federal support for State and local preparedness 
efforts has steadily decreased. Federal, non-disaster preparedness 
grant funding has dropped 75 percent since 2003. This reduction, 
combined with State and municipal budget challenges, has significantly 
limited the ability of State and local governments to build new 
capabilities, sustain prior investments, and maintain forward momentum 
with preparedness efforts.
    The NPS and its components are intended to ensure the most 
effective and efficient use of resources across the preparedness 
spectrum. While the NPS was established as a framework to better enable 
States to prioritize projects, the structure of the grant programs 
themselves has changed very little since their inception. As currently 
designed, the preparedness grant programs are often duplicative. 
Statutory restrictions on the use of funds and shortened performance 
periods reduce States' flexibility and compound administrative burdens. 
Grant programs should appropriately align with the NPS to better link 
Federal investments to capability targets and National preparedness 
objectives. Reform is essential to ensure that limited Federal funds go 
towards priority projects for States and communities, while providing 
the most value to all taxpayers.
    The National Preparedness Grant Program (NPGP) proposed by the 
Federal Emergency Management Agency (FEMA) is a good first step to 
addressing many of the challenges with the current suite of grant 
programs. While not endorsing the NPGP, NGA sent a letter (attached) in 
May to Chairman Michael McCaul and Ranking Member Bennie Thompson to 
articulate States' appreciation of the proposal and calling for 
comprehensive grant reform. Included with the letter was a set of 
Governors' principles on grant reform to help inform Federal efforts to 
restructure and streamline these programs. Federal, State, and local 
engagement on grant reform is on-going, but could be more active. 
States will continue to work with Congress, FEMA, and their partners at 
the local level to develop a reform proposal to make preparedness 
grants more measureable, accountable, and flexible to meet the needs of 
our communities.
       implementation of the preparedness system can be improved
    Post-Hurricane Katrina, the focus of National preparedness efforts 
was expanded to an all-hazards approach to meet the challenges of both 
terrorist events and natural disasters. As the list of potential 
threats and hazards expanded, so too did States' interpretation of how 
and where funding and attention should be prioritized. There was no 
systematic approach to measure the Nation's level of preparedness or 
the long-term value of the $40 billion Federal investment through 
preparedness grant programs.
    A number of statutory and administrative changes have been 
introduced to address gaps in Federal policy and streamline processes 
including the Post-Katrina Emergency Management Reform Act of 2006 and 
Presidential Policy Directive 8 (PPD-8) issued in 2011. These reforms 
attempt to provide a roadmap for all levels of government to assess 
risk and build capabilities using a whole-community approach. Many 
deliverables required by PPD-8 are still in various stages of 
development and will likely take years to fully implement. Despite this 
protracted time table, establishing a standardized, Government-wide 
planning doctrine for disaster management would be a significant 
achievement. The NPS is intended to be a collective effort to provide 
valuable insight into National-level risks and ensure that investments 
are targeted appropriately. States are doing their part through NPS 
deliverables such as the State Preparedness Report and the Threat and 
Hazard Identification and Risk Assessment (THIRA). Through these 
processes, States are working hard to understand their level of risk to 
a broad array of threats and the capabilities needed to address them.
    Implementing the SPR and THIRA, however, is not without its 
challenges. Despite FEMA's efforts to engage with States on their 
concerns, many problems remain unresolved. States recommend the 
following steps to improve Federal-State engagement on the NPS, 
streamline planning processes and make the system work in a truly 
integrated and synchronized manner:
  <bullet> Existing relationships with State stakeholder groups should 
        be better utilized.--In general, the U.S. Department of 
        Homeland Security (DHS) and FEMA should take advantage of 
        existing State associations and councils, such as the GHSAC, to 
        help solicit input and feedback on NPS guidance and programs. 
        As much as FEMA and the Federal Government are leading these 
        efforts, effective collaboration must go both ways. Innovations 
        at the State level in these areas can better inform the 
        development of Federal guidance and operating procedures.
  <bullet> Federal outreach must happen earlier with more time allotted 
        for feedback.--While DHS has reached out to State stakeholders 
        during the development of the NPS and planning frameworks, it 
        has concurrently solicited State, local, Tribal, and 
        territorial (SLTT) input on a series of other draft planning 
        documents (including the National Infrastructure Protection 
        Plan). This has made it a challenge for some stakeholders to 
        prioritize feedback requests and provide a timely response 
        under the tight deadlines provided. If DHS seeks meaningful 
        input from SLTT stakeholders, a reasonable amount of time--
        certainly more than a couple of weeks--must be offered.
  <bullet> FEMA must connect the dots on the NPS.--Engagement on 
        specific parts of the NPS such as the THIRA has been adequate. 
        There has been less guidance, however, on how the SPR, THIRA, 
        and other parts of the NPS will develop into a cohesive 
        ``system'' that will meet the National Preparedness Goal. 
        States will be leading efforts to evaluate overall progress and 
        integrate processes into standard operating procedures. FEMA 
        must provide the SLTT community with a better understanding of 
        how NPS processes are integrated to meet objectives and measure 
        performance over time. As new guidance and revised plans are 
        rolled out in the coming months and years, technical assistance 
        and consistent collaboration with State and local partners must 
        remain a priority for DHS.
  <bullet> The NPS should be given time to mature.--Prior to PPD-8 and 
        the NPS, Federal processes, policy, and grant guidance lacked 
        an integrated framework, consistent methodology, or adequate 
        metrics for measuring performance over time. To gain the SLTT 
        community's continuing support of these efforts, processes and 
        doctrine must remain consistent, deliberate, and stable. In 
        many ways, instituting the NPS will require a cultural shift 
        and changes to entrenched bureaucracies. Stability will ensure 
        that new processes and procedures have the opportunity to take 
        root within all levels of government and are fully integrated 
        between all stakeholders as the NPS is designed.
  <bullet> Elements of the NPS need to be aligned and synchronized.--A 
        key objective of the NPS is to ensure that decisions regarding 
        incident management and resource allocation are informed by 
        both National-level priorities and the reciprocal needs of 
        States, local communities, and surrounding regions. Recently, 
        regional THIRAs were performed by FEMA Regional Offices before 
        State THIRA's were complete. For the NPS to be effective and 
        efficient, schedules and deadlines on deliverables should be 
        synchronized and better-aligned with State activities. This 
        small but important change will provide senior leadership at 
        all levels with a shared situational awareness about the risks, 
        capabilities, assets, and resources that exist across and 
        within jurisdictions.
  <bullet> Promote shared awareness of regional resources and expand 
        mutual-aid capabilities.--Knowledge of regional assets and 
        capabilities is critical for State preparedness and response 
        planning. All 50 States, the District of Columbia, the U.S. 
        Virgin Islands, and Puerto Rico are signatory to the Emergency 
        Management Assistance Compact (EMAC). As the recent 2013 NPR 
        indicated, however, many States are not accounting for the 
        resources and assistance available in neighboring States as 
        part of their capabilities assessments. FEMA can provide better 
        coordination through its regional offices to facilitate mutual 
        aid agreements between States and the FEMA regions. In an era 
        of tightened budgets and declining Federal grant funding, 
        leveraging resources across jurisdictions is essential to meet 
        both State-wide preparedness requirements and National 
        objectives.
           states are partners in meeting preparedness goals
    Per the 2013 NPR, States continue to deal with gaps in several core 
capabilities including cybersecurity and those that are recovery-
focused such as housing. As States seek to build these capabilities, 
sustained collaboration and communication with Federal partners will be 
critical. The NPS is intended to provide an ``all-of-nation'' approach 
for building and sustaining a cycle of preparedness activities over 
time. Significant progress has been made over the last 2 years to 
standardize processes and create a common doctrine for disaster 
planning Nation-wide. We are clearly still in the ``building'' phase, 
however, and more work remains to be done.
    Similar to what are now widely-accepted procedures for incident 
command, the NPS will require several years in the field and continued 
refinement for progress to be made and measured over time. Programs and 
processes at each level--including preparedness grant programs--must be 
better-aligned and synchronized to permit each part of the NPS to 
accurately inform the next. This cascading effect will ensure that 
capabilities are prioritized and focused to meet local, State, and 
National needs. Federal engagement must be consistent, deliberate, and 
transparent as new guidance is issued and as stakeholder feedback is 
acquired.
    Governors and the GHSAC stand ready to serve as partners with the 
Federal Government and local communities to improve the NPS, reform 
preparedness grant programs to improve efficiency, and build 
capabilities to address threats across all domains including 
cyberspace.
      Attachment.--Letter From the National Governors Association
                                     June 10, 2013.
The Honorable Thomas Carper,
Chairman, Committee on Homeland Security and Governmental Affairs, 
        United States Senate, Washington, DC 20510.
The Honorable Tom Coburn,
Ranking Member, Committee on Homeland Security and Governmental 
        Affairs, United States Senate, Washington, DC 20510.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, United States House of 
        Representatives, Washington, DC 20515.
The Honorable Bennie Thompson,
Ranking Member, Committee on Homeland Security, United States House of 
        Representatives, Washington, DC 20515.
    Dear Chairman Carper, Ranking Member Coburn, Chairman McCaul, and 
Ranking Member Thompson: The Nation's Governors thank you for 
supporting State and local homeland security preparedness programs. 
Over the past decade, these programs have strengthened our ability to 
detect and prevent terrorist attacks and respond to catastrophic 
emergencies. Despite this progress, recent events such as the Boston 
Marathon bombing and Hurricane Sandy remind us that threats to our 
communities continue to evolve. To confront today's dynamic threats, 
Federal homeland security grant programs must be restructured to 
streamline processes and ensure the most effective use of taxpayer 
dollars. We urge you to support common-sense reforms and stand ready to 
work with you to find solutions to our Nation's most pressing homeland 
security challenges.
    In the wake of the terrorist attacks of September 11, 2001, nearly 
20 programs were established to help State, territorial, Tribal, and 
local governments prepare for and respond to terrorist attacks, natural 
disasters, and other emergencies. Together, these programs have 
invested billions in Federal and State funds to build and strengthen 
critical capabilities such as intelligence information sharing, 
interoperable emergency communications, bomb detection, and hazardous 
materials response. By serving as the central point of coordination 
among multiple jurisdictions and functional areas, States have played a 
key role in ensuring that scarce resources are used effectively to meet 
identified National priorities while being tailored for regional needs.
    Today, while all levels of government are better-equipped to handle 
a range of emergencies, whether man-made or naturally-occurring, we 
face new emerging threats such as cyber-attacks and home-grown violent 
extremism. To actively address these new risks, State and local public 
safety officials require greater flexibility than the current homeland 
security grant framework allows. The current grants structure does not 
properly incentivize collaboration between local governments and State 
agencies, which can lead to duplication of effort and restricts the 
dedication of resources to areas of most critical need. Thoughtful 
reform of these grant programs can ensure the efficient and effective 
use of taxpayer dollars while protecting our citizens and our way of 
life.
    The Federal Emergency Management Agency (FEMA) has proposed a new 
National Preparedness Grant Program (NPGP) to replace the current suite 
of grants. This proposal addresses many of the challenges States face 
with the current suite of grant programs. While we have concerns about 
portions of the NPGP, we applaud FEMA for putting forward a 
comprehensive proposal and believe it is a good first step toward 
meaningful reform.
    The Nation's Governors stand ready to work with you to improve 
these important grant programs and offer the attached set of reform 
principles to help guide this effort. We look forward to working with 
you to continue to strengthen the partnership among all levels of 
government to prepare for and respond to emergencies.
    Thank you for your consideration.
            Sincerely,
                                  Governor Martin O'Malley,
                       Chair, Health & Homeland Security Committee.
                                   Governor Brian Sandoval,
                  Vice Chair, Health & Homeland Security Committee.
 Attachment.--Governors' Principles for Homeland Security Grant Reform
    The Department of Homeland Security provides State and local 
governments with preparedness grant funding that provides support for 
developing and maintaining critical homeland security and emergency 
management capabilities. Over the last several years, these grant funds 
have been significantly reduced. With decreased funding expected for 
the foreseeable future, Congress and the administration are reexamining 
the grant programs in order to make them more flexible and effective.
    Currently, there are 18 major preparedness grant programs 
administered by the Department of Homeland Security. Many of these 
programs often overlap with others, creating unintended inefficiencies 
and unnecessary administrative burdens. In addition, changing program 
requirements often make the current structure complex and burdensome to 
States.
    Governors are supportive of efforts to reform these programs. As 
reform proposals are considered by Congress and the administration, 
Governors offer the following principles:
    Principles:
  <bullet> Grants should be risk-based but continue to provide each 
        State and territory funding to support critical homeland 
        security and emergency management capabilities, including 
        personnel costs and the sustainment of investments.
  <bullet> Funding should focus on developing, enhancing, and 
        sustaining common core capabilities.
  <bullet> The Federal Government should work with States and 
        territories to develop consistent methods to measure or assess 
        progress in achieving common core capabilities.
  <bullet> Grant funding should be distributed through States and 
        territories to enhance regional response capabilities, avoid 
        duplication of effort, and ensure awareness of gaps in 
        capabilities.
  <bullet> Consistent with current law, States should be permitted to 
        use a portion of the grant funds for management and 
        administration in order to coordinate the efficient and 
        effective use of grant funds, provide necessary oversight, and 
        comply with Federal reporting requirements.
  <bullet> Any reform to the current grant programs should provide 
        States with flexibility to determine which priorities should be 
        funded and where investments should be made within their 
        borders.
  <bullet> Any grant program should allow flexibility for any State 
        cost-share requirements.
  <bullet> The Federal Government should provide clear, timely, and 
        explicit guidelines for conducting threat assessments and how 
        those assessments will be used to determine base-level funding.
  <bullet> The Federal Government should be more transparent with 
        States in sharing the data used to populate the funding 
        formula/algorithm. States should be provided with a centralized 
        point of contact and reasonable time to review and inform the 
        data.
  <bullet> The Federal Government should ensure that reforms eliminate 
        inefficiencies, do not duplicate efforts, and do not place 
        additional administrative burdens on States.
  <bullet> Grants should allow for multi-year strategic planning by 
        States and local jurisdictions.

    Mrs. Brooks. Thank you, Mr. Ghilarducci.
    The Chairwoman now recognizes Mr. Walker for 5 minutes.

   STATEMENT OF JEFFREY W. WALKER, SENIOR EMERGENCY MANAGER, 
LICKING COUNTY, OHIO, TESTIFYING ON BEHALF OF THE INTERNATIONAL 
               ASSOCIATION OF EMERGENCY MANAGERS

    Mr. Walker. Chairman Brooks, Ranking Member Payne, and 
distinguished Members of the subcommittee, thank you for 
allowing me the opportunity to provide testimony on this 
important topic. I am Jeffrey Walker, the president of the 
International Association of Emergency Managers to the U.S. 
Council. I served 13\1/2\ years as director of the Licking 
County, Ohio, office of homeland security and emergency 
management.
    We appreciate the opportunity to talk about the gains that 
have been made in preparedness, the remaining challenges, some 
local perspectives on capability, and the further steps needed 
to enhance them.
    At the local government level, emergency managers play an 
essential role bringing together the stakeholders, public, 
private, and non-governmental organizations for a cohesive and 
workable plan and response to a disaster. They have the 
responsibility to ensure horizontal coordination between the 
departments of local government and vertical coordination 
between local, State, and Federal governments.
    They are responsible for making sure that all missions of 
emergency management, mitigation, preparedness, response, and 
recovery, are able to be accomplished at the local level. Let's 
review some tools that allow emergency managers to perform 
their vital role in National preparedness.
    The Federal emergency management agencies, Emergency 
Management Performance Grants is vital funding to local 
emergency managers and has been called the ``backbone'' of 
emergency management systems.
    The EMPG is fundamentally different from the post-September 
11, 2001, homeland security grants. It goes back to the 1950s, 
requires a 50/50 cost match, and requires various performance 
measures.
    All disasters start and end at the local level, which 
emphasizes the importance of building and sustaining this 
capability at the local government level. The EMPG funding 
should not be invested exclusively in State governments alone. 
Funding from EMPG frequently makes a difference as whether or 
not a qualified person is present to perform these duties in a 
local jurisdiction.
    One of the challenges of local emergency managers is to get 
individuals and families to take action to be well-prepared. We 
welcome FEMA's efforts to bring a more scientific basis to this 
effort.
    FEMA's Emergency Management Institute, located in 
Emmitsburg, Maryland, provides vitally-needed training. The 
crown jewel of emergency management training and doctrine has 
made progress over the past 3 years in the development of 
programs for State and local emergency managers, particularly, 
the development of the Emergency Management Professional 
Program which includes National emergency management 
foundations, leadership, and executive academies.
    IAEM-USA is an active participant in developing the 
National planning system curriculum. We look forward to the 
final product which will be focused on moving planners from all 
disciplines to the same common operating picture and lexicon, 
which will increase awareness of their impact on emergency 
management.
    Congress frequently hears about Federal programs being 
rolled out without consulting with stakeholders. There has been 
extensive consultation with stakeholders making this program 
stronger.
    Emergency management capabilities are being built across 
our Nation at the local government level. For example, the 
locals in the State of Mississippi have built a strong 
partnership to prepare for a wide array of hazards.
    Mississippi passes through a minimum of 60 percent of its 
allocated EMPG funding to local government emergency management 
offices and spends the remainder on programs designed for local 
support. After Hurricane Katrina, the Mississippi locals 
identified their highest priority mitigation actions, and the 
Mississippi Emergency Management Agency worked with them and 
FEMA to fulfill those priorities, particularly, generators, 
shelters, and safe rooms.
    Another capability, local capability, is a Metropolitan 
Medical Response System. Every MMRS jurisdiction has its 
success stories. Success as an on-going critical analysis can 
be attributed to the MMRS planning, training, and coordination, 
which has been replicated across the United States.
    Since 2012, MMRS has not been funded as a Department of 
Homeland Security stand-alone program, but it is allowable 
expense to be decided at the State and local level. Many of 
these valuable programs are facing extinction. In these 
challenging economic times, it is important to know what the 
return on investment is for our preparedness dollar.
    We know what a prepared community should look like. IAEM-
USA released a paper titled, ``Preparedness, a Principled 
Approach to Return on Investment,'' which is available on our 
website. The paper articulates a framework based on the 
``Principles of Emergency Management'' that should be used to 
derive meaningful objectives and measures for preparedness 
grants as we try to reach that goal.
    In conclusion, the assessment of our Nation's preparedness 
is neither simple nor straightforward. We continue to make 
progress towards the goal a prepared community with our key 
partners at the local, State, and Federal levels of government, 
private enterprise, and non-governmental organizations. Thank 
you.
    [The prepared statement of Mr. Walker follows:]
                Prepared Statement of Jeffrey W. Walker
                           September 19, 2013
    Chairman Brooks, Ranking Member Payne, and distinguished Members of 
the subcommittee, I would like to thank you for allowing me the 
opportunity to provide testimony on this important topic.
    I am Jeffrey Walker, the president of the International Association 
of Emergency Managers, U.S. Council. I served 13\1/2\ years as director 
of the Licking County, Ohio Office of Homeland Security and Emergency 
Management.
    IAEM-USA is our Nation's largest association of emergency 
management professionals, with 5,000 members including emergency 
managers at the State and local government levels, Tribal nations, the 
military, colleges and universities, private business, and the 
nonprofit sector. Most of our members are U.S. city and county 
emergency managers who perform the crucial function of coordinating and 
integrating the efforts at the local level to prepare for, mitigate the 
effects of, respond to, and recover from all types of disasters 
including terrorist attacks.
    We appreciate the opportunity to talk about the gains that have 
been made in preparedness, the remaining challenges, some local 
perspectives on capabilities and the further steps needed to enhance 
them.
    Like an imposing and beautiful edifice is made up of individual 
parts, so goes our National preparedness. The brick and stone of 
preparedness in our local jurisdictions make up the walls of State 
preparedness, which together, form the overall shape of National 
preparedness. While we admire the look and design of the final, overall 
edifice, we must appreciate the value and importance of the individual 
parts that make the construct assume its final shape.
    And, like the fact that the building will not stand without the 
individual bricks and stones supporting the overall structure, so too, 
goes our National preparedness.
    At the local government level, the emergency managers play an 
essential role--bringing together the stakeholders (public/private/and 
non-governmental organizations) for a cohesive and workable plan in 
response to a disaster. They are the people who are charged with the 
responsibility to ensure horizontal coordination between the 
departments of local government and vertical coordination between local 
governments, State governments, and the Federal Government. They are 
responsible for making sure that all missions of emergency management 
(mitigation, preparedness, response, and recovery) are able to be 
accomplished at the local level.
    Let us take a look at some of the tools that allow local Emergency 
Managers to perform their vital role in National preparedness.
                 emergency management performance grant
    The Federal Emergency Management Agency's (FEMA) Emergency 
Management Performance Grant (EMPG) is vital funding to local emergency 
managers and has been called the backbone of the Emergency Management 
System. EMPG is fundamentally different from the suite of post-
September 11, 2001 homeland security grants. EMPG has a history 
stretching back to the 1950's when it was recognized that there was a 
Federal interest in building emergency management capacity at the State 
and local levels. Its original authorization was in the Civil Defense 
Act of 1950, as amended. EMPG requires both State governments and local 
governments to invest 1 local dollar for each grant dollar received. It 
also requires various performance measures in order to continue 
participation. IAEM-USA recognizes that all disasters start and end at 
the local level which emphasizes the importance of building and 
sustaining this capacity at the local governmental level--and EMPG 
funding should not be invested exclusively in State governments alone. 
Funding from EMPG frequently makes a difference as to whether or not a 
qualified person is present to perform these duties in a local 
jurisdiction. We are grateful that Congress has recognized the 
importance and uniqueness of EMPG by supporting that it be maintained 
as separate account within FEMA. It is important to have a grant 
focused on building emergency management capability for those entities 
at the local government level statutorily charged with the 
responsibilities of coordinating mitigation, preparedness, response, 
and recovery.
                   individual and family preparedness
    One of the challenges of local emergency managers is to encourage 
individuals and families to prepare. A report called ``Preparedness in 
America: Research Insights to Increase Individual, Organizational, and 
Community Action'' was released in September 2013 by FEMA. The report 
acknowledges, ``[a]s disasters continue to impact our Nation, the role 
of individuals and the importance of engaging all sectors in reducing 
the impact of disasters has become increasingly evident. (Page 1)''
    It is clear to me that in America there are many factors that 
influence how preparedness becomes relevant to each and every citizen. 
The attitudes and the experiences of our citizens either encourage or 
discourage them from taking preparedness seriously. When preparedness 
information is provided for where we live, work, and play it must be 
easy to understand and apply. Opportunities to review, discuss, and 
exercise family preparedness plans help make preparedness a personal 
goal. Unless we become personally committed to being prepared we will 
not be ready for the next disaster or emergency. Each community has 
various ``networks'' that need to be encouraged to join the 
preparedness ``team.'' Only when the time is taken to reach out and 
educate these networks about the need for personal preparedness will 
the whole community plan be successful.
                  emergency management institute (emi)
    The Emergency Management Institute (EMI), located in Emmitsburg, 
Maryland, provides vitally-needed training to State, local, and Tribal 
government emergency managers through on-campus classes, a curriculum 
developed for field deployment and distance learning. This ``crown 
jewel'' of emergency management training and doctrine has made 
tremendous progress over the past 3 years in the development of 
vitally-needed training programs for State and local emergency 
managers.
    We are particularly pleased with the progress made in the 
development of the Emergency Management Professional Program (EMPP) 
which includes the National Emergency Management Foundations, 
Leadership and Executive Academies. These multi-course academies will 
enhance the education and training opportunities of the current and 
next generation of emergency managers by focusing content on the 
critically important core competencies which were developed as part of 
the project.
                        national planning system
    IAEM-USA is an active participant in developing the National 
Planning System (NPS) Curriculum. We look forward to the final product 
which will be focused on moving planners from all disciplines to the 
same common operating picture and lexicon, which will increase 
awareness of their impact on Emergency Management. For example, 
municipal planners should be aware of the hazards within the community 
so that they avoid development and construction within the areas 
impacted by the hazard.
    The NPS efforts have strongly engaged the stakeholders in 
identifying ways to be more inclusive of Emergency Management. We 
cautioned them to not start from scratch. Instead, we suggested that 
they identify the gaps and develop steps to remove them by implementing 
courses that provide the skills necessary.
    The stakeholders participating in this effort ranged from certified 
planners, the Military, the FBI, State and local law enforcement, FEMA, 
local emergency managers, National Flood Plain Managers, land-use 
planners, and many others.
    The new training curriculum results in the potential of up to three 
certificates for those with successful completion. It provides a 
challenge to planners, enhancing their existing knowledge. Planning is 
at the core of what we do in emergency management. If the work invested 
in building the foundation of the NPS is carried through the rest of 
this project, IAEM-USA is confident the training will have a great deal 
of validity.
    Congress frequently gets to hear about Federal programs being 
rolled out without consulting with stakeholders. We're here to let you 
know that this one is not one of those programs. There has been 
extensive consultation with the stakeholders, and this program will be 
the better for it. By building on what has gone before and by being 
inclusive of a wide range of stakeholders this program will be well-
built. This is a program that we expect to have follow-through that 
results in actions that will have a meaningful impact on our 
preparedness.
                      building local capabilities
    Emergency Management capabilities are being built across our Nation 
at the local government level. Many of the local jurisdictions--as well 
as the State of Mississippi--are being very active in building 
emergency management capabilities at the local level. Mississippi is 
subject to a wide array of hazards including hurricanes, tornadoes, 
floods, ice storms, earthquakes, and technological hazards. Together, 
the locals and the State of Mississippi have built a strong partnership 
to prepare for these hazards. Mississippi passes through a minimum of 
60% of its allocated EMPG funding to local government emergency 
management offices and spends the remainder on programs designed to 
support locals.
    In the aftermath of Hurricane Katrina, the local jurisdictions in 
Mississippi identified what their highest priority mitigation actions 
were, and the Mississippi Emergency Management Agency worked with them 
and FEMA to fulfill those priorities. Hundreds of generators were 
purchased for shelters and critical infrastructure identified by the 
locals. Over 120 community ``safe rooms'' and ``361'' shelters with a 
capacity of over 50,000 were constructed to provide individuals, 
communities, and schools with a place to take shelter from natural 
hazards in Mississippi.
    Another local capability being built is the Metropolitan Medical 
Response System (MMRS). It has played a critically important role in a 
number of communities, but today I'd like to share with you a story 
from Huntsville, Alabama about MMRS and also provide some background on 
the program.
    One of our IAEM-USA members, John ``Rusty'' Russell is the 
Emergency Management Director for Huntsville, Alabama. He tells me that 
MMRS funding has been the cornerstone of their medical and responder 
team building since 2002. They have been able to develop plans and 
build medical response capability in 14 counties across north Alabama. 
They were able to provide training and exercises that have added 
cohesion to the way traditional responders and medical professionals 
work together during emergencies.
    In November, 2007, a Huntsville City School bus with a driver and 
41 students plunged 75 feet from an interstate overpass in Huntsville. 
The bus landed vertically and toppled over killing three students and 
injuring several others. The response was immediate and working within 
the MMRS plan 40 students were transported to two major hospitals 
within the first 50 minutes after the accident. The actual emergency 
part of the response was quickly and definitively over after 1 hour 
although the media frenzy and the investigation lasted for months. The 
very same responders and hospital personnel had participated in an 
eerily similar exercise just days before which involved a simulated 
airplane crash.
    Since the inception of the MMRS program in 1996 under the then U.S. 
Health Resources and Services Administration it grew to 124 
jurisdictions covering approximately 75% of the U.S. population. MMRS 
programs began building health care coalitions 12 years before the 
recent initiative by the assistant secretary for preparedness and 
response (ASPR) at the Department of Health and Human Services (HHS). 
The latest guidance for the HHS Funding Opportunity Announcement is 
similar in intent and uses wording similar to the original MMRS 
jurisdiction deliverables. The MMRS program was moved to the U.S. 
Department of Homeland Security in 2004 and continued to build cross-
disciplinary public health and medical emergency capabilities in 
accordance with Federal guidance under the Target Capabilities List.
    Every MMRS jurisdiction has its success stories. In recent years 
MMRS-built preparedness and response capabilities were used in Pima 
County, Arizona to respond to the ``Gabby Giffords'' shooting, in the 
Aurora, Colorado theater shootings, and at the Boston Marathon 
bombings. Successes and on-going critical analysis can be directly 
attributed to MMRS planning, training, and coordination, which has been 
replicated across the United States. As a country we are facing the 
very real possibility that these valuable resources and capabilities 
will fade away as Federal agencies decide what the priorities of the 
locals should be and seem to ignore the MMRS success story. Since 2012 
MMRS has not been funded as a U.S. Department of Homeland Security 
stand-alone program, but is an ``allowable expense'' to be decided at 
the State level. Some MMRS jurisdictions have fortunately still 
received some funding for MMRS activities, but a majority of MMRS 
jurisdictions face certain ``extinction'' within the next 12 months if 
they do not receive sustainment funding. The final year of the MMRS 
program funding (Federal fiscal year 2011) was approximately $28 
million; dollar-for-dollar those funds have yielded the greatest return 
on preparedness funds than any other U.S. DHS program. A minority of 
MMRS jurisdictions may be absorbed into other systems but the reality 
is the capabilities that have been built will be lost. The newer 
initiative from U.S. HHS ASPR is starting from ground zero in its 
endeavors to build health care coalitions based on the whole-of-
community approach and in many States it is a hospital-centered program 
for which inter-agency cooperation can be an afterthought. The best 
realistic result would be for U.S. HHS ASPR to receive increased 
funding to then directly fund and reinvigorate the MMRS program and 
enhance and expand what has already been built to include more 
communities. The top-down program driven at the State level does not 
have as great of a chance to succeed when it sometimes disregards the 
locals which are the community in whole-of-community.
                         measuring preparedness
    IAEM-USA released a paper called ``Preparedness: A Principled 
Approach to Return on Investment.'' http://www.iaem.com/documents/
Preparedness-Principled-Approach-to-ROI-11Aug2011.pdf. (Overview 
available at http://www.iaem.com/documents/overview-ROI.pdf)
    Challenging economic conditions have meant that, in addition to the 
Federal Government, local, State, Tribal, and territory jurisdictions 
have also been carefully examining where they will invest their 
resources. All resource investments are being evaluated including those 
related to emergency management. Specifically, local, State, Tribal, 
and territory jurisdictions, and Congress want to know ``How can we 
tell if we are getting a return on our investments in emergency 
management?''
    The answer to this question has been historically delivered through 
reciting anecdotal stories or visually displaying data related to the 
things we can count--what we have purchased and activities we have 
undertaken--in maps, charts, tables, and graphs. Unfortunately, these 
stories and data have had little meaning absent a framework against 
which to interpret them.
    Jurisdictions at all levels invest in emergency management 
preparedness activities to ensure, to the degree possible, that their 
jurisdiction is ready to efficiently and effectively respond to and 
recover from hazard events. Thus, the question we must answer when 
considering return on investment related to emergency management is, 
``To what extent are we prepared?'' To this point jurisdictions at all 
levels have not been able to answer this question satisfactorily.
    It may be easiest to introduce what a meaningful framework against 
which to measure preparedness would entail if we first begin at the end 
with IAEM-USA's vision of what a prepared jurisdiction (at any level) 
would look like.
    A prepared jurisdiction is one that engages in preparedness actions 
guided by professional emergency managers and professional emergency 
management programs. The jurisdiction's preparedness actions are driven 
by the risks that they face. The jurisdiction has comprehensively 
considered all known hazards, vulnerabilities, and possible impacts and 
actively engages in preparedness actions related to mitigation, 
response, and recovery. The jurisdiction is progressive by 
incorporating innovations, technologies, and best practices as they 
ready themselves for future hazard events. The jurisdiction's 
preparedness actions have provided a legitimate basis upon which to act 
in the wake of hazard events but are not so rigid as to lack the 
flexibility to respond to unanticipated issues. The stakeholders in the 
jurisdiction (e.g., fire, police, public works, elected officials) are 
integrated by their use of common technologies, systems, and management 
processes. The jurisdiction operates in a collaborative organizational 
environment wherein inclusiveness, relationships based on trust, on-
going interactions between stakeholders, open communication, and 
consensus-based decision making are the norm. And, finally, the 
prepared jurisdiction would be coordinated; the stakeholders within the 
jurisdiction would know and accept their roles, have identified the 
procedures necessary to fulfill their roles, and have practiced the 
fulfillment of their roles in conjunction with other stakeholders.
    A prepared jurisdiction is the goal of every emergency management 
practitioner and every emergency management program. Bringing about the 
description above is the reason emergency management exists. The EMPG 
program allows emergency management to work toward these outcomes; 
therefore, our objectives and measures associated with EMPG should be 
designed to measure progress towards these goals.
    IAEM-USA suggests in Preparedness that a framework of preparedness 
outcomes based on the accepted Principles of Emergency Management 
(2007) should be used to derive meaningful objectives and measures for 
the preparedness grant program most valued by local emergency 
managers--EMPG. This argument is supported by decades of disaster and 
emergency management research. The outcomes include professionalism, 
risk-driven, comprehensiveness, progressiveness, flexibility, 
integration, collaboration, coordination. The fact is the equipment, 
supplies, and systems we buy and the activities we undertake with EMPG 
funds are critical because they contribute to our ability to achieve 
these outcomes.
                               conclusion
    In conclusion, the assessment of our Nation's preparedness is 
neither simple nor straightforward. We do know what a prepared 
community looks like and we continue to make progress toward that goal 
with our key partners at the local, State, and Federal levels of 
government, private enterprise, and non-governmental organizations.

    Mrs. Brooks. Thank you, Mr. Walker.
    The Chairwoman now recognizes Chief Schwartz for 5 minutes.

 STATEMENT OF JAMES H. SCHWARTZ, FIRE CHIEF, ARLINGTON COUNTY 
  FIRE DEPARTMENT, TESTIFYING ON BEHALF OF THE INTERNATIONAL 
                   ASSOCIATION OF FIRE CHIEFS

    Chief Schwartz. Thank you, Chairman Brooks, Ranking Member 
Payne, for this opportunity to be here this morning with you 
and talk about this important topic. The International 
Association of Fire Chiefs represents the leadership of the 
Nation's fire, rescue, and emergency medical services including 
rural volunteer, metropolitan career, and suburban combination 
departments.
    I would like to thank the subcommittee for this opportunity 
to share with you some thoughts about our Nation's 
preparedness.
    Local fire and emergency services are critical players in 
any effective system of National preparedness. They respond to 
all hazards including earthquakes, hurricanes, tornadoes, 
floods, and mass casualty events. They also provide a diversity 
of other services including emergency management, community 
education about family and personal preparedness, building code 
enforcement, protection of critical infrastructure, and 
information sharing about threats and risks to their 
jurisdictions.
    The Nation is better prepared today than it was 12 years 
ago. Evidence of this fact can be found in the response to 
natural disasters like the 2011 tornado in Joplin, Missouri, 
and the Superstorm Sandy, as well as mass casualty events, like 
the April 15 bombing in Boston.
    Jurisdictions are developing capabilities to fill those 
gaps based on lessons learned from these and many other events. 
If I could cite a couple of examples.
    On September 11, 2001, the National capitol region was 
capable of putting two mass casualty units on the scene of the 
Pentagon during that crisis. Today, we have 23 units across the 
region that are standardized and completely interoperable. In 
addition to that, we have ambulance buses which were a lesson 
out of the Katrina emergency where we realized that we needed 
the capacity to move large numbers of patients. These buses can 
move up to 25 patients at a time.
    An issue that has obviously been spoken about a little bit 
this morning and is very relevant to our timing here, active-
shooter capabilities. In the northern Virginia region of the 
National capitol area, we are in the process of training 3,000 
police officers in the techniques of tactical emergency 
casualty care, which takes the lessons of the war theatres of 
Afghanistan and Iraq and teaches police officers and fire 
fighter EMS personnel how to treat trauma wounds in the field 
to save lives.
    In addition, some departments have created capabilities to 
insert medical providers into an indirect threat zone before a 
shooter is subdued, and we look forward to that particular 
capability being rolled out across the country over the next 
several months.
    The National Preparedness System depends on local fire and 
EMS resources to be adequately staffed, equipped, and trained. 
However, the great recession cost Federal, State, and local 
budget cuts that have affected the Nation's response 
capabilities.
    A couple of examples cited by research from the National 
Fire Protection Association. Fifty-one percent of all fire 
departments do not have enough portable radios to equip 
emergency responders on a shift. This is down from 77 percent 
in 2001, and 75 percent in 2005. Forty-eight percent of all 
fire departments that are responsible for EMS have not formally 
trained all their personnel to provide that service. This 
percentage is down from 54 percent in 2001.
    Sixty-five percent of all fire departments that are 
responsible for hazardous materials response have not formally 
trained all their personnel to National standards, and this is 
down from a percentage of 73 percent in 2001.
    The IAFC believes that taxpayer funds can and should be 
used effectively to improve National preparedness. In order to 
help grantees use better Federal grants, the IAFC recommends 
that FEMA develop a system for grant recipients to share 
information about the successful, and occasional not-so-
successful, uses of grant funds in order to harness information 
about what we do next.
    It seems not very efficient when somebody has created 
something very successful to not promote that to be replicated 
in other communities across the country.
    The Nation's information-sharing efforts are another area 
in which National preparedness can be improved. The Nation has 
developed an information-sharing regime with 78 fusion centers 
around the Nation. Many of these fusion centers lack 
standardization and are in various stages of implementation.
    They must continue to focus on collaborating with all 
stakeholders including fire and EMS departments and, in 
addition, it is important to make sure that these centers 
provide information for end-users, local fire, EMS, and law 
enforcement personnel.
    The Joint Counter Terrorism Assessment Team at the National 
Counterterrorism Center is another information-sharing tool for 
local public safety. This is an effort by NCTC to include local 
responders in the intelligence community, so that there is not 
only a greater awareness in local communities of what the 
intelligence community is producing, but a higher level of 
understanding within the community about what locals need in 
order to make better preparations.
    It is important that local stakeholders also have a role in 
the PPD-8 process. From fire to emergency services perspective, 
all of the resources, equipment, and personnel, are owned by 
local jurisdictions. We are concerned that the State-centered 
approach identified in the THIRA and National Preparedness 
Grant Program proposal and look forward to working on improving 
these efforts in the near future.
    Fires remain a major threat to the Nation. Overseas 
terrorists deliberately used fire as a weapon during 2008 
attacks in Mumbai and at the U.S. Consulate in Benghazi in 2012 
to cut access and draw media attention.
    Al-Qaeda magazine Inspire has urged its followers to use 
fire as a weapon here in the United States to cause damage and 
fear. Fire fighting will remain a major component of an 
effective National preparedness system, and we urge the 
committee to consider this oversight by FEMA as it reviews PPD-
8 progress.
    On behalf of the leadership of the Nation's fire and EMS 
departments, I want to thank you for this opportunity to be 
here this morning to talk about this important topic, and I 
look forward to your questions.
    [The prepared statement of Chief Schwartz follows:]
                Prepared Statement of James H. Schwartz
                           September 19, 2013
    Good morning, Chairman Brooks, Ranking Member Payne, and Members of 
the subcommittee. My name is James Schwartz, chief of the Arlington 
County (Virginia) Fire Department and chairman of the Terrorism and 
Homeland Security Committee of the International Association of Fire 
Chiefs (IAFC). The IAFC represents the leadership of the Nation's fire, 
rescue, and emergency medical services (EMS), including rural volunteer 
fire departments, metropolitan career departments, and suburban 
combination departments. I would like to thank the subcommittee for 
this opportunity to share with you some thoughts about the Nation's 
preparedness.
    America's fire and emergency services play a critical role in our 
National preparedness system. There are approximately 1.1 million men 
and women in the fire and emergency services--approximately 344,000 
career fire fighter and 756,000 volunteer fire fighters--serving in 
over 30,000 fire departments around the Nation. These fire fighters are 
the only organized group of American citizens that is neighborhood-
based, staffed, trained, and equipped to respond to all types of 
emergencies. They respond to all hazards ranging from earthquakes, 
hurricanes, tornadoes, and floods, to acts of terrorism, hazardous 
material incidents, technical rescues, and fires. Local fire 
departments also provide a diversity of non-traditional services to 
their communities including emergency management; community education 
about family and personal preparedness; building code enforcement; 
protection of critical infrastructure; and information sharing about 
threats and risks to their jurisdictions. America's fire and emergency 
services also provide a majority of the Nation's pre-hospital 9-1-1 
emergency medical response.
 are we better-prepared to respond to a major incident in the homeland?
    The terrorist attacks of September 11, 2001 and the catastrophic 
nature of Hurricanes Katrina and Rita in 2005 demonstrated major 
weaknesses in the Nation's ability to prevent, protect, mitigate, 
respond to, and recover from major all-hazards events. In the aftermath 
of these events, the Federal Government, States, counties, localities, 
and communities all have taken steps to improve the Nation's 
preparedness. The Federal Government created the Department of Homeland 
Security (DHS); strengthened the Federal Emergency Management Agency 
(FEMA); developed the National Incident Management System (NIMS); and 
distributed over $38 billion in grants to States and localities to 
improve the Nation's preparedness. On March 30, 2011, President Obama 
released Presidential Policy Directive/PPD-8, National Preparedness, as 
a further refinement to the Nation's preparedness system.
    As events across the Nation have demonstrated, the Nation is 
better-prepared today than it was in the 1990s and early 2000s. While 
major incidents, both natural and human-made, will always cause loss to 
life and property, events such as the response to the 2011 tornado in 
Joplin, Missouri; the response to Superstorm Sandy last year; and the 
response to the Patriot's Day bombing in Boston all demonstrate the 
strength of the Nation's emergency preparedness system. Jurisdictions 
across the Nation are developing capabilities to fill gaps in their 
preparedness systems, and studying these events to learn lessons that 
can be applied in their communities.
    Consider these examples from the National Capital Region (NCR):
  <bullet> One of the lessons of September 11 was the importance of 
        patient tracking. In the aftermath of 9/11, it took several 
        days to locate all of the victims that had been transported 
        from the Pentagon to area hospitals. In response to this 
        problem, the NCR developed a patient tracking system. Now EMS 
        personnel are deployed with hand-held devices that allow them 
        to scan a victim's triage tag and enter basic information about 
        the victim's identity and pre-hospital care. This information 
        is transmitted to a regional hospital coordinating center. The 
        center coordinates the distribution of patients to area 
        hospitals, so that no patients are lost in the system and no 
        hospitals are overloaded.
  <bullet> The response to 9/11 also identified the need for greater 
        emergency response capacity. This capacity needed to be 
        standardized to ensure true interoperability for an effective 
        response to any crisis. In order to address this challenge, the 
        NCR developed standardized regional capabilities like mass 
        casualty units and ambulance buses; bomb teams that coordinate 
        through a regional organization called Metrotech; and air units 
        to refill fire fighters' self-contained breathing apparatus 
        during an incident. On 9/11, there were only two mass casualty 
        units in the NCR, and they were stationed at the airports. Now 
        there are 23 mass casualty units situated around the region.
  <bullet> To improve greater coordination, the NCR jurisdictions used 
        funds from the Urban Areas Security Initiative (UASI) to 
        interconnect the fiber optic networks built and funded by local 
        jurisdictions to form the ``NCR Net.'' This system enables the 
        seamless transition of critical data, including information 
        from computer-aided dispatch systems, throughout the region to 
        improve situational awareness and reduce emergency call 
        processing time.
    Many similar examples exist across the Nation. For example, in 
analyzing the response to Hurricane Katrina, many States found that 
they did not have Intrastate Mutual Aid Systems that would allow them 
to deploy fire and EMS resources in a timely manner within the State. 
With the support of FEMA, the IAFC developed the Intrastate Mutual Aid 
System (IMAS) program to help States build these mutual aid systems. 
During the time of Hurricane Katrina, only 4 States had State-wide 
mutual aid systems for fire and EMS. Now, because of the IAFC's work, 
there are 34 States with robust mutual aid systems and 12 States that 
have completed exercises to their programs and are in the process of 
being deployable with assistance.
    While the majority of investments in preparedness are made by local 
communities, it is important to emphasize the role that the Federal 
Government has played in enhancing the Nation's preparedness. The NIMS 
and its resource-typing help local authorities from around the Nation 
identify capabilities and share resources with each other. The 
preparedness grant programs, administered by FEMA, help States and 
localities purchase necessary equipment and training to fill gaps in 
their homeland security preparedness. In addition, the Federal grants 
help to bring homeland security partners (fire, EMS, law enforcement, 
private sector, public health, etc.) together to plan, train, and 
exercise together. For example, the years of planning, equipment, and 
training purchased by Tucson, Arizona, through the Metropolitan Medical 
Response System (MMRS) played a major role in the effective 
interdisciplinary response to the January 8, 2011, incident involving 
Representative Gabrielle Giffords and 19 others.
    The Federal Government also is playing a significant role in 
resolving the problem of communications interoperability. The Final 
Report of the National Commission on Terrorist Attacks upon the United 
States highlighted the tragic consequences of the communications 
interoperability problems that occurred during the 9/11 response. The 
DHS has been focused on resolving this issue since 9/11. Through more 
than $13 billion in grants, including the Interoperable Emergency 
Communications Grant Program, and the work of the DHS' Office of 
Emergency Communications and the Office for Interoperability and 
Compatibility, the Federal Government is helping first responders 
around the Nation to begin to talk to each other at the State and 
regional levels. Last year, Congress passed the Middle Class Tax Relief 
and Job Creation Act (Pub. L. 112-96), which allocated 20 MHz of 
spectrum and $7 billion to establish a Nation-wide, public safety 
broadband network. This legislation also created the First Responder 
Network Authority, which is doing the preliminary planning that will 
allow first responders from different States to respond to a National 
disaster and be able to seamlessly communicate with each other.
                         areas for improvement
    While the Nation is more prepared for a major all-hazards incident, 
there is still a lot of work to do. The Great Recession cut property 
values and local government tax receipts, which reduced the amount of 
funds that State and local governments could spend on emergency 
preparedness. A long period of spending cuts and the sequester have 
reduced Federal funds and programs to improve preparedness. The 
National Fire Protection Association's (NFPA) 2011 Needs Assessment 
provides some information about how the fire and emergency services 
have both improved and still have lots of work to do to become truly 
prepared.
    For example:
  <bullet> 51 percent of all fire departments that answered the NFPA's 
        survey do not have enough portable radios to equip all 
        emergency responders on a shift. This percentage is down from 
        77 percent in 2001 and 75 percent in 2005.
  <bullet> 51 percent of all fire departments cannot equip all fire 
        fighters on a shift with self-contained breathing apparatus. 
        This percentage is down from 70 percent in 2001 and 60 percent 
        in 2005.
  <bullet> 48 percent of all fire departments that are responsible for 
        EMS have not formally trained all of their personnel involved 
        in EMS. This percentage is down from 54 percent in 2001 and 53 
        percent in 2005.
  <bullet> 65 percent of all fire departments that are responsible for 
        hazardous materials response have not formally trained all of 
        their personnel involved in hazmat response. This percentage is 
        down from 73 percent in 2001 and 71 percent in 2005.
    The National preparedness system depends on local fire and EMS 
resources to be adequately staffed, equipped, and trained. FEMA grant 
programs, such as the Assistance to Firefighters Grant program, help to 
bolster the emergency response capabilities in jurisdictions that still 
cannot meet basic needs. However, it is clear that more work needs to 
be done.
    The IAFC believes that taxpayer funds can--and should--be used 
effectively to improve National emergency preparedness. In order to 
help grantees better use Federal grant funds, the IAFC recommends that 
FEMA develop a system for grant recipients to share information about 
the successful uses of grant funds to develop capabilities. For 
example, as part of the Public Health and Medical Services core 
capability defined by PPD-8, FEMA could post information about the 
NCR's patient tracking system. If a jurisdiction was interested in 
developing this capability using Federal funds, it could adopt the NCR 
system for its use and avoid costly mistakes already experienced 
elsewhere. In addition, as more jurisdictions adopt each other's plans 
for developing core capabilities, the system will create greater 
interoperability of these capabilities across the Nation.
    Along with building and sustaining basic emergency response 
capabilities, the Nation also needs to move forward more aggressively 
on developing and dispensing medical countermeasures. As the Nation 
debates military action over the use of chemical weapons in Syria, it 
is important to recognize the need for the Nation to be prepared for 
this threat at home. First responders will be on the front lines of any 
biological or chemical attack or the outbreak of pandemic influenza. 
The IAFC supports H.R. 1791, the Medical Preparedness Allowable Use 
Act, which would allow jurisdictions to use homeland security grants to 
fund the distribution of medical countermeasures to both first 
responders and their families. The legislation proposes a good use of 
Federal funds to ensure the health of critical staffing needed during a 
catastrophic incident.
    The Nation's information-sharing efforts are another area in which 
National preparedness can be improved. After being identified as a 
weakness by the Final Report of the National Commission on Terrorist 
Attacks upon the United States, the Nation has developed an 
information-sharing regime with 78 fusion centers around the Nation. 
Many of these fusion centers lack standardization and are in various 
stages of implementation. It is important that these fusion centers 
continue to focus on collaborating with all stakeholders, including 
fire and EMS departments. In addition, it is important to make sure 
that the fusion centers are providing information to the end-users in 
local fire response agencies that is clear, helpful, and actionable. As 
the committee determines the next steps in fusion center development, 
any performance metrics must measure not only the quantity of 
information passed on to local stakeholders, but also the information's 
quality and if it meets the needs of the end-users.
    One important tool in the Nation's information-sharing system is 
the Joint Counterterrorism Assessment Team (JCAT). This organization is 
located in the National Counterterrorism Center (NCTC). It is composed 
of local fire fighters, EMS personnel, and law enforcement officers, 
who are allowed to work with intelligence analysts to develop 
information for local first responders. The JCAT develops specific 
products that are distributed to first responders to warn them of new 
threats and the tactics and techniques they may face in the field. One 
issue that may arise with the JCAT is that local agencies must cover 
the salary and backfill expenses for the JCAT detailee. In this budget 
environment, many jurisdictions are unable to cover these expenses, 
which mean that only a few large departments will be able to 
participate in this program.
                  presidential policy directive/ppd-8
    PPD-8 is the latest revision of the Nation's preparedness system. 
It sets the National Preparedness Goal, solidifies Federal roles and 
responsibilities, and describes the National Preparedness System. The 
IAFC was consulted by the National Security Council staff as it 
developed PPD-8. Many of our suggestions were included in the final 
document.
    One highlight of PPD-8 and the National Preparedness Goal is the 
focus on mutual aid. Mutual aid is a key to an effective emergency 
response system. Based on the principle of ``neighbor helping 
neighbor,'' an effective mutual aid system allows fire and EMS 
departments to use a scalable system to call upon resources as an 
incident escalates. As local budgets are cut around the Nation, local 
fire departments rely upon each other to protect their communities.
    Mutual aid is also a major component of an effective National 
preparedness system. Many jurisdictions will not be able to meet all of 
the core capabilities defined by PPD-8 on their own. However, by 
working together, they will be able to complement each other's 
strengths and weaknesses and protect their citizens. The IAFC has 
worked with the States to develop intra-State mutual aid systems 
through its IMAS program. As FEMA implements PPD-8 and the National 
Preparedness Goal, the IAFC also urges the agency to recognize the 
importance of developing mutual aid through regionalism. In 
jurisdictions, like the NCR, the communities clustered around a border 
may have more in common than with the rest of the State. Programs like 
UASI and MMRS help to foster this type of regionalism for major 
metropolitan areas that cross State lines.
    One concern about PPD-8 is the National Preparedness System's focus 
on States. For example, the Threat and Hazard Identification and Risk 
Assessment (THIRA) should be completed by States and the FEMA regions. 
The proposed National Preparedness Grant Program proposal would give 
States a larger say in how FEMA grant funding is allocated.
    It is important that local stakeholders also have a role in the 
process. From a fire and emergency services perspective, all of the 
resources--both equipment and personnel--are owned by local 
jurisdictions. Any estimation of resources to meet the core 
capabilities must include the input of local fire and EMS departments. 
In addition, local jurisdictions best know their threats, risks, and 
level of preparedness to meet them. The IAFC welcomes language in the 
latest THIRA Guide (Comprehensive Preparedness Guide (CPG) 201), which 
urges State emergency managers to use a whole-communities approach in 
filling out their THIRAs by consulting local fire, EMS, law 
enforcement, and public health departments. However, the record on the 
THIRAs has been mixed so far, with some States working with their local 
jurisdictions to complete their THIRAs and other States not doing so. 
As the committee continues its oversight of the PPD-8 process, one 
question should be ``are local stakeholders being included as equal 
partners in the process?''
    The IAFC also is concerned that firefighting is not listed as a 
core capability under PPD-8. Other missions of the fire service are 
covered, including building code enforcement, hazmat response, and 
emergency medical response. However, as recent events in California 
have shown, fires remain a major threat to the Nation. Overseas, 
terrorists deliberately used fire as a weapon during the 2008 attacks 
in Mumbai and at the U.S. consulate in Benghazi in 2012 to cut access 
and draw media attention. The al-Qaeda magazine, Inspire, has urged its 
followers to use fire as a weapon here in the United States to cause 
damage and fear. As 9/11 demonstrated, firefighting will remain a core 
capability in an effective National preparedness system. We urge the 
committee to consider this oversight by FEMA as it reviews the PPD-8 
process.
                               conclusion
    On behalf of the leadership of the Nation's fire and EMS 
departments, I thank you for the opportunity to discuss the state of 
the Nation's preparedness. It is important to remember that any 
National disaster begins locally and ends locally. However, one of the 
greatest lessons that the Nation has learned in the past 12 years is 
that it requires the development of a comprehensive National system to 
improve preparedness. This National Preparedness System must 
incorporate all stakeholders at the Federal, State, Tribal, local, and 
individual levels. Through its various missions, the fire and emergency 
services are prepared to perform their role in the mission areas of 
prevention, protection, mitigation, response, and recovery. It is 
important to recognize the amount of progress that the Nation has made 
since 9/11, and that there is more work that needs to be done. The IAFC 
looks forward to working with the committee and the administration to 
continue to improve our Nation's preparedness system.

    Mrs. Brooks. Chief Schwartz.
    The Chairwoman now will recognize Ms. Spangler for 5 
minutes.

  STATEMENT OF KATHY SPANGLER, VICE PRESIDENT, U.S. PROGRAMS, 
                       SAVE THE CHILDREN

    Ms. Spangler. Chairwoman Brooks, Ranking Member Payne, and 
the esteemed Members of the homeland security committee, thank 
you for the opportunity to testify on this critical issue. 
Unfortunately, I must report to you that when it comes to 
protecting our Nation's children from disaster, America is not 
prepared.
    Over the past year, we have seen incredible destruction and 
high-profile school tragedies that remind us how vulnerable 
children are during disasters, and that they can strike 
anywhere and at any time. However, too many States are failing 
to take basic actions essential to protect our children. It is 
like they are stuck in a pre-Katrina mindset. Do you know how 
long it took to reunite the last child with their family post-
Katrina? Six months.
    After 8 years, many States still fall short on their 
reunification planning. Any given work day, 68 million children 
are separated from their families. If a disaster strikes a 
school or a child care center, what happens to these children? 
Are schools and child care centers doing all they can to 
prepare for emergencies? Is Government requiring them to meet 
even minimum standards? More often than not, the answer is no.
    After Katrina, Congress authorized the National Commission 
on Children in Disasters and led by Save the Children. It 
recommended hundreds of steps that should be taken to protect 
children. We condensed those recommendations into four minimum 
standards.
    They are that States require all child care centers to have 
an evacuation and relocation plan, a family reunification plan, 
and a plan for children with special needs. That they require 
all schools K-12 to have a disaster plan that account for 
multiple hazards that can occur.
    This month, we released our sixth annual disaster report 
card and found that 28 States and the District of Columbia 
still fail to meet at least one, if not all four, of these 
minimum standards. Six States and the District of Columbia fail 
to even require multi-hazard plans for all schools.
    So with so many States failing to act, it is up to the 
Federal Government to do what it can to protect children. That 
is starting to happen. The Department of Health and Human 
Services, the Administration for Children and Families has 
proposed a new rule requiring child care providers that receive 
subsidies through the Child Care and Development Block Grant to 
verify that they have an emergency plan that meets two out of 
three child care standards. We are hopeful that HHS will amend 
the rule to include all three.
    Today, we express our profound gratitude to Ranking Member 
Payne, and Ranking Member Thompson, for introducing legislation 
that takes the same approach to motivate State action on the 
fourth standard to better protect children in schools. Their 
legislation titled, Safe School Act, would require each State 
applying for the State Homeland Security Grant Program through 
the Department of Homeland Security to certify that they 
already require schools to have multi-hazard emergency plan.
    If ever there was a year when we saw the variety of 
emergencies that can occur in States, it is this one. This act 
is a critical first step to protecting children in schools. I 
encourage you all to co-sponsor this legislation and to 
encourage your colleagues to do the same.
    Save the Children has three recommendations today. First, 
pass the Safe School Act. Second, make child care mapping an 
eligible activity under the State Homeland Security Grant 
Program. One of the areas where the gaps in protecting children 
is most glaring is around child care. After the Oklahoma 
tornadoes and Hurricane Sandy, Save the Children helped damaged 
and destroyed child care centers reopen.
    These centers often have little access to emergency 
recovery funds. Yet their services are desperately needed by 
families who have lost everything, and for children who have 
experienced an event that is terrifying in their young lives. 
One Oklahoma child care director told us, as parents and staff 
pulled children from the rubble after the tornado destroyed her 
center, first responders raced down the street right past them 
to a nearby destroyed hospital. Nobody stopped to help them 
because nobody even knew a child care center, with infants and 
young children, was there. Federal support for child care 
mapping will help ensure that this does not occur again.
    Our third recommendation would require FEMA to report 
annually on the amount of homeland security grant funds that 
are being dedicated to the needs of children. Save the Children 
has successfully advocated for such a report from FEMA via the 
annual appropriations process. We can announce today that this 
reporting has shown, that out of the $14 billion in homeland 
security preparedness grants, for fiscal years 2004 through 
2010, only 16 States put funds toward protecting children.
    The total investment was less than $10 million. In other 
words, only 0.7 percent of emergency preparedness funds were 
invested to the needs of children. We need to start tracking 
this allocation every year. To do that, we recommend a long-
term authorization directing FEMA to complete this task 
annually.
    Once we shed light on how little is being done to protect 
the most vulnerable among us, our children, we can encourage 
States to rectify this shameful oversight. Congress has the 
power to act now to protect children before the next disaster 
strikes. We urge you to do so. I appreciate the opportunity to 
be here today and welcome any questions you may have.
    [The prepared statement of Ms. Spangler follows:]
                  Prepared Statement of Kathy Spangler
                           September 19, 2013
UNACCEPTABLE: Despite a record disaster year and high-profile school 
        tragedies, most States still fail to meet basic child-safety 
        measures.
    Chairman Brooks, Ranking Member Payne, and esteemed Members of the 
Homeland Security Committee, thank you for the opportunity to testify 
on this critical issue. You ask whether our Government is doing enough 
to protect children when disaster strikes? Put quite simply, we are 
not. This is unacceptable.
    This past year showed our country how disaster can strike anywhere 
at any time and how vulnerable our children can be. 2012 was the 
second-costliest year of U.S. disaster destruction on record. Thousands 
of families were uprooted. The devastation left by Hurricanes Sandy and 
Isaac in New York, New Jersey, and the Gulf Coast, the Oklahoma 
tornadoes, and the tragedy at Sandy Hook Elementary School in 
Connecticut should be a wake-up call. But when it comes to taking very 
basic measures to protect our children from disaster, too many States 
won't budge. It's like they're stuck in a pre-Katrina world where the 
gaps weren't so clear.
    Do you know how long it took to reunite the last child with her 
family after Hurricane Katrina? Six months. And yet 8 years later, many 
States are still falling short when it comes to family reunification 
planning.
    Any given work day, 688 million children are separated from their 
families. Where are these children? In schools and child care. Children 
need protections where they are, and it's the Government's obligation 
to make sure that happens.
    After Katrina, Congress authorized the National Commission on 
Children aand Disasters led by Save the Children and it recommended 
hundreds of steps that should be taken to protect children. We 
condensed many of those recommendations into just four minimum 
standards. And for 6 years we have released a Disaster Report Card on 
how States are doing.
    The four standards are: That States must require all child care 
centers to have (1) An evacuation and relocation plan, (2) a family 
reunification plan, and (3) a plan for children with special needs, and 
(4) that States require all K-12 schools to have disaster plans that 
account for multiple types of hazards. Last week, we released our 2013 
report, ``Unaccounted For: A National Report Card on Protecting 
Children in Disasters'' (www.savethechildren.org/get-ready) and the 
results were astonishing.
  <bullet> 288 States plus the District of Columbia still fail to meet 
        minimum standards on protecting children in schools and child 
        care.
  <bullet> 6 States and the District of Columbia still fail to require 
        multi-hazard plans for all schools.
  <bullet> Since 2008, the number of States meeting all four standards 
        has risen from 4 to only 22.
    Fortunately, there are some bright spots. This year, 4 States 
including New Jersey, Tennessee, Nebraska, and Utah all took steps to 
meet all four standards. Furthermore, the Federal Government appears to 
be advancing efforts to address these gaps.
    The Department of Health and Human Services (HHS), Administration 
on Children and Families, has proposed a new rule obligating child care 
providers that receive subsidies through the Child Care Development 
Block Grant (CCDBG) to verify that they have an emergency plan with 2 
of our 3 critical provisions, and we are hopeful that HHS will amend 
that rule to include all three.
    Today, we are pleased to congratulate Ranking Member Payne, Jr. and 
Ranking Member Thompson, on this very committee, for introducing 
legislation today that takes this same approach to motivate State 
action on the 4th standard--to better protect children in schools. 
Their legislation, called the ``S.A.F.E. Schools Act'' would require 
each State applying for the State Homeland Security Grant Program 
(HSGP) through the Department of Homeland Security (DHS) to certify 
that it already requires its schools to have multi-hazard emergency 
plans (or that it will do so by the start of the 2015 academic year). 
This would be the tipping point we need to better protect our children!
    If ever there was a year when we saw the variety of emergencies 
that can occur in States this year was it. From fires to floods to 
tornadoes to hurricanes to man-made disasters; we saw first-hand that 
at a very minimum, schools and child care centers must have emergency 
plans that require them to consider and practice each. Just imagine how 
different it is to practice moving all children out into a parking lot 
in a fire drill, versus moving them all into a safe room for a tornado, 
much less practicing a lock-down for a shooting situation. We must 
require multi-hazard plans. And this act is a critical first step. I 
encourage you all to co-sponsor this legislation and encourage your 
colleagues to do the same.
     This is the first of three recommendations we offer today. Because 
there is more the Congress can do to protect our children.
    From Sandy to Sandy Hook, Isaac to Oklahoma, Save the Children was 
on the ground during the major disasters of the past year. We provided 
child-friendly services in shelters, mental health programs for parents 
and kids, and recovery funding for child care providers and schools. As 
the leading child-focused emergency response organization, we are 
seeing many critical gaps in protecting children.
    One of the most startling is how child care centers are often left 
behind when it comes to emergency response and recovery. After the 
Oklahoma tornadoes, we helped damaged and destroyed child care centers 
that have little access to emergency recovery funds reopen. Their 
services were desperately needed by families of children who 
experienced the most terrifying experience of their young lives, and 
many of whom lost homes or even neighbors.
    One director told us how as parents and staff pulled children from 
the rubble of her destroyed center that day, first responders raced 
down the street, right past them to a nearby destroyed hospital.
    Nobody stopped to help them because nobody even knew a child care 
center, infants and young children, were even there.
    Our second recommendation is that the Congress encourages States to 
map the locations of all child care centers so this never happens 
again. It can do so by making child care mapping eligible for block 
grant eligibility.
    Finally, we need to encourage protecting children and accounting 
for their unique needs across all our Nation's emergency planning 
efforts. Save the Children believes a good start is showing just how 
much or little the States are doing for children with the Federal funds 
they receive. Unfortunately, it is very, very little.
    A measure we were able to successfully advocate be included in the 
fiscal year 2012 budget process required for the first time that the 
Department of Homeland Security (DHS) and the Federal Emergency 
Management Agency (FEMA) detail how much of their annual grant funds 
are dedicated towards the needs of children. FEMA's resulting report 
showed that only 16 of the States dedicated a total of less than $10 
million to protecting children out of billions of dollars worth of 
emergency preparedness grants between 2004-2010.
    Our third recommendation is that instead of fighting to include 
this required reporting in the budget every year, the Congress require 
such reporting in authorizing legislation. Once we shed light on how 
little is being done to protect the most vulnerable among us--our 
children--we can encourage States to rectify this shameful oversight.
    To recap, our three recommendations are:
    (1) Pass the ``SAFE Schools Act'' in order to utilize the State 
        Homeland Security Grant Program (HSGP) to ask States to require 
        multi-hazard emergency plans for schools;
    (2) Recommend block grant eligibility for child care mapping;
    (3) Require FEMA to report the percentage of grants going 
        children's needs.
    Congress has the power to act now to protect children before the 
next disaster strikes. We urge you to do so.
    I appreciate the opportunity to be here today, and welcome any 
questions you may have.

    Mrs. Brooks. Thank you, Ms. Spangler.
    I now am going to recognize the gentleman from New Jersey 
for questions. I understand he may need to step out a bit and 
so I wanted to make sure that he got his questions in.
    Mr. Payne.
    Mr. Payne. Well Madame Chairwoman, I appreciate that 
consideration. Let me start with Mr. Manning. The 2013 NPR 
boast Nation-wide adoption of NIMS in 2012. That is really 
encouraging, but I am hearing that NIMS is not being enforced 
in New Jersey. Have you heard about any problems enforcing NIMS 
in New Jersey?
    Mr. Manning. Congressman, I am not aware of any specific 
problems in New Jersey, but it is something I would be very 
happy to look into and get back to your office on.
    Mr. Payne. Yes, I would appreciate it. We had conversations 
at a forum several weeks ago with first responders and heads of 
homeland security in my district, and that issue has been 
raised by several different entities in terms of that, you 
know, what should I tell them in terms of it not being 
enforced?
    Mr. Manning. Well Congressman Payne, I believe that NIMS 
has been the National doctrine for the preparation for 
coordination in response to disasters for many years now. It is 
enforcement or the manner in which it is used is one that 
varies from jurisdiction to jurisdiction. The basic doctrine of 
the incident command systems span of control, unity of command, 
and the organization of responding to a disaster is one that 
has had wide-spread distribution. Not one that I have heard 
that there are concerns with the New Jersey, and I will look 
closely into it.
    I know there have been questions from time to time about 
its applicability in the day-to-day organizational structure of 
emergency response organizations, and the current position of 
the administration is that NIMS is an organizational--the 
incident command system specifically is an organizational 
structure specifically created for response to a multi-agency 
or a large emergency or disaster and not one necessarily to be 
used to organize the administrative function of an 
organization.
    That may be the case there. I would be happy to look into 
it and report back to your office.
    Mr. Payne. That will be fine, thank you, sir. Ms. Spangler, 
you know, over the course of the past year man-made and natural 
disasters have had a tremendous impact on children, as you 
stated. Save the Children supported efforts in Hurricane Sandy, 
Newtown, and the tornado in Oklahoma. What are the most 
important lessons learned related to children that the 
organization learned during--as a result of these disasters?
    Ms. Spangler. Thank you for the question, Congressman 
Payne. It has been an extraordinary year, and we have been on 
the ground in partnership with FEMA and the Red Cross and other 
partners in each of these disasters. For us what has been so 
amazing to watch is the fact that child care facilities are not 
considered part of the core strategy. That there is very little 
data--it took us weeks to identify the damages associated with 
child care centers.
    I think it is incredibly important to recognize that for 
communities to recover, getting child care centers back up and 
operational is critical to family well-being, it is critical to 
the economic well-being of a community, and it is an area that 
I think we have really failed to identify before, during, and 
after.
    Many of these child care facilities are operating. They are 
not necessarily non-profit, but they operate on very small 
margins, and they are not eligible for emergency recovery 
funds. So we have done the best we can with our partners to 
help them recover and get back operational, but we think that 
the mapping strategy around child care would be incredibly 
important for emergency management.
    It would be important for the States to be able to provide 
necessary resources to help communities recover more quickly. 
In long term, it will allow us to reach out more directly to 
child care providers on the preparedness front.
    Mr. Payne. Okay. It has been about 3 years since the 
National Commission on Children and Disasters released their 
report to Congress. In your opinion, what ways has the Federal 
Government been most successful in implementing the 
recommendations of the report?
    Ms. Spangler. A few ways. We would really give credit to 
the Federal agencies for their support in this work, in 
particular, our partnership with FEMA and the focus on child-
friendly materials and services at shelters. You may know that 
we will work with shelter partners to implement child-friendly 
spaces to provide psycho-social support for children to have a 
normal environment as much as it possibly can be and to allow 
their families to begin to restore through the process of 
registration and recovery.
    So FEMA has instituted new regulations that do support 
greater access to materials and equipment in those settings. 
Certainly FEMA has also been focused on through Mr. Fugate's 
direction on leadership in terms of children and the task force 
associated with children's efforts, and so we are really 
pleased with the effort that FEMA has put forward in these past 
few years to support that.
    We also would say that we are partnering with the 
Department of Education, certainly post-Sandy Hook, as well as 
previous disasters to support efforts to support preparedness 
in schools. Multi-hazards preparedness is a very important 
part. We saw in Sandy Hook that reunification and relocation 
were issues that caused some strife for families in those 
immediate moments following the tragedy.
    Those are areas that even for a school that was prepared 
and drilled as we believe that Sandy Hook was, in the fog of a 
disaster, it still is a priority that we train and we drill, so 
we are working with the Department of Education on that as 
well.
    Mr. Payne. Thank you and, you know, as a child of the 1960s 
I can remember having fall-out shelters in the schools, and 
we--fire drills, and so, moving forward with this legislation, 
it just bothers me that, I mean, we even have to raise this 
issue and people haven't thought about, what about the 
children, especially after what we saw in Sandy Hook and the 
tornado.
    The Sandy Hook incident was--you know, just a terrible act 
of violence, but the natural disaster, us not being prepared 
for that, I don't see why it should be such an issue, and maybe 
we have to take to the American people if we can't get, you 
know, this body to act. Let's take it parents and see how they 
feel, and they can push their representatives in this way.
    So I really thank you for all your efforts. Your report was 
enlightening and is really helping us determine how to move 
forward and making sure our children, I am a father of 
triplets, they are older now, but I try to put myself in other 
peoples' situation and what would I do if it was my children? I 
think this is just really a refining of what we have done in 
this country to be prepared for a disaster. So this should be 
the next step.
    We have a National preparedness, now what are we doing for 
our children? So I thank your efforts, and I ask unanimous 
consent to submit the 2013 Save the Children National report 
card and support letter from Save the Children to the record.
    Mrs. Brooks. Without objection, so ordered.
    [The information follows:]
                       Letter From Kathy Spangler
                                September 18, 2013.
The Honorable Donald Payne, Jr.,
U.S. House of Representatives, 103 Cannon House Office Building, 
        Washington, DC 20515.
    Dear Congressman Payne: On behalf of Save the Children, US 
Programs, I am proud to endorse the ``Secure America for Education 
(SAFE) in Our Schools Act of 2013.''
    The aftermath of Hurricane Katrina demonstrated how unprepared the 
Nation was for major disaster. Children were extremely vulnerable, 
often unprotected, and it took 6 months to reunite the last child with 
her family. In addition, despite a record disaster year and high-
profile school tragedies, most States still fail to meet basic child-
safety measures endorsed by the National Commission on Children and 
Disasters, which was Congressionally-authorized as a result of 
Hurricane Katrina, and submitted a comprehensive package of recommended 
standards to Congress and the administration in 2010.
    Since 2008, Save the Children has published a disaster report card* 
tracking the progress on all States meeting four critical standards:
---------------------------------------------------------------------------
    * The Disaster Report Card is available at http://
www.savethechildrenweb.org/getready/Disaster-Report-2013/.
---------------------------------------------------------------------------
  <bullet> an evacuation plan;
  <bullet> a family reunification plan;
  <bullet> a plan for children with special needs; and
  <bullet> that States require all schools to have disaster plans that 
        account for multiple types of hazards.
    In the first year of publication, we found that only four States 
met all four standards, however, that has risen to 22 as of 2013. 
Unfortunately, there are 28 States (including the District of Columbia) 
that are still failing to meet the needs of children and protect them 
in school settings.
    That is why we greatly appreciate your leadership in introducing 
the ``SAFE Schools Act of 2013,'' by requiring States that apply for 
homeland security grant funding to adopt basic evacuation, 
reunification, multi-hazard, and children with special needs in school 
settings. This bill would represent a critical step towards holding 
States accountable for meeting the disaster-related needs of children 
in schools.
    We look forward to working with you and your colleagues on 
advancing this bill through the legislative process. Thank you for your 
consideration and support of our Nation's children.
            Sincerely,
                                            Kathy Spangler,
                  Vice President, U.S. Programs, Save the Children.

    Mr. Payne. Thank you, Madame Chairwoman.
    Mrs. Brooks. Thank you. I now will recognize myself for 5 
minutes of questions. These really are directed more to Mr. 
Ghilarducci, Mr. Walker, and Chief Schwartz.
    It really appears to me that the National preparedness 
report is a very Federal and State-driven report that tries to 
capture where the Nation is regarding our preparedness 
capabilities. According to that report, as I said in my opening 
statement, planning, intelligence, information sharing, 
operational communications are all considered National 
strengths and things that have improved.
    Whereas cybersecurity, which you certainly mentioned, Mr. 
Ghilarducci, and public-private partnerships still remain 
challenges. I am curious in your opinion and as the people most 
in-tune with your communities and you have mentioned, response 
is local. When we have emergencies, whether they are natural 
disasters or man-made, the response is always local, and you 
are most in-tune with your communities. Do you feel that the 
strengths and weaknesses identified in these reports are 
accurate? Are they detailed, and are they accurate?
    You have mentioned, you know, some of--and so I would like 
to kind of drill into what you think are the strengths and 
weaknesses and more probably with respect to our weaknesses, 
and you have mentioned in your opening statement some of those 
weaknesses, but I would like for you to share a bit of what you 
think with respect to that report, the strengths and 
weaknesses.
    Mr. Ghilarducci.
    Mr. Ghilarducci. Thank you, Madame Chairwoman. You know, 
the report and the strengths that were identified, sort-of try 
to capture a one-size-fits-all through the country as we have 
put this effort forward and developing capabilities, so from 
that context, I think it is understandable, and we are trying 
to put a parameter around this.
    But really from where we are engaging, you know, with our 
stakeholders, with our partners, leveraging those relationships 
with public-private partnerships or private sector, for 
example, with community-based organizations, is absolutely 
critical if we are going to actually have a comprehensive 
whole-community capability.
    That is one area that more could be done in including all 
the way up to engaging the business community in our decision 
makings and incorporating them into our operation centers as a 
partner and being able to adjudicate different issues that come 
up during disaster operations.
    In addition, that replays into the whole context of 
cybersecurity and the need to build a platform, a baseline, for 
which we are all on the same page with regards to 
cybersecurity, and how we are going to be able implement those 
mitigated efforts to protect ourselves as local communities, as 
the industry, business and industry, and as education, 
academia, and Government.
    So that we are all working together because really--in 
cybersecurity, really, it is the weakest link that is going to 
exploited, and when that happens, then the system can be fully 
impacted. So again, this area of bringing in subject matter 
experts in different organizations and stakeholders that have--
and in the case of cyber, pretty much everybody is impacted by 
this, has a role and would benefit from a capability to develop 
and get them into that process as we move forward.
    As we have done our planning efforts we have used the THIRA 
and the THIRA is a good tool. It was really a little bit, I 
think in the approach, a little bit discoordinated in being 
able to collect a most appropriate amount of information, most 
relevant information to be able to give you really what the 
true picture is with regards to our National preparedness.
    I think that given more time, given the ability to not have 
different sectors submitting information sort of unilaterally, 
to be able to make that THIRA complete, would have gone a long 
way to give you a more comprehensive picture to make this 
report something that is less of an overarching and a little 
bit more specific.
    Mrs. Brooks. Thank you. Thank you for those comments.
    Mr. Walker, any thoughts you have.
    Mr. Walker. Thank you, Chairwoman Brooks. Just one comment 
I would have on the report, essentially to start with, I 
believe it says in there in detail that--this is the second 
report and as they grow, there will be measurement tools 
available, more clear pictures presented, and I would agree 
with that as being a--and I see it on the local level, any of 
the reports that are provided to us as local directors from 
either our States or from FEMA, that there are tools that we 
use as a measurement supporting device for the decisions we are 
making to become resilient locally. To make our whole 
community.
    We want to look at what is around the country versus where 
we are and try to measure up to some of those, or try to say it 
is impossible for us to do that, because emergency management 
is really resource-driven, so we are looking at, do we have the 
resources here locally when the wind blows and the storm 
happens?
    I think of Gaylon Kitch, who is the Moore, Oklahoma, 
emergency manager. He is in a one-man shop, only able to do 
what he can do for one person, but he has developed a strong 
supporting group of volunteers and that is what--you have to do 
those kind of things on the local level to be successful, as 
they use the skills and the people available to you locally and 
the tools like the NPR to become successful, to be able weather 
the storm so to speak. Thank you.
    Mrs. Brooks. Thank you. We know that DHS is committed to 
those performance measurements and working on those systems. 
Chief Schwartz, any comments you might have?
    Chief Schwartz. Just briefly, Chairwoman, I guess, you 
know, I would observe in addition to the comments already made 
that, we oftentimes suffer from a lack of defined processes and 
maybe even standardization, so when we talk about, is it a 
State-centered process or is it more locally-driven? The real 
answer is that it is a diversity of approaches.
    We listen to fire chiefs talk about their involvement in 
THIRA. We hear some say that they have been involved. They have 
been asked to provide inputs, and we hear from others that they 
have never been a part of that conversation.
    I think in acknowledgment of a National preparedness goal, 
and even pre-dating PPD-8, this idea that we were going to 
build a system of National preparedness, that we focus on the 
locality and build out regionally to the State and then multi-
State as necessary, hasn't really been achieved.
    We haven't--and we haven't created really the direction, I 
think, in terms of processes. As an example, if the States were 
to be required to engage stakeholders on a regional basis, as 
they do in some instances, like Virginia, where we have regions 
of the State that are home to regional hazardous materials 
teams. Everybody doesn't have to have their own team, but there 
is an assessment within the region about what that threat looks 
like and how to resource against that threat.
    You can imagine how that same kind of approach could be, 
you know, put in every State, and then, where there are 
discrete differences between one area of the State and another, 
those could be accounted for, but localities and regions--some 
regions of the State would know where they are getting their 
resources, how they are going to meet those threats that are 
specific to them.
    Mrs. Brooks. Thank you very much. My time is now up.
    I now will recognize the other Members of the subcommittee 
for questions they may wish to ask our witnesses and, in 
accordance with the committee rules and practice, I plan to 
recognize the Members who were present at the start of the 
hearing by seniority in the subcommittee, and those coming in 
later will be called upon as they arrive.
    At this time, I would recognize the vice-chair of the 
subcommittee, the gentleman from Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Madame Chairwoman, and I thank our 
witnesses for being here today. I have a couple of statements I 
want to read, and then I just want to ask a couple questions to 
get an understanding of why of these programs was not properly 
funded in the President's budget.
    It is centered around the pre-disaster mitigation program. 
We know it provides funds to States, territories, communities 
for hazard mitigation planning and the implementation of 
mitigation projects before a disaster event. Funding these 
plans and projects reduces overall risk to the population and 
structures. You know, our No. 1 priority is to protect property 
and our people, and the pre-disaster mitigation grants do that.
    Now the President's fiscal 2014 budget proposed to 
eliminate PDM funding, and so that is--kind of my question is 
to Mr. Ghilarducci and/or Mr. Walker, the pre-disaster 
mitigation grants are useful, aren't they, I mean, can you 
elaborate on that?
    Mr. Ghilarducci. Absolutely. I mean, this is a--it is a 
good question you have, why they weren't funded. If we look at 
the--I mean this cycle that we are in is problematic. This deal 
where we continue to--I mean, it is important to have response 
capability. There is no question about that.
    But as we see more and more events taking place, more 
complex events taking place, particularly, weather-related 
complex events taking place, and we see that there is really no 
effort being put into pre-disaster mitigation from the 
standpoint to harden, to reduce vulnerabilities, to make our 
communities more resilient, we have only done one-half of the 
equation. This is problematic.
    Because it will cost the taxpayers, it will cost us more 
and more by just throwing response resources at it and be ready 
to response when we could actually reduce that amount of money 
and costs by hardening and making our communities more 
resilient. As a part of that, it is not infrastructure 
resiliency. It is also in the preparedness aspects.
    It is in the building, as mentioned, you know, getting our 
schools up to speed and our children educated, and there is a 
lot to pre-disaster mitigation, and I would like to see, you 
know, when you look at the total number of dollars that are 
spent in sort of the response and the after event side, by 
comparison to what is put into pre-disaster mitigation, if we 
could even just take half of that and move it in, we would be 
so much further as a country.
    That is really what we need to do, and I concur with your 
statement 100 percent.
    Mr. Palazzo. Mr. Walker, do you have anything to add?
    Mr. Walker. Just a couple of things--you know, we are 
interested in why pre-disaster mitigation is not funded, also, 
as an organization, the International Association of Emergency 
Managers. It is pretty important to each one of our directors 
on the local level. You know, there is an adage, I guess, to 
say, that for every dollar spent on mitigation, we save $3 or 
$4 of other dollars.
    I believe that to be true having experienced disasters, 
having seen the outcomes, having seen what is necessary, so 
pre-disaster mitigation is a tool for the local emergency 
manager, preliminary, before the disaster strikes, to be ready 
to be able to survive. Thank you.
    Mr. Palazzo. So you all would agree it is a good investment 
to put money into the PDM program. It helps save lives. It 
helps save property. So that leaves my question to Mr. Manning, 
can you explain to me why the President's budget zeroed those 
dollars out?
    Mr. Manning. Thank you, Congressman. In putting together 
the President's budget request, we had to take close 
consideration given the fiscal environment with which we were 
presented, which grant programs to propose and how to structure 
FEMA's overall budget to accomplish our mission.
    There is no question of the support within FEMA for 
mitigation. It is an absolutely critical element to emergency 
management. When we were considering which grants to propose, 
we had to look at which grant programs accomplish something 
that is duplicated by another grant program. Those are the 
areas where we had to constrict what we proposed.
    Mitigation--the vast majority of money that is spent on 
mitigation in this country comes from the Hazard Mitigation 
Grant Program, a separate mitigation grant. It is significantly 
higher than PDM. That is a grant that comes as a percentage of 
a disaster. It is grant money that is awarded following a 
disaster, but there are two options for the expenditure of that 
money.
    One of which is--was referred to as 404 mitigation, and 
that is a grant that is used for a pre-disaster mitigation 
elsewhere in the State, but is awarded as part of the public 
assistance program of a disaster grant. By linking it to the 
disasters, you have a program that focuses mitigation money in 
the areas of the country with which they are faced with the 
most frequent disasters.
    Mississippi is a huge recipient of the Hazard Mitigation 
Grant Program, for example. That allows for repetitive loss 
mitigation programs, flood control structures, things that will 
alleviate the repetitive damage from frequent disasters such as 
hurricanes, tornados in the central United States, earthquakes 
in California, wild fires throughout the American Southwest.
    So at first when putting together the President's budget, 
we took a number of different areas, PDM being one, the pre-
disaster mitigation grant program--the majority of that money 
was spent on planning, not on mitigation programs per se, but 
on planning for a mitigation.
    That planning activity is eligible under all of our other 
grant programs and the actual mitigation, the construction 
projects, the doing of mitigation, which is most often 
completed in the Hazard Mitigation Grant Program, HMGP, is 
maintained in this proposal.
    Mr. Palazzo. Mr. Manning, I am out of time, but I think 
that one thing is certain, that both of the grant programs are 
extremely important. One is pre-disaster, one is post-disaster, 
and not only are they both great investments, but not to 
digress too much, I think we need to continue to invest in our 
NOAA satellites, our National Weather Service, our data 
buoyancy center. These are our early--you know, basically 
alarms that allow us back here in the homeland, to be prepared 
for the Sandy, for you know, just natural disasters, and that 
is going to lead to us saving lives and property, so thank you, 
Madame Chairwoman.
    Mrs. Brooks. Thank you.
    The Chairwoman now recognizes the gentlelady from New York 
for 5 minutes.
    Ms. Clarke. Thank you, Madame Chairwoman, and let me thank 
our panelists for their insight and expertise in this matter. I 
am a New Yorker so very familiar with all of the challenges we 
face, was a member of the New York City Council post-9/11, and 
so the whole build-out of the incident command structures was a 
part of the portfolio that I managed as a council member.
    I am looking at the decades that have passed now and 
wondering, you know, what we need to do to make sure that is 
there is National standard, and would want sort of get some 
feedback and, in addition to that, just trying to get a sense 
of, you know, how we focus our Nation from municipality up 
through the States on the need to really integrate emergency 
preparedness into our way of life.
    Because that is really the major challenge and to the 
extent that, after each event, we go back to life as best we 
can and adjust ourselves to those new environments, there is 
really no call to action in terms of behavioral change. So I 
want to get some feedback, you know, I recognize my colleagues' 
comments around funding, but the reality is we would really 
love a robust funding, the ability to get to the municipalities 
the resources they need.
    The reality is that our budget just doesn't provide for it, 
and we have to make some very harsh decisions about what our 
priorities are financially. We are in an age where the climate 
is really wreaking havoc across the Nation. We, you know, went 
from 9/11 to Sandy, and so it is great to want these things, 
but then you have to have the political will to put the 
resources where your mouth is.
    Let me just get some feedback about how we Nationalize and 
sort of create within our civil society a desire to change 
behavior, to address what we know has become a way of life for 
us, and I will start with you, Mr. Manning.
    Mr. Manning. Thank you, Congressman Clarke. The absolutely 
critical and important point you make there. We heard from many 
of the other witnesses this morning about the maybe perceived 
State-centricity of the efforts that the Federal Government has 
been undertaking, but let me assure and all the committee 
Members that we take a truly National approach to this.
    You may have heard Administrator Fugate on many occasions 
talk about how emergency management is a team effort. FEMA is 
just part of that team. But the most important part of that 
team is the public, as our citizens, our friends and family, 
and our neighbors. So while we anticipate the National 
preparedness system that we discussed earlier, is really one of 
National--it requires the whole Nation to be part of it. We 
refer to this often as the whole-community approach.
    But the idea is not one simply of the State bringing assets 
to bear, we interface with the State as an organizing 
principle, but it really requires private sector, requires non-
governmental organization, it requires--it is the aggregate of 
all the local capabilities. But most importantly, it is the 
preparedness and the commitment and willingness of the public 
to be part of that solution.
    A key element to the President's directive, PPD-8, our 
National preparedness is the campaign is to build and sustain 
resilience in the Nation. That is not something that is focused 
on governments at any level. It is something that is focused on 
the public. It is an attempt at our efforts--our collective 
efforts to shift the conversation from something as simple as 
critical, but as simple as have an emergency kit and a plan to 
really understand the hazards that you are faced with in your 
community and those things that you need to do to work as a 
community, to protect each other and make it more resilient.
    Things like planning guidance for schools that we have done 
with the Department of Education and the Office of Vice 
President, Department of Justice, but things that we are doing 
with the Department of Treasury about financial literacy for 
underprivileged, and just the general public, because that 
really can make the difference between being a victim of a 
disaster and surviving the disaster more resiliently.
    So those are huge efforts that we are undertaking starting 
with, as you heard from Mr. Walker earlier in his testimony, a 
more science-based approach to the public's perception of 
emergencies and disasters and why they do or do not react or 
take steps. A very interesting one that our colleagues at Save 
the Children has informed of in the past, we have now evidence 
of, that families that have--individuals who have children in 
their home are roughly 60 or so percent likely to have an 
emergency plan in place. Without children in the home, it is in 
the teens.
    There is a huge difference there understanding why people 
do or do not react or prepare is key to our ability to change 
that and move the needle in our preparedness and resilience of 
our communities.
    Ms. Clarke. My time is up, but if we are having a second 
round, I would love----
    Mrs. Brooks. We will, thank you, yes.
    Ms. Clarke. Thank you.
    Mrs. Brooks. We will begin the second round of questioning 
at this point. It is my understanding that it is voluntary for 
States to include local first responders in their process in 
completing the State preparedness report, and we have heard 
about how different States have different assets throughout the 
report from the chief and certainly we know that from Mr. 
Walker's testimony about emergency preparedness, emergency 
managers, and what assets they have.
    I guess this is to start out with Mr. Ghilarducci, did your 
office solicit input from local emergency managers and first 
responders in developing California's specific preparedness 
report, and do you know if the other States you are here 
representing, really all States, what is the process that you 
use to collect that information?
    Mr. Ghilarducci. Well the short answer, yes, we did include 
all of the local partners and members of the private sector and 
NGOs. You know, I mean, sometimes I am a little bit surprised 
to hear about the lack of maybe coordination that takes place 
at State and local across the country because in California, it 
is second nature. We have a very integrated collaborative 
process on all aspects of emergency management.
    We work routinely--our centers are interagency centers so 
they are made up of local, State, and Federal. We have private-
sector people involved, representatives of the non-governmental 
community. So, from that context, you know, as we move forward 
with all these initiatives there involved in it, we often reach 
out to our partner States. In our case, Oregon, Nevada, 
Arizona, to come and join us in these multifunctional efforts 
so that we can look at the cross-boundaries from State to 
State.
    As I spoke before, sometimes States don't do that, and, you 
know, when we look at these--truly, when you get catastrophic 
earthquake in California, believe me, there is going to be 
plenty of work to go around and plenty of need, and we are 
going to need support from our partner States.
    I think that when you look across the country and talking 
to my colleagues, it is different in different places, and 
sometimes there are really strong relationships between the 
State and the locals and sometimes there isn't so much strong 
States. Some right-to-work States, and the locals are more on 
their own, and some where the State has much more of a role and 
being engaged with developing mutual aid capabilities and 
emergency planning.
    For us, I could tell you, there really should not be and 
there cannot be another way except to integrate and 
collectively and collaboratively work together to develop 
these. That is going to give you the strongest product that you 
could possibly get.
    Mrs. Brooks. Absolutely. Chief Schwartz, I am curious, in 
your State and, again, Mr. Walker, how is that collection 
process happened with your State or has it?
    Chief Schwartz. In Virginia when they submitted their 
THIRA, they did include a document from our region that had 
been produced a couple of years ago. It was our hazard and risk 
assessment, but there was no follow-on to that. There wasn't 
any conversation about how we might have wanted to have amended 
that paper or placed it in the proper context for the THIRA 
report.
    I would just, again, go back to the point, that if in the 
amount of diversity that we have to approaches across the 
State, if we don't get FEMA to create certain mandates, to 
require inclusiveness, to require participation through all 
levels of government, then we will remain, I think, all over 
the place in terms of the inputs that we are getting.
    Mrs. Brooks. If I am not mistaken, the fire service 
community is actually not specifically mentioned in the 
National preparedness system document or the preparedness 
report and system report. Any thoughts regarding that?
    Chief Schwartz. Well there are references to what the fire 
service does. There is no direct reference to fire fighting as 
a core capability. I think our position is that if you were to 
look at localities that were not properly resourced for 
something as basic as fire response within their community, it 
is probably an indicator that they are also incapable of 
dealing with anything beyond, you know, a simple house fire or 
a fire--how would you expect a community that is under-
resourced, as I was describing in my testimony around radios 
and protective gear for their fire fighters to then be able to 
put together some response for a larger crisis like a Joplin-
sized tornado or such.
    Mrs. Brooks. Mr. Walker, any comments you have? Thank you.
    Mr. Walker. Well my experience in the State of Ohio is the 
one that they offered up an idea that if we had input on 
certain areas of the fire initially, we weren't required to, 
but it was kind of an agreement where we could do that. One of 
the things in the International Association of Emergency 
Managers that I think is important to point out is, that we 
form strong partnerships with a lot of different agencies like 
the Red Cross, a lot of different agencies that are responsive 
in emergencies.
    We work with them and we make them partners, so that we can 
make sure that our local people also have that partnership 
because the Red Cross is everywhere. Certain agencies are 
everywhere in the country and that they can form those 
partnerships and when they are building resilience, and when 
they are doing the things that commit to a whole community, 
they can use those resources and public/private partnerships.
    We have an extremely strong caucus that evolves around 
public/private partnerships that is really working very hard. 
We have a very strong caucus leader, and they are doing a lot 
of substantial work to push that forward so that the private 
sector and the public sector actually get together and talk 
about things.
    That is what is necessary in resilience. I just was 
contacted by my own Red Cross chapter in my local community and 
resilience is a term that they are going to start working on, 
and they wanted to know if I could help read the book, so to 
speak. I also had--after FEMA put out the piece on worship 
centers, I was contacted by the Methodist church in Ohio about 
how could we help them support so they could better understand 
what was being said in the document because they are not 
emergency managers.
    So there are a lot of things going on as well as the THIRA, 
there are a lot of opportunities, I would say, that people can 
afford themselves of that will make them stronger on the local 
level. Thank you.
    Mrs. Brooks. Thank you. Thank you very much. My time is up.
    I now would return to the gentlelady from New York for 
further questions.
    Ms. Clarke. Thank you very much, Madame Chairwoman. I serve 
as the Ranking Member on the Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies so I want 
to direct questions to you, Mr. Ghilarducci and Mr. Walker. The 
NPR indicated that progress has been made toward building 
cybersecurity capabilities, but there are still challenges.
    How much support are States receiving from the Federal 
Government to implement a new cyber technology, develop 
incident response plans, and employ effective cyber risk 
management, and do you feel States need more direction and 
support from the Federal Government for cyber? To you, of 
course, Mr. Walker, with respect to emergency managers, how you 
are working to develop relationships with chief information 
officers and chief information security officers so that you 
can work together in the event of a cyber incident?
    Let me layer this a little bit because, you know, a cyber 
incident could mean the shutdown of many of our skater systems, 
things that would, you know, basically stop life as we know it, 
which makes it a layered incident to a certain degree. At what 
level, what depth, are our States and our managers looking at 
this potential threat to our Nation?
    Mr. Walker. Thank you, Congressman Clarke. I think on the 
local level, I have seen a lot of work being done to enhance 
the abilities of the local people to use cyber correctly. What 
would happen if cyber quits, that means do you back to writing 
checks by hand? What is your COOP plan for your local 
community. That has to be included in there, so it is a strong 
primary function of that.
    The other side, I would say that as in emergencies when we 
try to use the social media side of things, we need to be 
careful that the facts that are coming out, that are correct. I 
believe we saw during Hurricane Sandy somewhere, I was in New 
York City, if I remember right, that Wall Street was flooded 
and that was not a fact.
    So it has to be factual. It also has to have some kind of 
support if the system goes down so that we can take a step back 
and still operate and still serve our citizens as best we can 
with their understanding that, you know, we are in a disaster. 
Thank you.
    Mr. Ghilarducci. This is really a threat that is evolving 
and emerging every day, and I think everybody is still kind of 
grappling to get their hands around really what is the 
magnitude of the threat. I would tell you that from a State 
perspective that there is still a lot of gaps. Because of what 
I just said in that we are grapple with understanding the 
parameters of the threat, the ability for the Federal 
Government to support State provide guidance, has been rather 
limited.
    I mean, we get threat announcements, potential cyber 
incidents or cyber threats, and the Federal Government is just 
starting to kind of come up to speed with this. You know, I 
think in time, we all need--we are able to get on the same 
page, we actually have started a cybersecurity task force 
because there was really a lack of guidance.
    This cybersecurity task force really is a unique group that 
incorporates not just government agencies at the local, State, 
and Federal level, but the private sector, the individuals that 
actually are responsible for building and designing security 
software. So that when they are doing that, they are building 
resilient systems that we can count on as we move forward in 
the out-years.
    We are also talking to subject-matter experts to identify 
where those low-hanging fruit sort-of mitigated efforts that 
can be done immediately so we could socialize that across the 
board. I think local governments, academia, et cetera, and even 
individuals in their homes are thinking to themselves, how can 
I really protect myself against the kind of cyber intrusions 
that we are seeing?
    It could be something stealing your identity all the way up 
to knocking its data system, so the threat is broad, and the 
other piece is education. You know, we are working with the 
Department of Ed to try to identify educational processes where 
we can start teaching kids early on about cybersecurity. Most 
kids today are using social media, and that opens them up to 
cyber crimes.
    So, we are looking at it on different levels. I think you 
have to look at it on different levels as you move forward to 
be able to establish this. Then I think once, you know, some of 
these drivers can put in some guidelines. I think everybody at 
the State and the Federal level will get on the same page, and 
we could be a little bit more robust, but to specifically 
answer your question, I think there are still gaps with regards 
to that relationship.
    Ms. Clarke. Madame Chairwoman, I am concerned about this 
area and the level and the depth and breadth of what our local 
governments, State governments would encounter were there to be 
a major incident with respect to cyber if it is the grid.
    I think that it may be worthwhile for us to take a deeper 
look into this matter as we go forward. You know, you could 
have a cyber event at any moment. It could be on top of a 
natural disaster, and if you layer these types of incidents, it 
could be catastrophic.
    So I hope that you will share with your colleague, that the 
Chairman of the Cybersecurity, Infrastructure Protection, and 
Security Technologies subcommittee, of our desire to see us 
come together and really delve deeper into this subject matter. 
I want to thank you all for your candid responses today. It is 
very helpful. Thank you.
    Mrs. Brooks. I thank the gentlelady from New York because 
her concern, and I think a significant growing concern among 
Members of Congress, is this issue of cyber attacks, and what 
we would do in case of an emergency.
    I am pleased to report, we haven't shared yet with the 
entire committee, that both the Cybersecurity, Infrastructure 
Protection, and Security Technologies Subcommittee of the 
Committee on Homeland Security, as well as this subcommittee, 
will be having a joint hearing in October specifically on 
whether or not our State and local communities are prepared for 
a significant cyber attack.
    I think what the American people don't begin to appreciate 
and think about is, while a cyber attack right now, we think 
about maybe an attack on our financial institutions and, as you 
mentioned, things such as identity theft and maybe our 
computers simply going down, you know, or some denial-of-
service attack is what a lot of people are accustomed to 
learning about.
    What I think we need to be prepared for are things such as 
cyber attacks on our infrastructure, cyber attacks on our 
Federal aviation systems, or on our nuclear systems. These are, 
I think, very grave serious concerns that we have, and I think 
as we have also learned the number of cyber attacks that are 
being launched by foreign governments.
    These are not just individuals that are launching, you 
know, young hackers who are hacking into systems. This is a 
whole other level, and so I very much appreciate you agreeing 
that we need to have this hearing, and so we will be having 
further discussion in October and so I look forward to your 
participation at that hearing.
    It is my understanding that the gentleman from New Jersey 
may be returning, and so we are going to--I have a couple of 
more questions, follow-up, if the panel will indulge us. One 
thing that you have mentioned, that I think is very important 
and a number of you have mentioned is, what is the 
individuals--what are our roles as Government to educate 
individuals?
    Congressman Payne spoke about that a bit, and what are we 
doing as Government to really raise the level of awareness to 
individuals and to families and to businesses as to what their 
role is? I mean, the public/private partnership, public is 
really government, private is--well we often think of them 
maybe as businesses, it is also all individuals and what their 
role is.
    We once had a house fire at our home and only because we 
had drilled with our children and had talked to them, you know, 
to Ms. Spangler's point about preparedness with children, did 
the kids know where to go, and it was--it worked just having 
had those conversations.
    It is interesting, Mr. Manning, that you talked about the 
fact that people with children are often a bit more prepared 
than now, my daughter who is 23, does she have a plan, has she 
even thought about, you know, a plan now that, you know, she is 
really more on her own.
    So I am curious how local--we will start with you, Mr. 
Walker, maybe, just to all of your points, what your thoughts 
are about what should we be doing, in Government, to help raise 
the level of awareness. It is not just the Red Cross' job. They 
work very hard day in and day out.
    What are your thoughts about what we can be doing to really 
raise the level of individual--I have also just returned from 
Israel in August, and let me tell you, every citizen in Israel 
goes through drills, is prepared and thinks about their role in 
protecting themselves and their families, but I think the 
United States of America is far behind.
    We will start with you, Mr. Walker, and then would like 
others' comments.
    Mr. Walker. Thank you, Chairwoman. I would agree with you 
that we--the picture we see a lot of times seems to be that we 
are far behind, but there is a lot of work that is done. I 
think sometimes we have that 1 month a year where September is 
ready month.
    I think the better thing is that it is 12 months out of the 
year that we are ready because there are various catastrophes, 
various weather emergencies, various things that happen around 
the country. How do we get our people involved? I think through 
public/private partnerships. That is one of the things that is 
being discussed strongly by our organization and by other 
organizations is, how do you increase involvement? How do you, 
let's say, get their attention so that it remains a factor in 
their lives?
    It is very difficult because we are drawn in a lot of 
different directions individually in our lives, but there has 
to be a way. I am not sure I have the solid answer for that. We 
continue to work on it, and I think in public/private 
partnerships, you are broadening the base of people who can 
help you get there. They employ the people in your community. 
They can do things through their businesses, through all kinds 
of opportunities to get their attention.
    How do we measure that? I think that yet has to be 
established.
    Mrs. Brooks. Thanks. I appreciate and believe that every 
agency is working on that. I am curious whether or not any of 
you know of any, you know, specific efforts that have actually 
proven to be effective or any ideas that you would like to--
that you would like to see implemented. Chief.
    Chief Schwartz. Well, Madame Chairwoman, I would observe 
that, you know, we have had a lot of successes. If you look at 
the Joplin response, if you look at the flooding in Iowa 4 or 5 
years ago, the community proved itself to be quite resilient 
and capable of dealing with a tragedy that couldn't be stopped 
in the moment, but certainly I think was a good demonstration 
of a resilient community, resilient region.
    I, for one, think that we need to focus on growing a 
generation of prepared adults. We need to start getting in our 
school systems and getting kids when they are young. If you 
follow the example of the reduction in fires and fire deaths in 
this country, you can see a parallel between increases in 
technologies, in our buildings, and they include things like 
sprinkler systems, but you can also see an increase of public 
awareness about safe practices with regard to fire.
    How many young adults could you find today that do not know 
what ''``stop, drop, and roll'' is, that don't know what 
``change your clock, change your battery'' is? Imagine a 
parallel effort around preparedness. It may be somewhat cynical 
to suggest that we are not going to change or affect much of 
adult behavior, but over a relatively short period of time, we 
could grow a new generation of prepared adults who rethink 
this, similar in a way to your experience in Israel, because 
the fact is in Israel, it is part of the culture.
    Now, it may be because it is--it goes to their existential, 
you know, their mere existence whether or not they are 
prepared, but we could transfer some of the lessons from there 
in terms of being more acculturated to the issues of 
preparedness. If we got access to kids early in schools and 
gave them the life skill of being prepared.
    Mrs. Brooks. Thank you very much. I do agree and as 
actually Congressman Payne mentioned, you know, as a child, it 
seemed like we did a lot of drills in the 1960s, that would be 
when I was growing up as well.
    Ms. Spangler, anything you would like to say specifically 
because I agree it can be a cultural shift and if we start 
younger, and if we talk about it, but I know that a lot of 
people don't want to scare their kids. They don't want, you 
know, people to be overdramatic about what can happen, but yet, 
I believe it is so important. Ms. Spangler.
    Ms. Spangler. Visiting a Seaside Heights child care center 
and spoke to a mother who was displaced and spent many months 
trying to get back home, and she had a 2-year-old. She 
expressed to me how her child stopped talking at 2, and how 
tragic that is for a child in their development. It wasn't 
until they got back to the child care center that they started 
to verbalize.
    Brain research is suggesting that even non-verbal children, 
who experience a disaster, years later, once they begin to have 
vocabulary, they start to act this out. It is precisely the 
right time to inculcate those preparedness lessons, those 
integrated practices. They are part of the equation. They are 
not just little adults.
    All too often, we tend to treat them in that manner, so 
part of early childhood development should include, whether 
that is a Head Start center or a private center, whether that 
is a school at an elementary age or at high school, there are 
ways that we can incorporate the elements of preparedness into 
their development.
    This past year, we actually, as a Nation, had very clear 
moments of collective helplessness, and it was really because 
of the children that were affected by these disasters. So we 
have seen, just in the last year, the interest in preparedness 
take a shift. It has been very difficult as a non-profit 
organization to get anyone interested in supporting this work.
    We have partnered well with the Federal agencies. We have 
partnered well with the Red Cross, but for the very first time, 
because of this visceral emotion that we have shared around the 
risk that our children face, there is an openness.
    So any way we can incorporate our partnership with 
emergency management personnel to educate and inform, not only 
the children, but their parents to ensure that licensing 
regulations include elements of preparedness. We have to weave 
this in to all that exists around children in a more holistic 
way.
    Mrs. Brooks. Thank you very much. At this time, I would 
recognize Ranking Member Payne for any further questions he 
might have.
    Mr. Payne. Thank you, Madame Chairwoman. Mr. Walker, what 
kind of relationships do the State and local emergency managers 
have with school districts, and how do emergency managers 
incorporate schools, child care facilities, and children into 
their preparedness plan?
    Mr. Walker. From the local's perspective, we, in my 
experience, all the schools and child care agencies are part of 
our response plan. They are part of our 9-1-1 system for 
notification. We also support their drills and exercises so 
that when they have fire drills, they have tornado drills which 
are required by law, I know in the State of Ohio, and probably 
in numerous other States around the country.
    So we hope, I guess the best term I could say is, our local 
emergency managers like to become partners with those people, 
so they can support what needs to happen if there is a 
disaster. We can support their movement of people. We can 
support all those kind of things that are necessary for that 
agency to be successful in preventing loss of life.
    Mr. Payne. Based on the legislation that I have proposed, 
the Safe legislation, what is your feeling upon that?
    Mr. Walker. I am not totally familiar with that 
legislation.
    Mr. Payne. Right. I know you didn't have the opportunity, 
but the overall, you know, description of--yes.
    Mr. Walker. It has got to be of primary importance for 
every emergency manager to support that kind of an opportunity, 
to support that kind of an element or legislation would hope.
    Mr. Payne. Thank you. Mr. Manning, whatever has FEMA 
undertaken to encourage States to require school and child care 
facilities to meet the standards for emergency planning set 
forth by the 2010 commission on children and safety?
    Mr. Manning. FEMA has done a great deal of work with the 
commission on children in disaster, Save the Children, our 
other partners such as the National Center for Missing and 
Exploited Children. In developing our capabilities at the 
State, local, and the Federal government levels, to coordinate 
children in disasters.
    On the preparedness side, we have done--we just completed 
not too long ago an effort with the Department of Education, 
the Department of Justice, led by the Vice President, to issue 
new planning guidance for schools as well as higher education 
and houses of worship, three different documents, to bring 
their emergency plans into kind of the more modern approach. 
Not just for fires and tornadoes where applicable, but for 
active-shooter environment. How to work with their State and 
local government emergency management agencies which wasn't 
very clear in previous guidance.
    By all accounts, very well received, and a great deal of 
work going towards that. It is not currently required by the 
Federal Government that schools accomplish this. This is 
something that we encourage folks--encourage our partners at 
the State and local governments to do, but similar to the other 
elements of the National Preparedness Program recognizing the 
diversity of the 56 States and territories and how they are 
organized and how they are subordinate--and their political 
subdivisions are organized the degrees of autonomy in school 
districts are even more widely organized.
    It is work that we encourage--strongly encourage. We make 
eligible under all the grant programs and provide a great deal 
of tools and resources to governments and school districts to 
accomplish.
    Mr. Payne. Okay. Thank you. What is your take on what--the 
effort that I am trying to foster in terms of children?
    Mr. Manning. Well as we have encouraged our partners in the 
educational community and communities throughout the country to 
do this work, it is certainly important, of course, 
Congressman, I look forward to examining the bill and 
discussing it within the Executive, but at this point until I 
have a chance to see it, it is kind of difficult to comment.
    Mr. Payne. Absolutely. Just the broad idea in terms of----
    Mr. Manning. Yes. The coordination--planning within schools 
for all hazards and emergencies, both the things that they have 
historically done, such as, fire evacuations and drills for 
tornadoes. It is absolutely critical bringing the community 
more involved, absolutely critical. I recently--this month is 
National Preparedness Month. This year, we are focusing on 
children, ready kids.
    Mr. Payne. Excellent.
    Mr. Manning. Did a great deal of press over the last few 
months where, in every interview, emphasized the importance of 
parents getting involved in their schools, knowing their 
school's emergency plan, and providing assistance there. 
Absolutely something important.
    Mr. Payne. Hopefully after you have a chance to look over 
the bill and study it, you will come back to me and say it is 
not strong enough, Congressman, so----
    Mr. Ghilarducci, I understand that California is one of the 
22 States that requires schools and child care facilities to 
include their emergency plans and the four standards of the 
commission on children. Can you talk about your office work to 
ensure the special needs of children are incorporated into all 
hazard preparedness plans?
    Mr. Ghilarducci. Well we do have a very robust program 
working both with our State department of education and with 
our county governments and the various school districts on all 
aspects of emergency preparedness. Obviously, California is a 
large earthquake-prone State and so, you know, we do a lot with 
earthquake preparedness in schools, and that gives us, of 
course, the opportunity to expand on everything from active-
shooter to, you know, basically evacuations or emergency 
sheltering, et cetera.
    We have programs where we don't only train the responders 
on how to deal with the schools, but we have programs where we 
actually train the teachers. They are really on the business 
end of this. They are the ones that have to deal with the 
children at the time. Of course, I am married to a second-grade 
school teacher, so I hear about this all the time, and she 
gives me lots of suggestions on how better to incorporate 
emergency preparedness in schools.
    In the students training education program we do for 
teachers, it really empowers them, because the more you know 
the more empowered you are, and you can then act accordingly 
during emergency situations.
    I just want to say that, you know, there are many kids 
today that have access and functional need issues as well, 
which is another component to the emergency planning efforts 
that needs to be taken into account.
    It is another area where we focus on. I actually placed in 
my office--an office of access and functional needs, so we 
really focus on that segment of the child population so that 
they are--in many ways, they are the ones that need support the 
most at the critical time, and we don't want to lose sight of 
that, so those have been initiatives that we have worked with 
as well.
    Mr. Payne. Thank you very much. Madame Chairwoman, I yield 
back.
    Mrs. Brooks. I would like to thank you and thank all of the 
witnesses for your very valuable testimony. I think as you said 
initially, Mr. Ghilarducci, it is ``all hands on deck'' when we 
are talking about emergency preparedness, response, and 
communications. We have seen that, seen a significant 
improvement as you have all shared. Certainly since 9/11. We 
certainly appreciate the insight that you gave during your 
opening statements as well as answering questions with a lot of 
thought and care.
    I appreciate the time and staying over. We will continue 
to, you know, take comments. I must let you know that Members 
of the committee may have additional questions for the 
witnesses, and we would ask you to respond to those in writing.
    So, at this time, pursuant to Committee Rule 7(e), the 
hearing record will be open for 10 days and, again, thank you 
all for staying over a bit longer and for the work that you are 
doing each and every day. Without objection, this subcommittee 
will stand adjourned.
    [Whereupon, at 11:51 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

        Questions From Hon. Susan W. Brooks for Timothy Manning
    Question 1. In May, FEMA released three of the five National 
planning frameworks--Prevention, Mitigation, and Response. FEMA also 
released the National Disaster Recovery Framework in September 2011. We 
are still waiting on the Protection Framework to be released. These 
frameworks are to act as guides for the whole community in developing 
and maturing capabilities to achieve the National Preparedness Goal. 
How will these frameworks help to enhance the state of preparedness?
    Answer. The National Planning Frameworks set the strategy and 
doctrine for building, sustaining, and delivering the core capabilities 
necessary for achieving the National Preparedness Goal and help enhance 
the state of preparedness in several ways. First, each framework 
establishes a set of key themes that guide the development and 
execution of the 31 core capabilities identified in the National 
Preparedness Goal. These themes include engaged partnership with the 
whole community; scalability, flexibility, and adaptability in 
implementation; and integration among the frameworks.
    Second, the frameworks emphasize a risk-driven, capabilities-based 
approach to preparedness, which helps jurisdictions maximize resources 
and focus on the risks that are most likely to affect their 
communities.
    Third, the frameworks provide an emphasis on emergency planning. 
Each framework includes planning assumptions and other valuable 
guidance that includes the development of various plans among all 
levels of government, private-sector entities, and other whole-
community partners. For example, the frameworks provide the setting for 
the development of the Federal Interagency Operational Plans (FIOPs) 
and allow for the integration of other policies, plans, and doctrine.
    Finally, the Frameworks summarize the roles and responsibilities of 
each part of the whole community in National preparedness--including 
all levels of government, private and non-profit sectors, faith-based 
organizations, communities, and individuals--recognizing the value of 
partnerships and working together.
    Question 2. The 2013 National Preparedness Report once again 
highlights cybersecurity as a major capability gap among States. In 
2012, DHS/FEMA held a National-Level Exercise that simulated a cyber 
attack. This exercise raised a number of issues, including a question 
about when Stafford Act assistance would be available in response to a 
cyber attack. How has FEMA been working with the Department's National 
Protection and Programs Directorate and relevant stakeholders to 
address the findings of the exercise?
    Answer. For the 2012 National-Level Exercise, FEMA's National 
Exercise Division led an analysis of observations and findings from the 
exercise, and facilitated development of corrective actions. This 
effort included subject-matter experts from both the public and private 
stakeholder community and the corrective actions are part of the formal 
Corrective Action Program (CAP). At multiple levels of government, key 
stakeholders have conducted working group meetings and other forums to 
collaborate on resolving the issues.
    After the exercise, FEMA's responsibility is to track the progress 
of the corrective actions. A primary agency and specific individual as 
a point of contact are assigned to each corrective action and are 
responsible for collaborating with identified supporting agencies (such 
as NPPD) and other stakeholders to implement appropriate 
recommendations and report the corrective action as complete.
    Question 3. When you testified before this subcommittee in March, 
we discussed the draft Capability Estimation Guide. At the time of the 
hearing, you indicated that the guide was in its final stages of 
completion and would include information from pilot programs. Can you 
share with us the results of the pilot programs?
    Answer. During the spring of 2013, FEMA developed draft capability 
estimation guidance and supported a pilot program to facilitate 
implementation of the ``Estimating Capability Requirements'' component 
of the National Preparedness System. The results of this pilot program 
led to a streamlined Threat and Hazard Identification and Risk 
Assessment (THIRA) process that includes capability estimation and 
associated technical assistance.
    Based on feedback received during the National review of the 
Capability Estimation Guide last spring, FEMA updated the THIRA 
guidance, releasing the Comprehensive Preparedness Guide (CPG) 201, 
Second Edition: Threat and Hazard Identification and Risk Assessment, 
in August, 2013. The updated CPG incorporates capability estimation as 
step 4 of the THIRA process. Jurisdictions implement this process to 
determine the resources required to achieve their capability targets, 
and successfully manage their risks.
    This year, all grantees receiving funding assistance from the 
Homeland Security Grant Program, Tribal Homeland Security Grant 
Program, and Emergency Management Performance Grants, must conduct a 
THIRA in alignment with CPG 201, Second Edition. All grantees will 
complete and submit a THIRA to FEMA by December 31, 2013. As a part of 
the completed THIRA, grantees will conduct capability estimation for a 
subset of the 31 core capabilities, including eleven Response-specific 
core capabilities and two Recovery core capabilities. These are as 
follows:
  <bullet> Response:
    <bullet> Critical Transportation;
    <bullet> Environmental Response/Health and Safety;
    <bullet> Fatality Management Services;
    <bullet> Infrastructure Systems;
    <bullet> Mass Care Services;
    <bullet> Mass Search and Rescue Operations;
    <bullet> On-Scene Security and Protection;
    <bullet> Operational Communications;
    <bullet> Public and Private Services and Resources;
    <bullet> Public Health and Medical Services;
    <bullet> Situational Assessment.
  <bullet> Recovery:
    <bullet> Health and Social Services;
    <bullet> Housing.
    Question 4. For the second year in a row, the President's fiscal 
year 2014 budget request includes a proposal to consolidate a number of 
non-disaster grants into a new National Preparedness Grant Program. 
This request has been repeatedly denied by Congress due to a lack of 
detail. We have been told that the administration is developing a 
legislative proposal that would provide the additional detail we are 
looking for. What is the status of this proposal and when will it be 
sent to Congress?
    Answer. The administration has re-proposed the National 
Preparedness Grant Program (NPGP) to continue the development and 
sustainment of a robust National preparedness capacity supported by 
cross-jurisdictional and readily deployable State, local, Tribal, and 
territory assets.
    DHS and FEMA recognize that a secure and resilient Nation is one 
with the necessary capabilities in place, across the whole community, 
to prevent, protect against, mitigate, respond to, and recover from the 
threats and hazards that pose the greatest risk. The fiscal year 2014 
NPGP will continue the building and sustainment of the core 
capabilities in the National Preparedness Goal (NPG) across the whole 
community.
    The administration's proposal is in the final stages of the 
Executive branch concurrence process, and will be shared when the 
process is complete.
    The administration's fiscal year 2014 budget re-proposes the NPGP, 
originally presented in the fiscal year 2013 budget, to create a robust 
National preparedness capability, with some adjustments made to respond 
to broad stakeholder feedback solicited and received during 2012. In 
particular, the fiscal year 2014 NPGP provides grantees and other 
stakeholders greater certainty regarding the sources and uses of 
available funding while maintaining the core priorities of the 
administration's fiscal year 2013 grants vision.
    (1) The fiscal year 2014 NPGP prioritizes the development and 
        sustainment of core capabilities as outlined in the NPG. 
        Particular emphasis is placed on building and sustaining 
        capabilities that address high-consequence events that pose the 
        greatest risk to the security and resilience of the United 
        States and can be utilized to address multiple threats and 
        hazards. The NPGP continues to utilize a comprehensive process 
        for assessing regional and National capability requirements 
        through the Threat and Hazard Identification and Risk 
        Assessment (THIRA) and capability estimation processes, in 
        order to prioritize capability needs and invest in critical 
        National capabilities.
    (2) DHS will submit a comprehensive legislative proposal seeking 
        authorization of the proposed NPGP. That legislative proposal 
        currently is under review within the administration; we expect 
        that Congress will receive it in the near future.
    Question 5a. As we move forward in developing the National 
Preparedness Report and implementing the National Preparedness System, 
what steps need to be taken to ensure that we are getting an accurate 
picture of the Nation's state of preparedness?
    Answer. FEMA has identified a set of strategic priorities for the 
National Preparedness Report (NPR) to ensure an accurate picture of the 
Nation's state of preparedness and support implementation of the 
National Preparedness System. These priorities include collecting 
repeatable preparedness indicators to demonstrate year-over-year 
progress and gathering meaningful indicators from across the whole 
community. These activities will help inform the development and 
implementation of National preparedness priorities. Finally, it remains 
a priority to effectively communicate preparedness progress to inform 
decisions across the whole community.
    Question 5b. How do we ensure that the whole community is included 
in the development process for the National Preparedness Report?
    Answer. The NPR is intended to reflect preparedness contributions 
from the full spectrum of whole community partners: Federal, State, 
local, Tribal, and territorial governments; the private sector; non-
governmental organizations; faith-based and community partnerships; the 
access and functional needs community; and individuals.
    FEMA will continue to encourage whole-community partners to 
contribute to future evaluations of National preparedness by 
participating in the planning process, exercises, and capability 
assessments. In November 2010, FEMA published CPG 101: Developing and 
Maintaining Emergency Operations Plans, Version 2 (CPG 101 v. 2), to 
assist in making the planning process consistent across all phases of 
emergency management and for all homeland security mission areas. With 
this edition, greater emphasis is placed on representing and engaging 
the whole community--to include those with access and functional needs, 
children, and those with household pets and service animals. Grantees 
are required to submit to FEMA an annual assessment of their progress 
in developing and/or updating and exercising their EOP that reflects 
this planning guidance. In addition, FEMA encourages States, 
territories, urban areas, and Tribes to engage the whole community in 
the development of their THIRA and SPRs and report to FEMA on whole 
community participation. The results of these efforts are used to 
support and validate key findings in the NPR. Findings from exercises--
as well as real-world event responses--are a valuable performance-based 
tool for understanding areas of strength and areas for improvement in 
preparedness Nationally. Whole-community partners should engage in the 
yearly State Preparedness Report process as it remains a key avenue for 
State, local, Tribal, and territorial stakeholders to support future 
NPRs.
    In addition, private-sector organizations can continue to engage in 
annual assessments and reporting on critical infrastructure protection 
and resilience, which helps the Nation understand the progress made 
across all 16 infrastructure sectors in protecting critical 
infrastructure.
    Non-governmental, faith-based, disability, access and functional 
needs, and community organizations can document and share their 
accomplishments to highlight the critical role they play across the 
core capabilities. Lessons Learned Information Sharing (LLIS.gov) 
serves as the National, on-line network of lessons learned, best 
practices, and innovative ideas for the emergency management and 
homeland security communities. LLIS.gov provides Federal, State, local, 
Tribal, and territorial responders and emergency managers with a wealth 
of information and front-line expertise on effective planning, 
training, and operational practices across homeland security functional 
areas. Best practices, lessons learned, and case studies developed by 
practitioners and submitted to LLIS.gov are used in the NPR to 
illustrate whole-community preparedness efforts.
        Questions From Hon. Susan W. Brooks for Mark Ghilarducci
    Question 1. What are your thoughts about the consolidation of non-
disaster grants into a single National Preparedness Grants Program?
    Answer. Comprehensive grant reform is necessary to give State and 
local public safety officials sufficient flexibility to ensure funds 
can be used as effectively as possible. The current grants structure 
reduces the flexibility of grantees to invest in capabilities 
identified as the highest priority and does not properly incentivize 
collaboration between local governments and State agencies. This can 
lead to duplication of effort and restricts States from ensuring 
resources are used to meet the most critical needs.
    Thoughtful reform can ensure the efficient and effective use of 
taxpayer dollars while protecting our citizens and our way of life. 
Consolidation of the grant programs such as that proposed by the 
National Preparedness Grant Program (NPGP) is one possible solution. As 
the committee considers the NPGP or other reform proposals, the 
National Governors Association (NGA) and the Governors' Homeland 
Security Advisors Council (GHSAC) encourage you to ensure that any 
reforms provide greater flexibility to meet today's dynamic threats 
while ensuring transparency, accountability, and collaboration. 
Additional improvements could also have a positive impact, such as:
  <bullet> Extending the period of performance.--Lengthening the 
        current 2-year grant process would better ensure effective use 
        of taxpayer dollars and lead to more sustainable outcomes. The 
        condensed 24-month period of performance lends itself to 
        funding the expedient, but not necessarily the highest priority 
        or most beneficial projects. This can include projects and 
        programs that tend to be more complex and comprehensive, such 
        as interoperable communications or cybersecurity.
  <bullet> Providing better performance metrics.--While Federal 
        investment in building and sustaining State and local 
        capabilities has clearly improved community preparedness 
        Nation-wide, a systematic process to determine both the 
        qualitative and quantitative value of Federal investments 
        against preparedness priorities and capability gaps the Nation 
        has lacked. Establishing more clearly-defined performance 
        metrics, time lines, and milestones will provide a means to 
        link investments to National preparedness priorities and 
        measure progress in filling capability gaps over time.
  <bullet> Strengthening States' leadership role.--States are best-
        positioned to understand the daily threats facing their 
        communities and serve as key facilitators in the homeland 
        security enterprise. Reform of current grant programs should 
        provide States with the flexibility to determine which projects 
        should be funded and where investments should be made within 
        their own borders.
    The Federal Government should also ensure that reforms eliminate 
inefficiencies, avoid duplication of effort, and do not place 
additional administrative burdens on States.
    Question 2. Chairman McCaul and Chairman King recently released a 
report on the National Network of Fusion Centers, which among other 
things discussed the importance of the National Network to our Nation's 
homeland security mission and made recommendations for the network's 
improvement. California has a number of fusion centers, six I believe. 
Additionally, California is one of the few States that have developed a 
coordinated State-wide fusion center program--the State Threat 
Assessment System (STAS). How has implementation of this system helped 
to enhance California's state of preparedness?
    Answer. Since its establishment in 2007, the State Threat 
Assessment System (STAS) has significantly enhanced California's 
preparedness to counter the full spectrum of threats facing the State. 
California's comprehensive STAS is comprised of five Regional Threat 
Assessment Centers (RTACs) and a State Threat Assessment Center (STAC). 
Our preparedness capability has been supported by the STAS through both 
the implementation of a concept of operations governing its activities, 
and numerous intelligence coordination and information-sharing 
agreements. These enabling agreements have facilitated the creation of 
joint threat assessments, information-sharing environments, and the 
Terrorism Liaison Officer (TLO) Network. These tools and products help 
construct a comprehensive State-wide threat picture and better enable 
State and local leaders to efficiently deploy their resources to 
prepare for or respond to the threats facing California and the broader 
western region.
    Through STAS, TLOs are enlisted and trained to serve as 
California's front-line defense to disrupt terrorist plots, analyze 
disparate pieces of information and share analyses with the National 
intelligence community. California's system brings together public 
safety agencies at all levels of government and provides first 
responders with the tools and training necessary to detect and report 
suspicious activity that may be a pre-indicator of terrorism or other 
criminal activity. More than 84,000 law enforcement officers and public 
safety personnel in California have received training through the 
program. We believe our experience with STAS demonstrates how continued 
leadership and investment in the Nation's network of fusion centers can 
provide a critical resource to meet local, State, and National 
intelligence and information-sharing needs.
    Question 3. Would you recommend this system or a similar system to 
States that have multiple fusion centers?
    Answer. The State Threat Assessment System (STAS) could be a force 
multiplier for other States with multiple fusion centers, but each 
State faces a unique set of circumstances and must have the flexibility 
to use systems and processes that best fit their needs. Intelligence 
coordination and information sharing are universal concepts within the 
fusion center network and implementing a version of California's STAS 
concept of operations could enhance those activities in other States. 
The STAS has provided California's fusion centers with the ability to 
quickly and efficiently share critical intelligence information and 
best practices. At the same time, each STAS member center retains its 
unique mission and independence so it can provide the focused support 
upon which their customers depend.
    Question 4. As we move forward in developing the National 
Preparedness Report and implementing the National Preparedness System 
(NPS), what steps need to be taken to ensure that we are getting an 
accurate picture of the Nation's state of preparedness?
    Answer. An accurate picture of National preparedness requires a 
standardized, Government-wide planning doctrine for disaster 
management. States continue to have concerns with integrating NPS 
guidance, such as the Threat and Hazard Identification and Risk 
Assessment (THIRA), into their annual disaster planning processes. As I 
discussed in my written testimony, there are a number of steps FEMA 
could take to improve State-Federal engagement on the NPS, streamline 
planning processes and make the system work in a truly integrated and 
synchronized manner. These recommendations include the following:
  <bullet> FEMA must connect the dots on the NPS.--There has been 
        little guidance on how the State Preparedness Report, THIRA, 
        and other parts of the NPS will form a cohesive ``system'' that 
        will meet the National Preparedness Goal. The Federal Emergency 
        Management Agency (FEMA) must provide the State, local, Tribal, 
        and territorial (SLTT) community with a better understanding of 
        how NPS processes are integrated to meet objectives and measure 
        performance over time.
  <bullet> The NPS should be given time to mature.--To ensure 
        implementation and the support of the SLTT community, processes 
        and doctrine must remain consistent. In many ways, instituting 
        the NPS will require a cultural shift and changes to entrenched 
        bureaucracies. Stability and continuity will ensure that new 
        processes and procedures have the opportunity to take root 
        within all levels of government and are fully integrated as the 
        NPS was designed.
  <bullet> Elements of the NPS need to be aligned and synchronized.--
        Recently, regional THIRAs were performed by FEMA Regional 
        Offices before State THIRAs were complete. For the NPS to be 
        effective, deliverables should be synchronized and better 
        aligned to ensure valuable information from States and 
        localities can be included in regional plans. This small but 
        important change will provide senior leadership at all levels 
        with a shared situational awareness about the risks, 
        capabilities, assets, and resources that exist across and 
        within jurisdictions.
    Furthermore, reform of Federal preparedness grant programs would 
allow States to better align Federal and State funding with capability 
targets identified through the NPS process. In combination with the 
recommendations above, grant reform would ensure that Federal 
investments in State and local capabilities are supporting State-wide 
and regional needs, as well as the overall objectives of the National 
Preparedness Goal.
    Question 5. How do we ensure that the whole community is included 
in the development process for the National Preparedness Report (NPR)?
    Answer. States are taking a number of steps to ensure that local 
communities are part of the disaster planning and funding allocation 
process. This includes involving cities and municipalities in the THIRA 
process early on, so that State THIRAs are informed and aligned with 
the needs of local communities and the surrounding region. As mentioned 
above, better alignment and synchronization of NPS products would help 
support State efforts to improve collaboration with partners at the 
local and municipal levels and solicit their valuable input into State-
wide risk assessments and preparedness reviews. The Department of 
Homeland Security (DHS) and FEMA could also take several steps to 
facilitate better collaboration and ensure that feedback from all 
relevant stakeholders is comprehensive and provides value to the NPR. 
These recommendations include the following:
  <bullet> Existing relationships with State stakeholder groups should 
        be better utilized. DHS and FEMA could take better advantage of 
        existing State efforts, associations, and councils, such as the 
        GHSAC, to solicit input and feedback on NPS guidance and 
        programs. As much as FEMA and the Federal Government are 
        leading these efforts, effective collaboration must go both 
        ways. Innovations at the State level in these areas can better 
        inform the development of Federal guidance and operating 
        procedures.
  <bullet> Federal outreach must happen earlier with more time allotted 
        for feedback. DHS has concurrently solicited SLTT input on a 
        series of draft planning documents (including the National 
        Infrastructure Protection Plan). This has made it a challenge 
        for some stakeholders to prioritize feedback requests and 
        provide a timely response under the tight deadlines provided. 
        If DHS seeks meaningful input from SLTT stakeholders, a 
        reasonable amount of time--certainly more than a couple of 
        weeks--must be offered.
  <bullet> Promote shared awareness of regional resources and expand 
        mutual aid capabilities. Knowledge of regional assets and 
        capabilities is critical for State preparedness and response 
        planning. For States to provide accurate capabilities 
        assessments, they must be able to account for the resources and 
        assistance available just across their borders. FEMA is best 
        positioned to facilitate better coordination through its 
        regional offices by supporting mutual aid agreements and 
        awareness of resources between States and the FEMA regions.
       Questions From Hon. Susan W. Brooks for Jeffrey W. Walker
    Question 1. What are your thoughts about the consolidation of non-
disaster grants into a single National Preparedness Grant Program?
    Answer.
Combining Non-disaster Grants
    Non-disaster grants include a wide variety of grant programs that 
cover a number of different areas of responsibility. Some of these 
areas would not make good candidates for joining together in one over-
arching grant program. For example, the Emergency Management 
Performance Grant Program (EMPG) should not be included in any grant 
consolidation program. The Emergency Management Performance Grant 
Program (EMPG) should be maintained as a separate all-hazard program 
focused on capacity-building for all-hazards preparedness, response, 
recovery, and mitigation at the State, local, and Tribal levels for 
those entities statutorily charged with such responsibility. All 
disasters start and end at the local level, which emphasizes the 
importance of building and sustaining this capacity at the local 
governmental level. Funding from EMPG frequently makes a difference as 
to whether or not a qualified person is present to perform these duties 
in a local jurisdiction.
    EMPG is fundamentally different from the suite of post-September 
11, 2001 homeland security grants. It has been in existence since the 
1950's, requires a 50% State, Tribal, and local match and has 
established performance measures. EMPG, called ``the backbone of the 
Nation's emergency management system'' in a Congressional report 
constitutes the only source of direct Federal funding for State and 
local governments to provide basic emergency coordination and planning 
capabilities including those related to homeland security. The program 
supports State and local government initiatives for planning, training, 
exercises, public education, as well as response and recovery 
coordination during actual events.
    In addition, the Firefighter Assistance program grants and the Pre-
Disaster Mitigation grants should not be included in any consolidation 
proposal.
Administration's National Preparedness Grant Program Proposal
    Along with 12 other National organizations of local elected 
officials, police chiefs, sheriffs, and the major fire organizations, 
IAEM-USA voiced our concern about the administration's fiscal year 2014 
budget proposal. This proposal would combine the current suite of DHS 
homeland security grant programs into a State-administered block and 
competitive grant program in which funding decisions would be based on 
State and multi-State threat assessments without clear local 
involvement. The proposal posited the use of a Threat and Hazard 
Identification and Risk Assessment (THIRA) but did not describe the 
role of locals in the process or how to handle a disagreement on the 
results.
    We believe that such a consolidation proposal should be carefully 
considered by the authorization committees and not accomplished through 
the appropriations process. It is our understanding that the 
administration will be submitting a legislative proposal to the 
authorization committees and we look forward to reviewing that language 
and having discussions with FEMA and the committees. Without the 
specific language it is difficult to evaluate.
    Our 13 organizations agreed on a set of principles for reforming 
the homeland security grant programs to include transparency, local 
involvement, flexibility and accountability, local funding, terrorism 
prevention, and incentives for regionalization. We will review the 
language with these principles in mind.
    Question 2. As we move forward in developing the National 
Preparedness Report (NPR) and implementing the National Preparedness 
System, what steps need to be taken to ensure that we are getting an 
accurate picture of the Nation's state of preparedness?
    Answer. Elected Government leaders, legislative bodies, emergency 
responders, and citizens have been asking the question, ``How prepared 
are we?'' This question has loomed large in our minds since September 
11, 2001--and even more so in recent years with their economic 
constraints. We have traditionally answered this question by reciting 
anecdotal stories or visually displaying data related to the things we 
can count--what we have purchased and activities we have undertaken--in 
maps, charts, tables, and graphs. Unfortunately, these stories and data 
have had little meaning absent a framework against which to interpret 
their meaning. The NPR has attempted to provide such a framework by 
looking at the 31 core capabilities strictly from the perspective of 
the Federal and State government. Most of the capability within the 
United States actually resides at the local government level (below the 
State level) and does not appear to be reflected in the NPR data.
    Jurisdictions at all levels invest in emergency management 
preparedness activities to ensure, to the degree possible, that their 
jurisdiction is ready to efficiently and effectively mitigate, prepare 
for, respond to, and recover from hazard events. Thus, the answer to 
the question posed by this committee is quite important. And, to this 
point jurisdictions at all levels have not been able to answer 
satisfactorily.
    If we desire a system of measurement that allows us to assess the 
extent to which we are prepared as a result of our investments in 
emergency management, then we must ensure that the system must be 
simple, relevant, and valued across stakeholder groups (including 
Congress, FEMA, and State, territory, Tribal, and local jurisdictions). 
The system and any associated tools must facilitate the local 
jurisdiction's understanding of the status of its preparedness and what 
remains to be accomplished as well as the Federal Government's 
understanding of the extent to which the Nation is prepared.
    In 2011 the U.S. Council of the International Association of 
Emergency Managers (IAEM-USA) released a document entitled, 
Preparedness: A Principled Approach to Return on Investment, which 
tackles this important issue by articulating a meaningful system of 
measurement for the Emergency Management Performance Grant (EMPG) that 
IAEM-USA believes will also be simple, relevant, and valued. The EMPG 
program, in place since the 1950's is intended to be a 50-50 matching 
program between the Federal Government and participating local, State, 
Tribal, and territory jurisdictions designed to build capacity at all 
levels of government.
    It may be easiest to introduce what a meaningful framework against 
which to measure preparedness would entail if we first begin at the end 
with our vision of what a prepared jurisdiction (at any level) would be 
able to do in the aftermath of hazard events. We know what we want. We 
want jurisdictions across the Nation to be able to effectively 
mitigate, prepare for, respond to, and recover from hazard events. We 
want to limit injuries and deaths, property and infrastructure loss, 
and environmental damage after a hazard event. We want jurisdictions to 
manage hazard events at the lowest possible level and with their own 
resources if possible. We want jurisdictions that can efficiently and 
effectively utilize their resources and the resources of supporting 
jurisdictions to get what they need, when they need it, where they need 
it. We want jurisdictions to be able to quickly get their jurisdictions 
back to normal and better than normal if possible. And, we want to know 
that this vision will be consistently achieved in the wake of hazard 
events. Making this vision a reality is the job of emergency 
management.
    How emergency management makes this vision a reality is not 
adequately captured through anecdotal stories or reports of the number 
of equipment purchased or plans produced. Simple stories and numbers do 
not alone paint a picture of preparedness nor do they get at the heart 
of what ultimately allow jurisdictions to achieve our vision.
    A prepared jurisdiction is one that engages in preparedness actions 
guided by professional emergency managers and professional emergency 
management programs. The jurisdiction's preparedness actions are driven 
by the risks that they face. The jurisdiction has comprehensively 
considered all known hazards, vulnerabilities, and possible impacts and 
actively engages in preparedness actions related to mitigation, 
response, and recovery. The jurisdiction is progressive by 
incorporating innovations, technologies, and best practices as they 
ready themselves for future hazard events. The jurisdiction's 
preparedness actions have provided a legitimate basis upon which to act 
in the wake of hazard events but are not so rigid as to lack the 
flexibility to respond to unanticipated issues. The stakeholders in the 
jurisdiction (e.g., fire, police, public works, and elected officials) 
are integrated by their use of common technologies, systems, and 
management processes. The jurisdiction operates in a collaborative 
organizational environment wherein inclusiveness, relationships based 
on trust, on-going interactions between stakeholders, open 
communication, and consensus-based decision making are the norm. And, 
finally, the prepared jurisdiction would be coordinated; the 
stakeholders within the jurisdiction would know and accept their roles, 
have identified the procedures necessary to fulfill their roles, and 
have practiced the fulfillment of their roles in conjunction with other 
stakeholders.
    A prepared jurisdiction is the goal of every emergency management 
practitioner and every emergency management program. Bringing about the 
description above is the reason emergency management exists. The EMPG 
program allows emergency management to work toward these outcomes; 
therefore, our objectives and measures associated with EMPG should be 
designed to measure progress towards these goals. We strongly believe 
that the principles outlined above may have wider applicability than 
simply measuring the return on investment in EMPG funding.
    IAEM suggests in Preparedness that a framework of preparedness 
objectives based on the accepted Principles of Emergency Management 
(2007) should be used to derive meaningful objectives and measures for 
the preparedness grant program most valued by local emergency 
managers--EMPG. This argument is supported by decades of disaster and 
emergency management research. The fact is the things we buy and the 
activities we undertake with preparedness funds are critical because 
they contribute to our ability to achieve these outcomes.
    Preparedness suggests a principle-based process to developing 
measures of return on investment for EMPG. The second part lays out a 
cohesive framework of outcomes. We are pleased to present the document 
to this committee, and we urge dialogue within Congress and FEMA with a 
goal of adopting the framework presented by IAEM-USA as a means to 
assess the overall preparedness of our Nation.
    Question 3. How do we ensure that the whole community is included 
in the development process for the National Preparedness Report?
    Answer. IAEM-USA suggests that following the model proposed in our 
document will create a process that is more inclusive of the whole 
community, and the impact those interactions have on the overall level 
of preparedness within our Nation.
         Questions From Hon. Susan W. Brooks for James Schwartz
    Question 1. In the National Preparedness Report, the intelligence 
and information-sharing capability was listed as one of the areas of 
National strength. However, I'm concerned that the report overlooked 
the lack of information sharing between Federal and State law 
enforcement entities and first responders, specifically fire fighters. 
How can we improve this interaction to ensure that our fire service 
personnel and other first responders are aware of any criminal or 
terrorist activity in the communities they serve?
    Answer. This issue continues to be a constant problem for the fire 
and emergency services, even though there has been improvement. 
Effective information sharing for the fire and emergency service must 
meet two important criteria:
    (1) It must be timely.--In many cases, information from the fusion 
        centers comes out after press reports. This problem is to be 
        expected in the case of an on-going terrorist attack where CNN 
        and the major news networks will display the events in real-
        time as Federal, State, Tribal, and local authorities try to 
        determine what is happening. However, it is a problem, when the 
        information distributed by a fusion center warning about a 
        possible threat does not add any information beyond what fire 
        chiefs can pick up from public sources.
    (2) It must provide information that fire chiefs can use to take 
        action to protect their communities.--Much of the information 
        from fusion centers is not much different than information that 
        chiefs can infer or obtain from public sources. Many fire 
        chiefs take actions to protect their communities based on this 
        information and information gained from relationships with 
        Federal, State, Tribal, and local authorities in their 
        jurisdictions. The best information is strategic information 
        that will influence the response capabilities that a fire chief 
        develops.
    One example of a successful information-sharing partnership is the 
Joint Counterterrrorism Assessment Team (JCAT), which is part of the 
National Counterterrorism Center. The JCAT invites local first 
responders to work with intelligence analysts to develop information-
sharing products that are written from the first responders' 
perspective. These products include information about potential 
terrorists' threats, tactics, and techniques, along with how local 
communities can prepare for these threats.
    Question 2. What are your thoughts about the consolidation of non-
disaster grants into a single National Preparedness Grant Program 
(NPGP)?
    Answer. The IAFC continues to be concerned about the 
administration's National Preparedness Grant Program (NPGP) proposal. 
Over the past 2 years, we have asked for more information about how the 
program would work and offered to engage in negotiations with the 
administration to develop a grant program that meets the needs of local 
first responders, the administration, and other stakeholders. However, 
we have not received detailed information about how the NPGP would 
actually work.
    While the revised NPGP proposal for fiscal year 2014 meets some of 
our previous concerns, we continue to believe that a successful reform 
of the existing homeland security grant programs must include the 
principle of local input into the grant determination process. The 
local first responders will be the first on-scene in an incident and 
will remain in the community afterwards. In addition, local first 
responders best know their preparedness capabilities and where the 
potential targets and weaknesses are in their communities. Any 
successful grant program must include the participation of all 
stakeholders: Federal, State, Tribal, and local.
    Question 3. As we move forward in developing the National 
Preparedness Report and implementing the National Preparedness System, 
what steps need to be taken to ensure that we are getting an accurate 
picture of the Nation's state of preparedness?
    Answer. The first thing that we need to decide as a Nation is 
whether we would like to measure outputs or outcomes. Many analysts try 
to use a quantitative approach that measures the number of fire 
apparatus, search-and-rescue teams, etc. purchased with Federal funds. 
This method is simpler to use, but misses the true qualitative approach 
needed to measure preparedness. A more outcome-based approach would 
focus on concepts such as better coordination by local communities and 
regions, better training, possession of the necessary resources, and 
other factors that would result in an effective response.
    The National Preparedness Goal focuses on the development of 
capabilities that are important to an effective response. However, it 
makes an important error in not including fire fighting as a core 
capability. Many fire and emergency service departments are involved in 
the core capabilities, such as Threats and Hazard Identification, Mass 
Search and Rescue Operations, Public Health and Medical Services, and 
Operational Communications. However, all of these capabilities require 
fire departments to engage in activities above their baseline mission. 
It is difficult to measure the preparedness of fire and emergency 
departments to perform these other capabilities without a definition of 
the baseline mission of the department.
    In order to get a comprehensive understanding of the Nation's 
preparedness, the IAFC recommends that the administration look at not 
only preparedness activities taken through Federal mandates and 
funding, but also what the States and localities are doing. States, 
like Virginia, complete an Annual Fire Service Assessment for the 
Virginia State Assembly. Non-governmental organizations, such as the 
National Fire Protection Association, complete semi-annual needs 
assessments for the fire and emergency services that provide 
information about the Nation's preparedness at the State and local 
level. In addition, there are numerous academic analyses of the 
Nation's preparedness and response capabilities. In order to 
effectively measure the Nation's National preparedness, FEMA should 
include reports and assessments from Federal, State, Tribal, and local 
governments, non-governmental organizations, and academic institutions.
    Question 4. How do we ensure that the whole community is included 
in the development process for the National Preparedness Report?
    Answer. It is important for FEMA to work with all stakeholders to 
examine a comprehensive picture of what is happening. As stated above, 
there are numerous analyses being completed by Tribal, State, local, 
non-governmental, and academic entities. These entities should be 
engaged in developing the National Preparedness Report. In addition, 
the report should reflect that local communities and regions have 
relationships that fall outside of the Federal sphere, and FEMA should 
work with these communities and regions to include their perspectives 
in this report.

                                 <all>

</pre></body></html>
